                             United States Department of State
                             and the Broadcasting Board of Governors

                             Ofﬁce of Inspector General
Ofﬁce of Inspector General

                             Semiannual Report to the Congress


                             October 1, 2009, to March 31, 2010
                                  Summary of OIG Accomplishments


Financial Results:
Questioned costs
         Issued during the reporting period                                                                            $132,000,000
         Management decision during the reporting period                                                               $       890,000


Recommendations for funds to be put to better use
         Issued during the reporting period                                                                            $              0
         Management decision during the reporting period                                                               $              0

Investigative monetary recoveries                                                                                      $          72,733

Investigative Results:
Cases opened ....................................................................................................................         58 

Cases closed ......................................................................................................................       48 

Criminal actions ................................................................................................................... 116

Administrative actions........................................................................................................            29 

Hotline and complaint activity ...................................................................................... 648




Reports Issued: 76

                       Picture on the front cover: Embassy Podgorica, Montenegro
                      Picture provided by Ofﬁce of Overseas Buildings Operations




                                            Requests for additional copies of this
                                            publication should be addressed to:

                                                       Ofﬁce of Inspector General

                                                        U.S. Department of State

                                                          OIG/EX, Room 810

                                                        1700 North Moore Street

                                                          Arlington, VA 22209




                                           Department of State Publication 11462
                                                   Ofﬁce of Inspector General
TABLE O
      OFF CO
          CONTENTS



MESSAGE FROM THE DEPUTY INSPECTOR GENERAL .......................... 1 

EXECUTIVE SUMMARY..................................................................................3

CONGRESSIONAL ACTIVITIES AND OUTREACH ...................................13


DEPARTMENT OF STATE
MIDDLE EAST REGIONAL OFFICE ............................................................ 19

AUDITS.............................................................................................................25

INSPECTIONS ..................................................................................................27

INVESTIGATIONS .......................................................................................... 69

APPENDIX 1: INVESTIGATIVE ACTIVITIES .............................................75

APPENDIX 2: REPORTS ISSUED ................................................................. 77

APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE

  OF RESOURCES ..........................................................................................83

APPENDIX 4: RESOLUTION OF REPORTS AND 

  RECOMMENDATIONS .............................................................................. 85

APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS.................... 103

APPENDIX 6: MANAGEMENT AND PERFORMANCE CHALLENGES 105


BROADCASTING BOARD OF GOVERNORS
AUDITS.......................................................................................................... 115

INSPECTIONS ............................................................................................... 117

INVESTIGATIONS123
APPENDIX 1: BBG INVESTIGATIVE ACTIVITIES................................. 125

APPENDIX 2: REPORTS ISSUED127

APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE 

   OF RESOURCES .......................................................................................129

APPENDIX 4: AUDITS PERFORMED BY CONTRACTORS.....................131

APPENDIX 5: MANAGEMENT AND PERFORMANCE CHALLENGES 133

LIST OF ABBREVIATIONS ......................................................................... 137

MESSAGE FROM THE
DEPUTY INSPECTOR GENERAL
                                         I am pleased to present the Ofﬁce of Inspector
                                         General (OIG) Semiannual Report to the Congress
                                         for the Department of State (Department) and the
                                         Broadcasting Board of Governors (BBG). This
                                         report covers the period ending March 31, 2010, as
                                         required by the Inspector General Act of 1978, as
                                         amended.

                                  When people ask me what I do at OIG, I respond
                                  that the best part of my job is supporting the
                                  good work we are doing, and watching the positive
     Deputy Inspector General,

                                   impact of that work on the Department and BBG.
         Harold W. Geisel

                                   It is particularly gratifying to see that appreciation
                                   shared by the Department, Ofﬁce of Management
and Budget (OMB), and Congress, who have matched a rapid increase in demand
for our work with the resources we need to get the job done. Since my return almost
2 years ago, OIG funding has more than doubled. Nearly half of the increase has
come from supplemental funding for oversight of Department and BBG operations
in Iraq and Afghanistan, Pakistan, Gaza, and elsewhere in the Middle East, and of
more than $600 million in Department projects funded by the American Reinvest­
ment and Restabilization Act (ARRA). These resources have allowed OIG to stand
up on-the-ground operations in some of the Department’s most challenging and
vulnerable locations—Baghdad, Kabul, and Islamabad. They also provide timely,
relevant information on some of its most costly and high-risk programs, including
counternarcotics programs in Afghanistan and Pakistan, design and construction
of the new embassy compound in Baghdad, and management of the Department’s
information security, overseas laptop inventory, and IT consolidation efforts.

We still face the challenge of translating these increases into stable, sustained opera­
tions for the future. The supplemental funding that has allowed us to accomplish so
much is a double-edged sword. On one hand, it has allowed us to quickly establish
essential operations, including our Middle East Regional Ofﬁce and Middle East
Investigative Branch, and to expand our ability to respond to the myriad of unan­
ticipated, quick-response requests that are an inevitable by-product of government
operations. On the other hand, maintaining these gains requires the stability of base
funding if our enhanced capabilities are not to expire with the end of the ﬁscal year.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   1
We continue to work with the Department, BBG, OMB, and Congress to ensure we
can meet their expectations for responsive, relevant, timely oversight to inform criti­
cal decisionmaking. Those expectations include employees who trust us to keep their
conﬁdences and examine their issues fairly; posts and bureaus that depend on us to
bring their problems and challenges to the attention of management; and Congres­
sional members and staff who look to us for expert and impartial opinions on opera­
tions of the Department and BBG. Most importantly, they know they can trust us
to tell them not just what they want to hear, but what they need to hear. As Senator
Alan Simpson observed, “If you have integrity, nothing else matters. If you don’t
have integrity, nothing else matters.”




                                       Harold W. Geisel
                                       Deputy Inspector General




2        Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
EXECUTIVE SUMMARY
          SUMMARY


The auditors, inspectors, investigators, and other professionals in the Ofﬁce of In­
spector General (OIG) promote effective management, accountability, and positive
change in the Department of State (Department), the Broadcasting Board of Gov­
ernors (BBG), and the foreign affairs community. During this reporting period, OIG
issued 76 reports with recommendations to improve the Department and BBG pro­
grams and operations, and identiﬁed more than $132 million in cost efﬁciencies—in­
cluding questioned costs, ﬁnes, and recoveries. A full list of reports issued during this
period can be found in Appendix 2 of each agency section of this report.

The following Semiannual Report to the Congress (SAR) summarizes work carried
out by OIG during the period of October 1, 2009, through March 31, 2010.




MIDDLE EAST REGIONAL OFFICE
During this SAR period, OIG’s Middle East Regional Ofﬁce (MERO) issued two
reports on the Department’s counternarcotics programs in Afghanistan and Pakistan.
The ﬁrst performance audit centered on management and oversight by the Bureau
of International Narcotics and Law Enforcement Affairs (INL) of programs to
combat poppy cultivation and the illegal drug industry in Afghanistan. Following the
audit, OIG recommended the Department deﬁne an end state for counternarcot­
ics programs, improve coordination, and take steps to strengthen INL’s oversight
and contract management. In the second performance audit, OIG examined the Air
Wing program that provides support for counternarcotics activities and other mis­
sions in Afghanistan and Pakistan. OIG recommended actions to improve contract
oversight, as well as development of a work breakdown structure in the contract for
the Air Wing program in Afghanistan.

MERO also performed two limited-scope reviews. The ﬁrst review focused on use
of funds for construction of a heated parking garage and recreation center at Em­
bassy Astana in Kazakhstan. In the second review, which was congressionally re­
quested, OIG found that the Bureau of Population, Refugees and Migration (PRM)
and the United Nations Relief and Works Agency for Palestine Refugees in the Near
East (UNRWA) had investigated and veriﬁed that all UNRWA employees elected to
the teachers union met the guidelines set forth in Section 301(c) of the 1961 Foreign
Assistance Act, as amended.



Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   3
MERO and the Department of Defense (DOD) Inspector General issued a joint
report on training of the Afghan National Police (ANP). The teams reviewed DOD
funds provided to the Department of State for training the ANP, contract manage­
ment, and the ANP training program’s ability to address security needs in Afghani­
stan. OIG and the DOD Inspector General found the current contract does not
meet DOD’s needs in developing the ANP to counter the rising insurgency. The
Inspectors General also found ineffective internal controls which led to weaknesses
in the Department’s contract oversight and management. OIG recommended con­
ducting an audit to determine the status of funds provided by DOD; strengthening
internal controls over contract administration, oversight, and ﬁnancial reporting; and
increasing support for the Afghan women’s police corps.

In its performance audit of the Department’s contract with Triple Canopy for the
Baghdad Embassy Security Force, OIG found that although the contract was gen­
erally well-managed by the Bureau of Diplomatic Security (DS), there were some
weaknesses in contractor performance and DS’s contract management. In addition,
the guards were housed unsafely, and no entity was overseeing housing safety. OIG
made recommendations to strengthen Triple Canopy and guard performance, im­
prove oversight of guard accommodations, and analyze future security needs.



OFFICE OF AUDITS
In the second of two OIG reviews of contracts related to the design and construc­
tion of the new embassy compound (NEC) in Baghdad, Iraq, OIG, with techni­
cal assistance from a team of engineers from the U.S. Army Corps of Engineers
(USACE), examined ﬁve contracts awarded to First Kuwaiti Trading and Contracting
for about $470 million. These contracts were administered by the Emergency Project
Coordination Ofﬁce (EPCO) during construction. The audit reported that the qual­
ity of NEC construction was signiﬁcantly deﬁcient in multiple areas because designs
for the facilities had not been completed and approved, and quality control and
commissioning procedures were inadequate. OIG estimated that the Department
should attempt to recover approximately $43.5 million for work needed to bring con­
struction deﬁciencies up to contract standards and approximately an additional $33
million for incomplete and undocumented design work. OIG also identiﬁed First
Kuwaiti’s inadequate quality control program as resulting in additional maintenance
charges of approximately $38 million over 15 years. OIG recommended that the De­
partment attempt to recover approximately $3.8 million from the contractor because
commissioning activities either were not performed or were performed incorrectly.




4        Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
Also, as a separate stand-alone organization, EPCO did not adequately discharge its
contract administration responsibilities during the construction of the NEC. As a
result, construction deﬁciencies prevented the contracts from being completed on
time, and Embassy personnel could not move as planned to the more secure facilities
at the NEC. Furthermore, EPCO did not require First Kuwaiti to pay approximately
$10.9 million in liquidated damages. EPCO also approved $69.1 million in advance
mobilization payments that were not authorized by the contracts and did not require
First Kuwaiti to pay approximately $3.3 million in interest charges for the use of
those funds.

In its report on laptop computer inventories at four of six posts included in its audit,
OIG found the inventories to be inaccurate and incomplete. Speciﬁcally, of the 706
laptops reported in the six posts’ ofﬁcial inventories, 37 laptops were missing. Also,
106 laptop computers were not included in the ofﬁcial inventory, of which 96 were
being used. Post ofﬁcials reported that the remaining 10 laptop computers were
stolen or missing. An additional nine laptops had been missing at one post for 6 to
8 years, and had been improperly removed from the ofﬁcial inventory in 2008. The
ﬁles of 154 laptop users showed that only 55 ﬁles contained sufﬁcient documenta­
tion to support that the users had received the required laptop cyber security aware­
ness brieﬁngs, and 40 of 71 laptop users stated that they had not received the brief­
ing.

Furthermore, of 350 laptops tested, only 298 laptops had been encrypted, which
violated the Department’s 100 percent encryption requirement to install required
encryption software onto the hard drives of each laptop. Because of the deﬁcien­
cies noted, the likelihood that laptops could be misplaced, lost, or compromised was
increased, and the lack of security training and encryption poses security vulnerabili­
ties that personally identiﬁable information or potentially sensitive information about
Department operations could be compromised if the computers are lost or stolen.

To improve the Department’s information technology (IT) effectiveness, the former
Secretary of State announced a decision in 2007 to consolidate the Department’s
desktop computer services and support under the Bureau of Information Resource
Management (IRM) within 2 years. OIG conducted an evaluation to determine
whether the intended beneﬁts of the consolidation were being achieved. Although
customer service was the IT Consolidation Program Management Ofﬁce’s (PMO)
number one priority in pursuing IT consolidation, customer service surveys revealed
that more than 80 percent of bureau executives and IT staff were more satisﬁed with
the IT support provided by their respective bureau IT staff prior to consolidation.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   5
The PMO did not develop business, user, system, or performance requirements
required by project management guidelines. The Chief Information Ofﬁcer did not
make the policy changes necessary to address issues such as the ownership transfer
of pre-existing IT plans of action and milestones, inventory control, and informa­
tion system security ofﬁcer responsibilities. In addition, IRM did not control which
bureau IT personnel were reassigned to the IRM customer service helpdesk after
consolidation, and the Department did not have actual or accurate comparative cost
information to demonstrate whether consolidating services resulted in reduced costs
for desktop support services and systems maintenance, which was a primary goal of
the Project. OIG determined the beneﬁts of IT consolidation have not been fully
realized, and the manner in which IT consolidation has been implemented could
be improved. The improvements will require an open and cooperative relationship
between IRM and the bureaus, including IRM’s attention to outstanding customer
service and cost issues, and to participating bureaus’ resistance to discussions. OIG
made recommendations to address these deﬁciencies.

OIG contracted with independent external auditors to audit the ﬁnancial statements
of the Department. Financial management continues to be a major challenge in the
Department. Because the Department was unable to provide sufﬁcient and timely
evidential support for amounts related to property, equipment, and budgetary re­
sources, the external auditor was unable to issue an overall unqualiﬁed opinion on
the Department’s FY 2009 ﬁnancial statements. In addition, the auditor reported
three material weaknesses related to a restatement of the FY 2008 ﬁnancial state­
ments, accounting for property and equipment, and ﬁnancial reporting. The auditors
also identiﬁed signiﬁcant deﬁciencies related to accounts payable accruals, the validity
and accuracy of unliquidated obligations, and the information technology control
structure.



OFFICE OF INSPECTIONS
During this semiannual reporting period, OIG conducted 36 reviews, which included
full inspections of overseas missions, and compliance follow-up and limited-scope
reviews, where OIG identiﬁed best practices as well as potential cost efﬁciencies and
other improvements. OIG also conducted security inspections for 19 overseas mis­
sions, which are summarized in the classiﬁed annex of this report.

OIG’s Inspection of Bureau of Public Affairs, found that within his ﬁrst 6 months, the
Assistant Secretary began to strategize with the deputy assistant secretaries on bureau
reorganization and to assess problems that had predated his arrival. However, he had
not communicated his strategic vision to all bureau personnel. Lack of internal com­



6        Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
munication, inadequate oversight of bureau management, and unresolved personnel
problems had contributed to low bureau morale and higher-than-average employee
attrition. Ten years after public diplomacy was moved into the Department from
the former U.S. Information Agency, public diplomacy had not received sufﬁcient
attention within the bureau. The Bureau of Public Affairs should look for additional
opportunities to factor the perceptions of foreign media into the crafting of public
statements and in other aspects of its work. Maximization of various media ofﬁces
such as the Ofﬁce of Press Relations, the Foreign Press Centers, the U.S. Agency for
International Development’s media components, and the Ofﬁce of Broadcast Servic­
es needed to be a central goal for the bureau in executing its key media relations ac­
tivities. The bureau’s small ofﬁces charged with electronic and digital communication
sent out foreign policy messages using a range of new media tools. The effectiveness
of these ofﬁces would be enhanced by reorganization and additional stafﬁng to sup­
port this emerging, high-proﬁle public affairs responsibility. The inspection made a
number of recommendations to address these issues and improve overall operations
in the bureau.

OIG’s Inspection of Embassy Kabul, Afghanistan found the Ambassador and his leader­
ship team had made impressive progress in their ﬁrst 6 months in Kabul, implement­
ing the Administration’s plans for a massive civilian plus up to support the large in­
creases in assistance programs, while experiencing virtually 100 percent turnover of
American staff, supporting international facilitation of the Afghan presidential elec­
tions, and participating in the Administration’s Afghanistan policy review. Even with
this able leadership, the best of intentions, and the most dedicated efforts, Embassy
Kabul faced serious challenges in meeting the Administration’s deadline for “suc­
cess” in Afghanistan, which constrained new personnel’s ability, in the short term, to
promote stability, good governance, and rule of law. The embassy’s sizable ofﬁcial
visitor support workload taxed the same military and civilian assets that would oth­
erwise be deployed in the vital counterinsurgency and reconstruction efforts that the
visitors sought to evaluate. OIG recommended that Embassy Kabul include all the
new positions and resources that it needs to carry out its counterinsurgency strategy
in the FY 2012 Mission Strategic Plan.

Embassy Kabul’s management section was remarkably adaptable and responsive in
an atmosphere of massive personnel surges (from 320 U.S. executive branch employ­
ees to approximately 900 by early 2010), constant reinvention, and multiple construc­
tion and infrastructure projects, but was adversely affected by lapses in oversight
that resulted in signiﬁcant management control weaknesses, particularly in the travel
program, voucher review, and contracting. Embassy oversight of contracts and
grants was seriously hampered by the dangerous security conditions that precluded
onsite visits outside of Kabul as well as by the shortage of qualiﬁed contract ofﬁcer




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   7
representatives in Kabul and local staff trained in grants management. Stafﬁng in the
public affairs section was inadequate to handle the huge increase in public diplomacy
funding for new programs. The report includes a number of recommendations to
address these concerns.

The Inspection of Humanitarian Mine Action Programs in Afghanistan found the Depart­
ment’s Humanitarian Mine Action/Weapons Reduction program in Afghanistan was
effectively designed and managed by the Bureau of Political-Military Affairs’ Ofﬁce
of Weapons Removal and Abatement (PM/WRA). The Department and Embassy
Kabul needed to improve coordination on mine action among all appropriate agen­
cies and programs of the U.S. Government. The embassy must ensure that mine ac­
tion ofﬁcial personnel have the transportation and security resources to monitor ef­
fectively contractor performance in the ﬁeld. The Department’s contractor for mine
action and conventional weapons and ordnance destruction, DynCorp International,
fulﬁlled the terms of its contract, and the six humanitarian mine action nongovern­
mental organizations (NGOs) that received Department funding merited further
support. PM/WRA had sound plans for the next mine action contract period, and
needed to provide close oversight of the transition to a new mine action contract to
assure smooth program continuity and proper accountability of U.S. Government
property. PM/WRA had also done a good job in Mine Risk Education and Victim
Assistance, and these programs should continue. The international community goal
of a “mine-free” Afghanistan by 2013 is unrealistic and is not in keeping with the
U.S. approach to mine clearance, which seeks a “mine impact-free” end state.

OIG inspected the three U.S. missions in Brussels, Belgium, during this semiannual
period, and issued the Inspection of Embassy Brussels, Inspection of U.S. Mission to the
North Atlantic Treaty Organization (USNATO), and Inspection of U.S. Mission to the Euro-
pean Union (USEU). The team also prepared a report summarizing issues of mutual
concern for the three missions.

OIG’s Inspection of Tri-Mission Coordination, Brussels, Belgium found a growing conver­
gence in the agendas and priorities of the Brussels Tri-Mission—embracing a widen­
ing range of issues. OIG recommended that the missions develop a plan for expand­
ing and formalizing communication and coordination among the missions on issues
where their respective policy agendas converged. Given the importance of the joint
administrative services (JAS) section to the functioning and morale of all three mis­
sions, the leadership of all three should assume greater collective responsibility for
overseeing and supporting JAS. Over the next 10 years, the continued expansion of
U.S. relations with the European Union will generate increases in stafﬁng; Brussels
and the Department needed to deﬁne more precisely their expectations for future




8        Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
ofﬁce space and how they could be met. The European Media Center (“the Hub”)
was becoming a useful catalyst and platform for expanding U.S. media outreach in
Europe. Its role was distinct from, but complementary to, those of the public diplo­
macy units of the three missions, each of which was fulﬁlling an important need.

OIG also conducted compliance follow-up reviews (CFR) to provide Department of
State senior managers with progress reports on the status of inspection recommen­
dations and provide OIG with a quality assurance assessment of its work.



OFFICE OF INVESTIGATIONS
OIG investigations within this reporting period included allegations of conﬂict of
interest, embezzlement, and employee misconduct. This investigative work resulted
in 16 referrals for prosecution; sentencings resulting in 84 months total of imprison­
ment and probation; 5 indictments; 5 convictions; 15 administrative referrals; and
more than $70,000 in recoveries. As a result of a new OIG investigative initiative, an
OIG investigation into a Defense Trade Controls violation resulted in a private ﬁrm
entering into a civil settlement and agreeing to pay a $15,000 ﬁne. Another OIG in­
vestigation determined that more than $100,000 was embezzled by two employees of
a facility of the International Boundary and Water Commission. OIG also gave 12
fraud awareness presentations to approximately 800 Department and BBG employ­
ees.

On March 20, 2008, the Under Secretary of State for Management requested that
OIG conduct an investigation after news media reports indicated the passport ﬁles
of three presidential candidates had been improperly accessed by three different
Department contract employees on three different occasions through the Passport
Information Electronic Records System (PIERS). OIG subsequently received ad­
ditional information that improper accessing of PIERS records was widespread and
involved many Department employees and contractors. During this reporting period
OIG investigations involving this issue resulted in seven separate criminal prosecu­
tions.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   9
     Oversight Activities in Support of the American Recovery
                       and Reinvestment Act

     On February 17, 2009, President Obama signed into law the American
     Recovery and Reinvestment Act (ARRA) of 2009, which was enacted to
     preserve and create jobs, assist businesses and individuals most seriously
     affected by the recession, increase economic efﬁciency, and stabilize
     State and local budgets. The legislation established new reporting require-
     ments to promote transparency and accountability in the awarding and
     use of ARRA funds and mandated that OIGs provide oversight and audit
     and review programs, grants, and activities funded by the Recovery Act.
     The $787 billion appropriated in the legislation included $600 million in
     funding for infrastructure improvements at the Department of State—$90
     million for Diplomatic and Consular Programs, $290 million for the Capital
     Investment Fund, and $220 million for International Boundary and Water
     Commission construction—as well as $2 million for OIG oversight to audit,
     evaluate, and monitor expenditure of Department ARRA funds.

     OIG is an active participant in the Recovery Accountability and Transpar-
     ency Board’s (RATB) Working Group, which coordinates oversight activity
     and reporting related to ARRA’s accountability and transparency require-
     ments. During this period, OIG issued reports related to its participation in
     two government-wide reviews, coordinated by RATB and the IG commu-
     nity, to monitor the Federal Government’s ability to meet the requirements
     of the Recovery Act.

     Review of Policies and Procedures for Implementing the American
     Recovery and Reinvestment Act of 2009 at the Department of State
     (AUD/PP-10-07)

     Based on information provided by Department ofﬁcials, OIG found the
     Department had made satisfactory progress in applying Recovery Act
     requirements and guidance from the Ofﬁce of Management and Budget
     for reporting and monitoring the use of Recovery Act funds. Speciﬁcally,
     Department ofﬁcials developed policies, procedures, and plans to review
     quarterly Recovery Act data; ensured that quarterly reports were ﬁled by
     funds recipients; and conducted required reviews of those reports. Fur-
     thermore, policies, procedures, and plans were in place to avoid key data
     problems, remediate systemic reporting problems, and use the reported
     data to help assess compliance by recipients of Recovery Act funds with
     the terms and conditions of contract award agreements.




10        Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
     Review of the Department of State Plan to Provide Qualiﬁed
     Contracting Ofﬁcers and Contracting Ofﬁcer Representatives for
     Oversight of American Recovery and Reinvestment Act Projects
     (ISP-I-10-26)

    The Department is responsible for ensuring that there are sufﬁcient well-
    qualiﬁed and appropriately trained contracting ofﬁcers and contracting
    ofﬁcer representatives to manage and provide the proper oversight for the
    ARRA contracts. The Ofﬁce of Acquisitions Management and the senior
    procurement executive in the Ofﬁce of the Procurement Executive play a
    major role in ensuring that ARRA funds expended by the Department are
    spent in accordance with relevant acquisition policies and programs.

    An OIG inspection found the Department was coordinating well among all
    the responsible ofﬁces and parties that played a role in providing oversight
    of the ARRA funds, including the contracting ofﬁcers and contracting ofﬁ-
    cer representatives. However, the Department could improve implementa-
    tion of federal procurement policies, immediately improve its mechanisms
    for tracking training requirements for its contracting ofﬁcers and contract-
    ing ofﬁcer representatives before additional ARRA contracts are awarded,
    and minimize any risk associated with the qualiﬁcations of the contract
    employees who are administering these contracts.

    Copies of these reports and other ARRA-related oversight activities can
    be found on OIG’s Recovery Act Home Page (http://oig.state.gov/arra/index.
    htm).




INTERNATIONAL BROADCASTING
OIG performed an independent evaluation of the information security program at
BBG and assessed performance in areas that included certiﬁcation and accreditation
(C&A), plans of action and milestones (POA&M), security awareness and training,
conﬁguration management, inventory, incident reporting, and privacy requirements.
Although BBG has taken steps to improve management controls since FY 2008,
BBG needs to make further improvements that include:
     • Developing policies and procedures for C&A, and conducting C&A on all
       of BBG’s “moderate-level” systems, as categorized in Federal Information
       Processing Standards (FIPS) Publication 199.
     • Ensuring that all weaknesses identiﬁed during reviews and that require reme­
       diation are tracked in BBG’s POA&M system.



Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   11
     • Creating and implementing POA&M policies and processes that are in com­
       pliance with applicable guideline.;
     • Ensuring that milestones include reasonable scheduled completion dates,
       timely tasks, and progress steps.
     • Requiring that each weakness identiﬁed include estimated costs needed for
       remediation and that the estimates, along with the severity of the weakness­
       es, be used to prioritize the weaknesses for timely correction.

Other improvements pertained to requiring Federal employees and contractors to
take security awareness training before they are granted system access.

During the audit of BBG’s annual ﬁnancial statements as of September 30, 2009 and
2008, and for the years then ended, the independent auditor issued an unqualiﬁed
opinion, but the report brought to management’s attention three signiﬁcant deﬁcien­
cies related to internal control over the ﬁnancial and accounting system, accounts
payable, and property. In a management letter related to the audit of BBG’s 2009 and
2008 ﬁnancial statements, the independent external auditor identiﬁed internal control
weaknesses or instances of noncompliance with selected provisions of applicable
laws and regulations relating to undelivered orders, government purchase cards,
grants management, information security, non-personnel expenses, and accounts
receivable. The external auditor recommended that BBG take appropriate action to
address these weaknesses.

In its inspection of BBG’s grantee organization, the Middle East Broadcasting Net­
works, Inc. (MBN), OIG found that since its launch in 2004, MBN’s Alhurra Televi­
sion and Radio Sawa have hired staff and established strategic direction and struc­
ture. MBN has evolved into a mature media organization, but there is still room for
progress. The MBN security program was managed effectively in spite of an appar­
ent lack of resources. The public debate about MBN has focused on the effective­
ness of Alhurra Television and Radio Sawa. The current audience research measures
credibility and audience numbers. Expanding the research mix could enhance MBN’s
understanding of its impact and ways to be more effective in the region. Commu­
nication in the newsroom needed improvement. Many staff felt that senior news
management should improve responsiveness, decisiveness, and transparency. MBN
has made signiﬁcant progress in organizing human resources management; solving
numerous personnel-related problems; and beginning to establish standardized pro­
cedures despite having vacancies in two key positions, which impeded progress.




12       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
CONGRESSIONAL ACTIVITIES AND
OUTREACH


TESTIMONY AND BRIEFINGS
During this reporting period, OIG briefed Congressional staff on a number of its
reports and issues, including:
     • 	 Oversight of the President’s Emergency Plan for AIDS Relief (PEPFAR) 

         (House Foreign Affairs Committee and Senate Appropriations Foreign 

         Operations Subcommittee);

     • 	 OIG’s Inspection of the Bureau of African Affairs (Senate Foreign Rela­
         tions Committee);

     • 	 Resourcing and OIG hiring authorities (Senate Foreign Relations Commit­
         tee);
     • 	 OIG’s plans to review or audit Department policy and activity prior to the
         December 25, 2009, attempted airline bombing (House Oversight and Gov­
         ernment Affairs Committee);
     • 	 OIG oversight activities and plans for Afghanistan (Senate Appropriations 

         Foreign Operations Subcommittee); and 

     • 	 The fairness of the Foreign Service Selection Board process (House For­
         eign Affairs Committee). This inquiry coincided with the release of ISP’s 

         Review of the Integrity and Fairness of the Foreign Service Selection Board Process
         (ISP-I-10-47, March 2010), which was provided to the committee.



CONGRESSIONAL MANDATES
As mandated by the Chief Financial Ofﬁcers Act of 1990 (P.L. 101-576, as amend­
ed), OIG directed and monitored the following ﬁnancial statement audits and other
work conducted by an independent external auditor:
 •     	AUD/FM-10-01               Independent Accountant’s Report on the Application of Agreed-Upon
                                   Procedures: Retirement, Health Beneﬁts, and Life Insurance With-
                                   holdings/Contributions and Supplemental Semiannual Headcount
                                   Report



Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   13
 •   	AUD/FM-10-02               Independent Auditor’s Report on the U.S. Department of State 

                                 Special-Purpose Financial Statements

 •   	AUD/FM-10-03               Independent Auditor’s Report on the U.S. Department of State 2009
                                 and 2008 Financial Statements
 •   	AUD/IB-10-04               Independent Auditor’s Report on the Broadcasting Board of Gover-
                                 nors 2009 and 2008 Financial Statements

 •   	AUD/FM-10-18               Management Letter Related to the Audit of the U.S. Department of
                                 State 2009 and 2008 Financial Statements
 •   	AUD/IB-10-19               Management Letter Related to the Audit of the Broadcasting Board
                                 of Governors 2009 and 2008 Financial Statements

As mandated by 21 U.S.C. § 1704, OIG issued the report AUD/FM-10-17, Indepen-
dent Review of the U.S. Department of State’s Accounting and Authentication of FY 2009
Drug Control Funds and Related Performance Report.

As mandated by the Federal Information Security Management Act of 2002 (FIS­
MA) (44 U.S.C. § 3545), OIG issued the reports Review of the Information Security
Program at the Department of State, AUD/IT-10-10, and Review of the Information Security
Program at the Broadcasting Board of Governors, AUD/IT-10-09.



CONGRESSIONAL REQUESTS
In response to a request from Congressmen Mark Kirk and Steven Rothman, along
with seven other members of Congress, in February 2010, OIG issued the Limited-
Scope Review of the Bureau of Population, Refugees and Migration’s Oversight of the United Na-
tions Relief Works Agency for Palestine Refugees in the Near East in Gaza (MERO-I-10-04).

At the request of Senator Daniel Inouye, Chairman of the Committee on Appro­
priations’ Subcommittee on Defense and Senator Thad Cochran, Vice Chairman, the
Department of State OIG and the Department of Defense Inspector General com­
pleted an audit of the Afghan National Police training program. The joint report,
DOD Obligations and Expenditures Provided to the Department of State for the Training and
Mentoring of the Afghan National Police was issued in February 2010.




14        Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
LEGISLATION MONITORED
OIG reviewed and monitored a number of legislative proposals including the follow­
ing legislation during this semiannual report period:
• 	 P.L. 111-117 (H.R. 3244), Consolidated Appropriations Act, 2010.
• 	 P.L. 111-73 (S. 962. H.R. 3642), Enhanced Partnership with Pakistan Act of 2009
    (unfunded).
• 	 P.L.111-32 (H.R. 2346), the 2009 Supplemental Appropriations Act, P.L., enacted
    on June 24, 2009, which provides OIG with $10.9 million in supplemental
    funding for oversight activities in the Middle East and South Asia.
• 	 P.L.111-84 (H.R. 2647), National Defense Authorization Act for Fiscal Year 2010, as
    it pertains to Inspector General subpoena power.
• 	 P.L. 111-5 (H.R. 1), American Recovery and Reinvestment Act of 2009, which pro­
    vides OIG with $2 million to provide oversight for $602 million provided to
    the Department of State under the Act.
• 	 P.L.110-417 (S. 2001), Duncan Hunter National Defense Authorization Act for Fiscal
    Year 2009, as it pertains to joint oversight issues.
•   	 .R. 2410, Foreign Relations Authorization Act, Fiscal Years 2010 and 2011. Not
    H
    enacted.



MEDIA ASSISTANCE
During this semiannual period, OIG made its reports available to the media both di­
rectly and online through regular postings on its external Web site. A new “Recently
Posted Items” link added to the OIG homepage allows for quicker, easier access to
OIG’s latest reports.

Media expressed interest in a broad range of OIG activities and initiatives, resulting
in 35 direct responses to 16 different issues. Listed in order of interest, the issues
that drew the greatest number of media inquiries were:
    • 	 Audit of the design and construction of the new embassy compound in 

        Baghdad, Iraq;

    • 	 Varying questions related to contractors, including performance issues 

        related to Blackwater (USTC), AGNA, ArmorGroup, First Kuwaiti, and 

        DynCorp; 





Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   15
     • 	 Investigation into allegations that the U.S. International Boundary and Water
         Commission violated laws and regulations, including a $220 million Recov­
         ery Act program to raise levees along the river;
     • 	 Inspection report on Embassy Kabul;
     • 	 Investigation into unauthorized employee access to personal information
         through the Passport Information Electronic Records System; and
     • 	 OIG efforts to oversee Department monitoring of global trafﬁcking in 

         persons. 


There were additional media inquiries during the reporting period, to include: an
inquiry regarding the reason for an inspection of the Middle East Broadcasting
Network; a congressional call for an investigation of misconduct allegations against
ArmorGroup; the arrest of a Department employee suspected of accepting kick­
backs in Iraq; OIG’s inspection of the Department’s youth programs; the annual
audit of the Department’s ﬁnancial statements; OIG’s limited review audit of premi­
um travel by the Bureau of Oceans and International Environmental and Scientiﬁc
Affairs; MERO’s performance audit of the Blackwater (USTC) Worldwide Personal
Protective Services contract in Afghanistan; and past inspections/reviews conducted
by OIG on public diplomacy.

Deputy Inspector General Harold W. Geisel, Assistant Inspector General for Inspec­
tions Robert Peterson, and Assistant Inspector General for MERO Richard “Nick”
Arntson were interviewed by several media outlets.
     • 	 Mr. Geisel appeared on the March 16 broadcast of C-SPAN’s “Washington
         Journal,” responding to questions from the host, as well as a nationwide
         call-in audience, on OIG’s Embassy Kabul inspection report.
     • 	 Mr. Arntson interviewed with the Hufﬁngton Post Investigative Fund and
         Salon.com on the joint MERO-DOD audit of Afghan National Police
         training, and with The Washington Post/Center for Public Integrity on
         OIG’s oversight efforts regarding trafﬁcking in persons.
     • 	 Mr. Peterson interviewed with The Washington Post on stafﬁng issues 

         raised by the Embassy Kabul inspection report.




OUTREACH
On March 19, 2010, OIG hosted a visit by Ambassador Victor Har’el, Inspector
General of the Israeli Ministry of Foreign Affairs, and several of his colleagues from
Tel Aviv and the Israeli Embassy in Washington. Deputy Inspector General Harold
W. Geisel participated in the sessions with support from OIG senior staff.

16         Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
U.S. DEPARTMENT OF STATE

MIDDLE EAST REGIONAL OFFICE
                     OFFICE



Effectiveness and Efﬁciency of the Bureau of
International Narcotics and Law Enforcement Affairs
Counternarcotics Programs in Pakistan (MERO-A-10-01)

In a November 18, 2009 memorandum, OIG reported it had reviewed information
from the Bureau of International Narcotics and Law Enforcement Affairs (INL),
interviewed U.S. and Pakistani ofﬁcials, and found INL had achieved many of its
program objectives. However, due to limited time and security concerns in Paki­
stan’s Federally Administered Tribal Areas (FATA), the OIG team was unable to
conduct all necessary site visits that would have allowed direct observation of INL’s
work. From the information the team was able to gather, OIG concluded that the
major impediment to obtaining poppy-free status in Pakistan is the breakdown in
security, which has negatively affected road projects, alternative crop programs, and
poppy eradication, especially in the FATA. As part of its audit, OIG also reviewed
documents and conducted interviews at aviation facilities in Quetta, Pakistan and at
Patrick Air Force Base in Palm Bay, Florida. The results of this work are included in
MERO-A-10-03.




Status of the Bureau of International Narcotics and Law
Enforcement Affairs Counternarcotics Programs in
Afghanistan, Performance Audit (MERO-A-10-02)

In its performance audit, OIG found the Department had not clariﬁed an end state,
engaged in long-term planning, or established performance measures for its coun­
ternarcotics programs in Afghanistan. OIG also found that the U.S. military has
begun to engage more heavily in counternarcotics activities. This increased military
involvement will decidedly affect the scale of the Department’s counternarcotics
programs as well as its overall role. Further, there is no agreement on appropriate
roles for either civilian agencies or the U.S. military. The Department has also failed
to plan for transitioning responsibility for counternarcotics programs to the Afghan
Government, should funding not be sustainable at current levels. While some prog­
ress has been made in the ﬁght against illicit narcotics in Afghanistan, successes are
difﬁcult to quantify. OIG also found INL lacks in-country monitoring of its seven


Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   17
counternarcotics contracts. Examination of four contracts revealed some weaknesses
in performance measurement and setting of unrealistic goals. Coordination among
agencies involved in counternarcotics efforts is informal and depends on individuals.
There is limited collaboration and information sharing between Embassy Kabul and
Embassy Islamabad, and no signiﬁcant cooperation between the embassies on criti­
cal issues.

OIG recommended the Department deﬁne an end state for counternarcotics pro­
grams in Afghanistan, with objectives, performance measures, and milestones; and
establish benchmarks to transition responsibilities for counternarcotics programs to
the Afghan Government. To improve coordination, OIG recommended reinstitut­
ing regularly scheduled meetings and communicating with provincial reconstruction
teams. To strengthen contract oversight and contractor performance, the Depart­
ment should develop a workforce plan to ensure appropriate personnel are assigned
as in-country contracting ofﬁcer’s representatives (COR), direct-hire staff at Em­
bassy Kabul, and to carry out programs in the poppy-producing southern provinces;
make certain in-country CORs periodically assess contractor performance and its
impact; ensure contract ﬁles are properly maintained and accessible; and make coun­
ternarcotics contracts more accurate and speciﬁc.



The Bureau of International Narcotics and Law
Enforcement Affairs Air Wing Program in Afghanistan
and Pakistan, Performance Audit (MERO-A-10-03)

The Air Wing program in Afghanistan effectively provides aviation support for
INL’s counternarcotics efforts and other missions. To date, the contractor, DynCorp,
has safely met its contracted air support requirements, sustained the required aircraft
readiness rate, used appropriate maintenance and ﬂight scheduling systems, and
properly inventoried U.S. Government-furnished equipment. OIG noted weaknesses
in the INL Ofﬁce of Aviation’s (INL/A) contract and management oversight, in­
cluding lack of on-site veriﬁcation of contract deliverables and cost reports. A COR
from INL/A has never been to Afghanistan, and there are no plans to send one. The
performance-based contract awarded in 2005 lacked speciﬁc performance require­
ments, and until 2009, DynCorp worked in Afghanistan under general and outdated
requirements, hindering program efﬁciency. Further, a performance-based contract
may not be the ideal vehicle to manage and oversee such a complex program.

In Pakistan, the Air Wing program has been generally effective in providing critical
air support including a variety of missions for the Pakistan Government. However,
DynCorp has had problems meeting ﬂying hour goals. OIG was unable to determine
whether the Pakistan Government is adhering to the terms of a letter of agreement

18       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
regarding use of INL/A aircraft. The senior aviation advisor in Pakistan reports
directly to the INL/A COR in the United States on all contractual issues, but the
COR has never been to Pakistan. This situation potentially weakens management and
internal controls. OIG also learned that neither INL/A nor DynCorp knows who
owns the Air Wing information system or its contents.

OIG recommended Embassy Kabul and Embassy Islamabad assign U.S. Govern­
ment direct-hire employees to supervise personal services contractors in Afghanistan
and Pakistan. The Ofﬁce of Acquisition Management, in consultation with INL,
should develop a work breakdown structure for the Air Wing program in Afghani­
stan. INL should amend the Air Wing contract with DynCorp to clarify ownership
of the Air Wing information system and ensure access rights to its data.



The Bureau of Diplomatic Security Baghdad Embassy
Security Force Performance Audit (MERO-A-10-05)

The Department’s contract with Triple Canopy for the Baghdad Embassy Security
Force is generally well-managed by the Bureau of Diplomatic Security (DS). How­
ever, OIG found areas in which the contractor’s performance and DS’s contract
management need improvement. Triple Canopy’s training
records for guards and guard supervisors were incom­
plete, and in various locations. There were weaknesses
in the subcontractor’s training of explosive detection
canines and storage of testing materials. Despite overall
satisfactory contract management, OIG found the COR
does not sufﬁciently check attendance or verify personnel
rosters (muster sheets), contractually required standards
for guards’ English language proﬁciency are not enforced,   Shipping containers the guards were
and DS lacks criteria for the number of consecutive days                 housed in
guards can work.

OIG also found that Triple Canopy guards were unsafely
housed in crowded barracks and shipping containers that
failed to meet ﬁre safety standards. No entity was oversee­
ing housing safety, although both Triple Canopy and the
Department are required to do so. (DS later informed OIG
that the guards were being moved out of this temporary
housing.) OIG determined the U.S. Government could
potentially save approximately $20 million over the next 2                         Interior of containers/house
years with an appropriate reduction in the security force



Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010     19
in Baghdad that accounted for all site closures. The Department has no plan for
integrating Iraqi nationals into the embassy guard force, which would signiﬁcantly
reduce costs. The isolated USAID compound in Baghdad will create a security risk
for guards traveling to and from the site.

OIG recommended standard operating procedures to maintain contractor training
records; an independent canine expert to verify annually the capabilities of explosive
detection canines and determine compliance with Department of the Treasury stan­
dards; random, thorough, and unannounced monthly checks of contractor perfor­
mance; review and veriﬁcation of muster sheets; assessment of English proﬁciency
levels; development of criteria for the amount of rest and number of days off for
guards; regular inspections of guard housing; an analysis of current and future site
protection needs in Baghdad; and an analysis to determine if the planned relocation
of the USAID compound can be moved up.



Department of Defense Obligations and Expenditures
of Funds Provided to the Department of State for the
Training and Mentoring of the Afghan National Police
(MERO-A-10-06)

The objective of this congressionally requested joint audit was to review Afghanistan
Security Forces (ASF) funds provided by the DOD to the Department for training
the Afghan National Police (ANP), contract management activities, and the ability
of the ANP training program to address security needs in Afghanistan. OIG and the
DOD Inspector General found that the Department’s Civilian Police contract does
not meet DOD’s needs in developing the ANP to counter the rising insurgency in
Afghanistan. The Inspectors General found that the Department’s internal controls
were ineffective, which led to weaknesses in contract oversight and management.
The Department did not adequately oversee U.S. Government property, maintain
contract ﬁles as required by Federal Acquisition Regulations, did not always match
goods to receiving reports, or require in-country CORs to review contractor invoices.
The Inspectors General were unable to determine if the Department expended ASF
funds in accordance with Congressional intent, but identiﬁed $80 million that may
need to be returned. Finally, the Department and DOD have not provided enough
resources to adequately train members of the Afghan Women’s Police Corps.

Twenty-two recommendations were made to DOD, the Department, or both agen­
cies. The Inspectors General recommended to the Department that INL request au­
dit support from the Defense Contract Audit Agency (DCAA) and request refunds




20       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
from the contractor of any costs that DCAA determines to be unallowable, unalloca­
ble, or unreasonable. Further, INL should strengthen internal controls over contract
administration, oversight, and ﬁnancial reporting; establish and maintain complete
and accessible contract ﬁles; and ensure that in-country CORs carry out their as­
signed duties. The Bureau of Resource Management should determine the status of
DOD-provided ASF funds, return any funds found to inappropriately disbursed, and
correct annual ﬁnancial statements, communicating any errors to DOD. Finally, OIG
recommended that the Combined Security Transition Command-Afghanistan and
INL increase the training facility capacity for female police and recruit female train­
ing instructors. By the time the report was issued and shortly thereafter, DOD and
the Department had taken steps to comply with many of these recommendations.



Limited-Scope Review: Management and Internal
Controls over Construction of a Heated Parking Garage
and a Recreational Center at the U.S. Embassy in
Astana, Kazakhstan (MERO-I-09-11)

The Bureau of Overseas Buildings Operations (OBO) agreed to fund construc­
tion of a heated parking garage and a recreational center at Embassy Astana, but
the contractor was terminated before construction was ﬁnished. Embassy Astana
ofﬁcials were unable to complete the work according to U.S. standards with OBO-
provided funding. The embassy’s repeated requests for additional funds prompted
an OBO on-site review, which identiﬁed many potential irregularities and resulted in
OBO designing a project completion strategy. In its attempt to ﬁnish the buildings,
the Embassy used non-OBO funds, which OIG found to be inappropriate and a
potential violation of 31 USC 1301(a)1. Embassy Astana’s other project expenditures
were authorized and appropriate, and ﬁnancial and management controls and pro­
curement procedures appeared adequate. However, Embassy Astana did not follow
OBO design approval procedures. A second contractor was properly selected, but
the buildings have not yet been completed and will incur additional expenses.

OIG recommended that OBO and the Bureau of South and Central Asian Affairs
determine whether using non-OBO funds was an unauthorized commitment, and
if so, report this use to the Bureau of Administration’s Ofﬁce of the Procurement
Executive; OBO issue a Management Notice reminding posts worldwide to obtain



1
  Appropriations shall be applied only to the objects for which appropriations were made except as
otherwise provided by law.



Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   21
all applicable approvals and permits for construction projects; OBO and the Bureau
of Resource Management issue a Management Notice reminding posts that OBO is
the lead bureau for construction and renovation of overseas facilities, and to ensure
funds are appropriately used for construction and renovation; and Embassy Astana,
in coordination with OBO, correct the non-OBO funding of purchased items.



Limited-Scope Review of the Bureau of Population,
Refugees and Migration’s Oversight of the United
Nations Relief Works Agency for Palestine Refugees in
the Near East in Gaza (MERO-I-10-04)

This limited-scope review was performed at the request of Congressmen Kirk and
Rothman to determine conformity of the United Nations Relief and Works Agency
for Palestine Refugees in the Near East (UNRWA) with the conditions in Section
301(c) of the 1961 Foreign Assistance Act, as amended. This act states “…no con­
tributions by the United States shall be made to [UNRWA] except on the condition
that [UNRWA] take all possible measures to assure that no part of the United States
contribution shall be used to furnish assistance to any refugee who is receiving mili­
tary training as a member of the so-called Palestinian Liberation Army or any other
guerilla type organization or who has engaged in any act of terrorism.” The Bureau
of Population, Refugees and Migration (PRM) manages and oversees U.S. Govern­
ment assistance to UNRWA. Following UNRWA’s employee union elections in Gaza,
the Hamas political party claimed that members of its organization had won all 11
seats in the UNRWA teachers union.

OIG was reasonably assured that PRM and UNRWA were achieving U.S. Govern­
ment objectives in Section 301(c) by investigating and verifying conformity following
the employee union elections. UNWRA’s 5-month investigation yielded no evidence
of external political involvement or political activities by the elected UNRWA teach­
ers. PRM and UNRWA have extensive policies and procedures to monitor and
evaluate compliance with both the UN neutrality policy and Section 301(c). OIG
concluded that UNRWA had taken all possible measures to follow the guidelines in
Section 301(c) of the 1961 Foreign Assistance Act, as amended.




22       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
AUDITS

AUDITS

     System Review Report on the Department of the Treasury
       Ofﬁce of Inspector General Audit Organization
                           (AUD-10-12)

     OIG reviewed the system of quality control for the audit organization of the
     Department of the Treasury’s OIG in effect for the year ended March 31,
     2009. A system of quality control encompasses an OIG’s organizational
     structure and the policies adopted and procedures established to provide
     it with reasonable assurance of conforming with Government Auditing
     Standards. The review was conducted in conformity with Government Au-
     diting Standards and guidelines established by the Council of the Inspec-
     tors General on Integrity and Efﬁ ciency. OIG determined the system of
     quality control of the Department of the Treasury’s audit organization was
     suitably designed and complied with. Therefore, the audit organization had
     reasonable assurance that it was performing and reporting in conformity
     with applicable professional standards in all material respects.




PROPERTY AND PROCUREMENT

Audit of Design and Construction of the
New Embassy Compound in Baghdad, Iraq
(AUD/IQO-09-25)

In 2005, Congress authorized $592 million in emergency funding for the new em­
bassy compound (NEC) in Baghdad, Iraq, with the intent of having the construction
completed within 24 months of the project start date. The audit, conducted by OIG
with technical assistance provided by a team of engineers from the U.S. Army Corps
of Engineers (USACE), was the second of two OIG reviews of contracts related to
that design and construction.

OIG examined ﬁve contracts awarded to First Kuwaiti Trading and Contracting for
about $470 million that were administered by the Emergency Project Coordination
Ofﬁce (EPCO) during construction. EPCO was set up by the Bureau of Overseas
Buildings Operations (OBO) to manage the project, and it did not use established
OBO resources.



Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   23
OIG found the quality of the NEC construction to be signiﬁcantly deﬁcient in mul­
tiple areas, because designs for the facilities had not been completed and approved,
and quality control and commissioning procedures were inadequate. Therefore, the
Department cannot be assured that the NEC complies with contract and Depart­
ment requirements, as well as with applicable building codes. OIG estimated the
Department should attempt to recover approximately $43.5 million for work needed
to bring construction deﬁciencies up to contract standards and approximately an
additional $33 million for incomplete and undocumented design work. OIG also
identiﬁed First Kuwaiti’s inadequate quality control program as resulting in additional
maintenance charges of approximately $38 million over 15 years. OIG recommend­
ed the Department attempt to recover approximately $3.8 million from the contrac­
tor because commissioning activities either were not performed or were performed
incorrectly.

As a separate stand-alone organization, EPCO did not adequately discharge its
contract administration responsibilities during the construction of the NEC. EPCO
was managed by a personal services contractor who did not enforce contract provi­
sions, most notably design and construction requirements, which resulted in many of
the construction deﬁciencies listed. Of prime signiﬁcance, construction deﬁciencies
prevented the contracts from being completed on time, and embassy personnel could
not move as planned to the more secure facilities at the NEC. EPCO did not require
First Kuwaiti to pay approximately $10.9 million in liquidated damages. EPCO also
approved $69.1 million in advance mobilization payments that were not authorized
by the contracts and did not require First Kuwaiti to pay approximately $3.3 million
in interest charges for the use of those funds. Further, EPCO approved contractor
invoices without adequate documentation and did not require First Kuwaiti to com­
ply with reporting requirements of the Cargo Preference Act.

OIG recommended the contracting ofﬁcer attempt to recover more than $132
million from First Kuwaiti, and that OBO develop guidelines for any future stand­
alone project ofﬁces that will provide personnel who have the requisite experience
and represent an appropriate mix of government employees and personal services
contractors.




24       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
       White Paper–Best Practice–Design and Construction
            of Diplomatic Facilities in Arid Climates With
                 Security Concerns (AUD/PP-10-06)

     At OIG’s request, USACE offered suggestions for improving the design
     and construction of Department facilities similar to those reviewed by
     OIG and USACE in Baghdad, Iraq, in October 2008. The white paper
     identiﬁes speciﬁc energy-savings methods and devices to make facilities
     and systems more sustainable from the standpoint of energy consump-
     tion, equipment life cycle, and operation and maintenance costs. USACE
     noted in the white paper that in climates and conditions similar to those
     of Baghdad, almost 75 percent of the peak electrical energy use is for
     heating, ventilation, and air conditioning (HV AC). USACE estimated
     about 10 percent of power output could be saved by installing the vari-
     ous devices listed in the white paper. Also, operation and maintenance
     of water, wastewater, power generation, and HV AC equipment is the
     largest contributor to facility maintenance costs—millions of dollars per
     year for a typical diplomatic compound.Therefore, reducing the size and
     number of HVAC units required, optimizing power demands, and using
     other energy-savings measures could reduce annual operation and main-
     tenance costs by 10 percent to 20 percent. USACE concluded that when
     energy-savings measures are implemented, energy use can be further
     optimized by providing enhanced building automation systems and im-
     proved operator training could yield additional savings to the Department.




SECURITY MANAGEMENT

Audit of Overseas Laptop Computer Inventory Controls
and Security Management
(AUD/SI-10-08)

To determine whether the Department’s overseas diplomatic posts were adequately
accounting for their laptop computers and were in compliance with security aware­
ness and laptop encryption policies, OIG conducted an audit that consisted of per­
forming a complete physical inventory of all laptop computers at Embassies Bogota,
Mexico City, Rome, Tokyo, and Vienna and the American Institute in Taiwan (AIT
Taipei).


Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   25
Two posts were able to account for all of their laptop computers, but the invento­
ries of laptops at the four other posts were inaccurate and incomplete. Of the 706
laptops that were reported in the ofﬁcial inventories of record of the six posts, 37
laptop computers were missing.

At four posts, 106 laptop computers were not included in the ofﬁcial inventory, of
which 96 were being used. Embassy ofﬁcials reported that the remaining 10 were
stolen or missing.

At one post, an additional nine laptops had been missing for 6 to 8 years and had
been improperly removed from the ofﬁcial inventory in 2008. Consequently, the em­
bassy did not know the locations of these laptops, they were not in the inventory of
record provided to OIG, and they were not properly reported as missing.

In its review of 154 laptop user ﬁles, OIG found that only 55 ﬁles contained sufﬁ­
cient documentation (acknowledgement forms) to support that laptop users received
the required laptop cyber security awareness brieﬁng. Overall, 40 of 71 users inter­
viewed said they had not received the required brieﬁng.

Regarding compliance with the Department’s 100 percent encryption requirement to
install required encryption software onto the hard drives of each laptop, OIG found
that only 298 of the 350 laptop computers tested had been encrypted. At one post,
several users said they had personally identiﬁable information (PII) stored on their
unencrypted laptops while traveling on temporary duty, which posed security vulner­
abilities.

The inventory deﬁciencies and noncompliance issues described occurred because of
internal control weaknesses, including inaccurate and incomplete laptop computer
inventories and a lack of security awareness training and encryption. These deﬁcien­
cies pose security vulnerabilities that PII or potentially sensitive information about
Department operations could be compromised if those computers are lost or stolen.




26       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
      Ofﬁce of Audits Receives Award for Excellence for PIERS
                              Report

     During October 2009, six Ofﬁce of Audits personnel received an Award for
     Excellence from the Council of Inspectors General on Integrity and Ef-
     ﬁciency. The award was in recognition of exceptional performance for the
     July 2008 report Review of Controls and Notiﬁcation for Access to Pass-
     port Records in the Department’s Passport Information Electronic Records
     System (PIERS).

     During its review, the audit team found many control weaknesses, includ-
     ing a general lack of policies, procedures, guidance, and training, relating
     to the prevention and detection of unauthorized access to passport and
     applicant information and the subsequent response and disciplinary pro-
     cesses when a potential unauthorized access is substantiated. The team’s
     timely and skillfully written report signiﬁcantly advanced two of OIG’s
     strategic goals: (1) the Department protects the people, information, and
     facilities under its control, and (2) the Department is free of fraud, waste,
     and mismanagement.




INFORMATION TECHNOLOGY

Evaluation of the Information Technology Consolidation
Project at the Department of State (AUD/IT-10-11)

On July 18, 2007, the former Secretary of State announced the decision to improve
the Department’s information technology (IT) effectiveness, consolidating the
Department’s desktop computer services and support for all of the Department’s
34 domestic bureaus and ofﬁces under the Bureau of Information Resource Man­
agement (IRM) within 2 years. According to IRM, IT consolidation would allow for
an optimized and cost-effective IT infrastructure supporting agency missions and
customer-centric services by improving customer service, enhancing IT security, and
reducing IT costs. As of October 1, 2009, 25 bureaus and ofﬁces had consolidated
their services, and consolidation of the remaining nine bureaus and ofﬁces is expect­
ed to be completed by the second quarter of FY 2010.

To manage and implement the IT consolidation project, the Chief Information Of­
ﬁcer (CIO) has taken positive steps. The IRM customer satisfaction survey is con­
ducted on a semiannual basis and is provided to all IRM customers in consolidated
bureaus to assess their satisfaction with services received. Further communication



Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   27
with bureau ofﬁcials occurs during Customer Service Advisory Forum meetings—
forums for stakeholders to provide their experience, insight, and feedback during
the planning and implementation of the IT consolidation and after consolidation
operations have been initiated. The IT Mart was created as a one-stop shop, located
centrally within the Department, to handle service requests. Stakeholders are updated
on the project’s progress through periodic electronic newsletters, a dedicated IT con­
solidation Web site, and town hall meetings.

Although customer service was cited by the IT Consolidation Program Management
Ofﬁce (PMO) as its number one priority in pursuing IT consolidation, OIG found
bureau perception was that an improved level of customer service had not been
achieved under the project. However, OIG was unable to substantiate these claims,
because neither the Department nor the bureaus had information or documentation
to support their claims of better customer service prior to consolidation. Because of
the lack of a customer service baseline, OIG distributed customer service surveys to
bureau executives and IT staff. Of more than 700 comments received, more than 80
percent of respondents said they were more satisﬁed with the IT support provided
by their respective bureau IT staff prior to consolidation.

The IT Consolidation PMO also did not develop business, user, system, or perfor­
mance requirements as required by project management guidelines. The CIO did not
make the necessary policy changes to address the ownership transfer of pre-existing
IT plans of action and milestones, inventory control, information system security
ofﬁcer responsibilities, and the handling of mission-speciﬁc and personnel-sensitive
information. Furthermore, the Department did not implement staff selection criteria
for IT staff. As a result, IRM did not have control over which bureau IT personnel
were reassigned to the IRM customer service helpdesk after consolidation.

Additionally, the Department did not have actual or comparative cost information
to demonstrate whether consolidating services resulted in reduced costs for desktop
support services and systems maintenance, which was a primary goal of the project.
The inconsistent manner in which bureaus accounted for IT services costs hindered
IRM’s ability to make a comparative cost analysis. The limited cost analysis per­
formed by IRM prior to bureau consolidation and the lack of transparency between
bureaus and the IT Consolidation PMO further contributed to cost data shortcom­
ings.

The beneﬁts of IT consolidation have not been fully realized. The manner in which
it has been implemented could be improved. Implementation improvements require
an open and cooperative relationship between IRM and the bureaus, including IRM’s
attention to outstanding customer service and cost issues and to the bureaus’ resis­
tance to discussions.




28       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
Review of the Information Security Program at the
Department of State (AUD/IT-10-10)

In response to the Federal Information Security Management Act of 2002 (FISMA),
OIG performed an independent evaluation of the information security program at
the Department. OIG reviewed the Department’s progress in addressing FISMA in­
formation management and information security program requirements per FISMA
and other statutory requirements, including OMB guidance. OIG assessed perfor­
mance in areas that included certiﬁcation and accreditation (C&A), plan of action
and milestones (POA&M), security awareness and training, conﬁguration manage­
ment, inventory, incident reporting, and privacy requirements.

Since FY 2008, the Department has taken steps to improve management controls to
include the following:
    • 	 Updating Inventory Toolkits to provide guidance for inventory identiﬁca­
        tion, analysis, and recording and ensuring the inventory is materially correct.
    • 	 Effectively managing a decentralized Incident Management Program and
        reporting incidents timely to the United States Computer Emergency Readi­
        ness Team.
    • 	 Updating the Privacy Impact Assessment template to make it compliant
        with OMB guidance.

However, further improvements to the Annual Control Assessment Toolkit, C&A,
and contingency plan toolkits are needed.

In addition, the Department should take the following actions:
    • 	 Create an information security architecture that outlines the Department’s
        information security responsibility.
    • 	 Record and report systemic security weaknesses through the i-Post as 

        POA&M actions. 

    • 	 Develop methods to ensure systems owners appropriately update the 

        POA&M database and ensure that database information is validated. 

    • 	 Create standard operating procedures for addressing information technolo­
        gy-related security weaknesses identiﬁed in all audits.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   29
     • 	 Implement methods to globally enforce security awareness policies and en­
         hance methods of identifying individuals who should take the Cyber Secu­
         rity Awareness Training Course.
     • 	 Improve methods of identifying individuals with signiﬁcant security respon­
         sibilities and monitor compliance with training requirements.

The toolkits provided guidance and ensured standard processes were used to per­
form C&A of FISMA-related systems. However, effective monitoring was not
performed to ensure systems owners were complying with established guidance and
methodology. Without active monitoring to ensure compliance, controls not tested
for systems or networks may not be working effectively and could expose the De­
partment to loss of conﬁdentiality, integrity, or availability.



FINANCIAL MANAGEMENT


Independent Accountant’s Report on the
Application of Agreed-Upon Procedures:
Retirement, Health Beneﬁts, and Life Insurance
Withholdings/Contributions and Supplemental
Semiannual Headcount Report Submitted to the
Ofﬁce of Personnel Management (AUD/FM-10-01)

Under OIG’s direction, an independent external auditor performed agreed-upon
procedures as required by the applicable OMB criterion. These procedures were
performed solely to assist OPM in assessing the reasonableness of retirement, health
beneﬁts, and life insurance withholdings and contributions, as well as enrollment
information submitted by the Department via the Semiannual Headcount Report.
The independent auditor identiﬁed one instance in which the life insurance election
coverage in the payroll system did not agree with the election coverage in the ofﬁcial
personnel ﬁle for one employee, and the Department could not locate the life insur­
ance election forms for two employees. In addition, the auditor identiﬁed a report­
able difference between the Headcount Report and payroll information for one
pay period. No other exceptions or reportable differences were found as a result of
applying the procedures.




30        Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
Independent Auditor’s Report on the Department
of State Special-Purpose Financial Statements
(AUD/FM-10-02)

An independent external auditor audited the Department’s reclassiﬁed balance
sheet as of September 30, 2009, and the related reclassiﬁed statements of net cost
and changes in net position (special-purpose ﬁnancial statements) for the year then
ended, contained in the special-purpose closing package of the Department.

The auditor was unable to obtain sufﬁcient and competent evidential matter related
to the Department’s property and equipment balance as of September 30, 2009, and
could not determine whether the special-purpose ﬁnancial statements and accompa­
nying notes were free from material misstatement. In the auditor’s opinion, except
for the effects of any adjustments found to be necessary had the independent ex­
ternal auditor been able to examine evidence related to the property and equipment
balance, the special-purpose ﬁnancial statements and accompanying notes present
fairly, in all material respects, the ﬁnancial position of the Department as of Septem­
ber 30, 2009, and its net costs and changes in net position for the year then ended,
in conformity with accounting principles generally accepted in the United States of
America and the presentation pursuant to the requirements of the Treasury Financial
Manual.

The auditor identiﬁed no material weaknesses in internal control over the ﬁnan­
cial reporting process for the special-purpose ﬁnancial statements, and its tests of
compliance with Treasury Financial Manual requirements disclosed no instances of
noncompliance that were required to be reported.



Independent Auditor’s Report on the Department
of State 2009 and 2008 Financial Statements
(AUD/FM-10-03)

In an audit of the Department’s annual ﬁnancial statements as of, and for the year
ended, September 30, 2009, an independent external auditor was unable to obtain
sufﬁcient evidential support for the amounts presented in the FY 2009 combined
statement of budgetary resources, and therefore was unable to express an opinion on
the combined statement of budgetary resources.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   31
Because the independent auditor was unable to obtain sufﬁcient evidential support
for property and equipment amounts presented in the FY 2009 consolidated balance
sheet and consolidated statement of changes in net position, the auditor could not
determine whether the consolidated balance sheet and consolidated statement of
changes in net position presented were free from material misstatement.

In the auditor’s opinion, except for the effects of such adjustments, if any, as might
have been determined to be necessary had the auditor been able to examine evidence
related to the property and equipment balance, the consolidated balance sheet as
of September 30, 2009, and the related statements of net cost and changes in net
position for the year then ended present fairly, in all material respects, the ﬁnancial
position of the Department as of September 30, 2009, and its net cost of operations
and changes in net position for the year then ended, in conformity with accounting
principles generally accepted in the United States of America.

The auditor found certain deﬁciencies in internal control that it considered to be
signiﬁcant deﬁciencies. Speciﬁcally, the auditor found material weaknesses relating
to the restatement of the Department’s prior year ﬁnancial statements to eliminate
an environmental liability; weaknesses in the internal control structure over property
and equipment; the lack of adequate systems, processes, or controls to support the
completion of a ﬁnancial statement audit to meet OMB deadlines; and signiﬁcant
deﬁciencies in the internal controls over accounts payable accruals, unliquidated ob­
ligations, and information technology. The auditor also found instances of noncom­
pliance with certain provisions of applicable laws and regulations and also found that
the Department’s ﬁnancial management systems did not substantially comply with
the requirements of the Federal Financial Management Improvement Act of 1996.



Independent Review of the U.S. Department of State’s
Accounting and Authentication of FY 2009 Drug Control
Funds and Related Performance Report (AUD/FM-10-17)

OIG independently reviewed the assertions from the Bureau of International Nar­
cotics and Law Enforcement Affairs (INL) FY 2009 detailed accounting and perfor­
mance submission to the Director of the Ofﬁce of National Drug Control Policy
(ONDCP), which was prepared in compliance with ONDCP’s applicable circular.
OIG could not attest to the reliability of two assertions relating to drug control
obligations. The obligation information included in the report was obtained from
the Department’s accounting system. During the audit of the Department’s FY 2009




32       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
ﬁnancial statements, an independent public accountant identiﬁed a material weakness
related to the Department’s ﬁnancial reporting processes. The auditor also identi­
ﬁed a signiﬁcant deﬁciency related to controls over unliquidated obligations. Except
for the issues noted, nothing came to OIG’s attention that caused it to believe that
the other management assertions included in the report were not fairly stated, in all
material respects, based upon ONDCP’s circular.



Management Letter Related to the Audit of the U.S.
Department of State 2009 and 2008 Financial Statements
(AUD/FM-10-18)

During the audit of the Department’s 2009 ﬁnancial statements, the independent
external auditor identiﬁed matters involving internal controls and other operational
matters that it brought to the Department’s attention related to funds with the De­
partment of the Treasury, revenue, accounts payable, accounts receivable, foreign
currency exchange rate reviews, payroll, annuity payments, the retirement fund’s
actuarial liability, and intra-governmental activity. The external auditor recommended
the Department take appropriate action to address these weaknesses.



CONTRACTS AND GRANTS

Analytical Review of the Multinational Force and
Observers FY 2008 Financial Statements and
FY 2008 Budget (AUD/CG-10-13)

As requested by the Bureau of Near Eastern Affairs (NEA), OIG conducted an
analytical review of the audited ﬁnancial statements of the Multinational Force and
Observers (MFO) for the ﬁscal years ended September 30, 2008 and 2007. The re­
view was to determine any trends or signiﬁcant changes in expenditures that had oc­
curred between FYs 2007 and 2008. OIG also reviewed the external auditor’s report
for the FY 2008 and FY 2007 audit of ﬁnancial statements to determine whether it
contained any areas of concern and reviewed the MFO budget for FY 2008 to deter­
mine its reasonableness when compared with FY 2007 actual expenses. In the opin­
ion of the ﬁnancial auditors, the ﬁnancial statements for FY 2008 presented fairly,
in all respects, the ﬁnancial position of the organization on September 30, 2008 and
2007. OIG found no information requiring it to perform further examination.



Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   33
Quality Control Review of Calibre CPA Group, PLLC
(AUD/CG-10-14)

As the cognizant Federal funding agency for the National Endowment for Democ­
racy, OIG performed a quality control review of the OMB Circular A-133 audit
performed by Calibre CPA Group, PLLC, for the ﬁscal year ended September 30,
2008. OIG determined the FY 2008 audit report and associated Calibre working
papers met the applicable auditing guidance and regulatory requirements speciﬁed in
applicable guidance. Therefore, no follow-up action was required.




Independent Accountants’ Report on the Application
of Agreed-Upon Procedures on Indirect Cost Rates
Proposed by AFS-USA, Inc. (AUD/CG-10-15)

Independent accountants determined that AFS-USA’s accounting system was ad­
equate for accumulating and reporting indirect costs under the provisions of ap­
plicable OMB circulars. The independent accountants took exception to the indirect
cost rates reported by AFS-USA for the ﬁscal years ended December 31, 2007, 2006,
and 2005, and recommended that the Bureau of Administration, Ofﬁce of Logistics
Management, Ofﬁce of Acquisitions Management, International Programs Division,
accept and ﬁnalize the indirect cost rates computed for AFS-USA for the ﬁscal years
speciﬁed.




34      Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
INSPECTIONS

INSPECTIONS


DOMESTIC INSPECTIONS


Inspection of Bureau of Public Affairs (ISP-I-10-39)

Within 6 months of arriving in the Bureau of Public Affairs (PA), the Assistant
Secretary began to strategize with the deputy assistant secretaries on bureau reor­
ganization, and to assess problems that predated his arrival. However, the Assistant
Secretary had not communicated his strategic vision with all bureau personnel. Lack
of internal communication, inadequate oversight of bureau management, and unre­
solved personnel problems contributed to low bureau morale.

Ten years after public diplomacy was moved into the Department from the former
United States Information Agency, the merger between public diplomacy and the
Department was not yet complete. Public diplomacy had not received sufﬁcient at­
tention within the bureau, even though it accounts for $2.3 million in bureau fund­
ing. The bureau should look for additional opportunities to factor the perceptions of
foreign media into the crafting of public statements and in other aspects of its work.

The executive ofﬁce generally performed its duties well, but needed to be more as­
sertive in ensuring supervisors were taking performance management issues seri­
ously, and in addressing leadership and morale issues that contributed to higher than
average employee attrition.

Incorporation and maximization of various media organizations such as the Ofﬁce
of Broadcast Services, Ofﬁce of Press Relations, U.S. Agency for International De­
velopment’s media component, and Foreign Press Centers, among others, needed to
be a central goal for PA in executing the bureau’s key media relations activities.

The small, but highly motivated, bureau ofﬁces charged with electronic and digital
communication swiftly and authoritatively communicated foreign policy messages
using a full range of new media tools. The effectiveness of these ofﬁces would be
enhanced by a reorganization and additional stafﬁng to support this emerging, high-
proﬁle public affairs responsibility.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   35
                                       BEST PRACTICE

       Bureau of Diplomatic Security Bureau Security Officers

       Issue: Most domestic bureaus assign the responsibilities of
       bureau security off cer to an employee as a part-time, collateral
       duty. In some cases, responsibilities are not carried out diligently
       and consistently, because employees lack an understanding of
       relevant security regulations or view the duty as a secondary prior-
       ity. In the absence of diligent supervision, security infractions or
       violations can occur. As the custodian of a large number of highly
       classif ed cables and documents stored for use by the Off ce of the
       Historian, PA must follow stringent regulations concerning the stor-
       age, handling, and control of Top Secret/Sensitive Compartmented
       Information materials. Compromise of these materials can have
       serious consequences for national security and can also result in
       administrative penalties for employees deemed accountable for
       any lapses in their handling.

       Response: The Bureau of Diplomatic Security appointed a full-
       time employee, who also serves as bureau security off cer for
       three other domestic bureaus, to be the bureau security off cer.
       Working with PA staff, the employee set up an innovative training
       schedule to certify PA employees to handle Top Secret informa-
       tion, establish sound security protocols, and address professional-
       ly and responsively the range of security requirements the bureau
       faces.

       Results: No employees in the bureau received security infractions
       or violations in the last year, records required by regulations were
       well-maintained, and the bureau was discharging its responsibili-
       ties to protect national security information in an effective manner.




Inspection of the Bureau of Western Hemisphere Affairs
(ISP-I-10-08)

The Bureau of Western Hemisphere Affairs (WHA) was influential in setting over-
all U.S. policy goals in the region through its strategic thinking, well-prepared and
presented views, and its excellent access to senior policymakers. The WHA Assistant
Secretary was effective, active, and well-respected by colleagues and counterparts. He
performed much outreach in Washington and during his frequent travels in the west-



36       Off ce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
ern hemisphere. Morale was very high, in large part due to the professionalism of the
bureau’s front ofﬁce. Bureau personnel highly respected the front-ofﬁce leadership.
The bureau was a strong advocate of public diplomacy, and was highly regarded for
its energy, vision, and leadership qualities, including its advocacy and creativity in us­
ing new technology to reach the public.

The basic regional policies, initiatives, and goals that the bureau helped craft under
the previous Administration—including the Merida Security Initiative and the Path­
ways to Prosperity Initiative—continued under the new Administration with some
change in emphasis. New Administration initiatives included efforts to reach out to
Cuba, increased support for Haiti, and the Energy and Climate Partnership of the
Americas. All of these initiatives reﬂected the bureau’s efforts to work on multiple
sectors concurrently.

The WHA Ofﬁce of the Executive Director effectively supported most overseas and
domestic operations despite lean resources for the bureau. Department-wide system­
ic problems not caused by or unique to WHA, had created declines in service and
higher costs for domestic information management, travel orders, and vouchers.



Inspection of the U.S. Permanent Mission to the
Organization of American States (USOAS) (ISP-I-10-14)

In his dual roles as U.S. Ambassador to the Organization of American States (OAS)
and National Summit of the Americas Coordinator, the Ambassador ably supported
President Obama’s ﬁrst successful summit meeting with hemispheric leaders in April
2009. The Ambassador also helped achieve success at the June 2009 OAS General
Assembly in upholding prodemocracy principles with regard to possible readmission
of Cuba. Summit work occupied a majority of the Ambassador’s time for about 1
year.

The U.S. Permanent Mission to the OAS (USOAS) is treated alternately as an ofﬁce
in the Bureau of Western Hemisphere Affairs (WHA) and as a separate mission,
without the commensurate resources needed to work with a multilateral organiza­
tion. Maintaining a distinct identity was a continuing challenge for the mission. At
a minimum, WHA needed to allocate more representational and travel funds to the
mission to assist USOAS in achieving its objectives within the OAS and to help inﬂu­
ence the other 33 OAS missions.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   37
Policy coordination between USOAS and WHA was very good at the senior level,
but less thorough at the lower levels. Cooperation was based more on personalities
than structural factors and could disintegrate if future personalities do not mesh.

The U.S. deputy permanent representative to the OAS needed to at least have the
personal rank of ambassador to more effectively perform his duties as alternate rep­
resentative and as chargé in the absence of the Ambassador.

Funding for OAS passes through USOAS but is budgeted initially by the Bureau of
International Organization Affairs or other Department entities. In budgeting, the
Bureau of International Organization Affairs gives priority to UN matters separate
from OAS.



Inspection of Ofﬁce of Foreign Missions Custodial
Property Program (ISP-I-10-03)

The Ofﬁce of Foreign Missions (OFM) has a continuing duty to respect and protect
Iran’s diplomatic and consular properties from the date the Department took cus­
tody of them in April 1980. In order to fulﬁll the U.S. obligation under the Vienna
Convention to respect and protect Iran’s diplomatic and consular real property,
OFM determined that the real properties could best be maintained if occupied and
if rental of the properties could provide a source of funds for essential maintenance
and repairs. This program has been successful in many respects.

At the time of the inspection, the Iranian custodial properties were generally in
reasonable physical condition. The properties were aging, however, and would need
closer oversight and more frequent visits by OFM than had been necessary in the
past. The properties needed regular inspections by qualiﬁed experts in building sys­
tems. In addition, Iranian custodial properties were in need of capital improvements
if they are expected to remain rentable. Should the properties become less attractive
to potential renters, OFM’s funding to maintain them will decrease or stop complete­
ly. However, OFM was not adequately staffed to oversee the day-to-day management
of the custodial property program, let alone the oversight of capital improvements.

OFM did not have up-to-date, detailed standard operating procedures for the man­
agement of custodial properties, the assumption of new custodial properties, the
inventorying of contents of properties, or the resolution/return of custodial prop­
erties to foreign missions. The inventories of tangible items removed from Iranian
custodial properties and placed in commercial storage have not been reviewed since
1997. OFM ﬁnancial records and vouchering procedures for income and expendi­
tures related to custodial properties are thorough and accountable.



38       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
Review of the Department of State Plan to Provide
Qualiﬁed Contracting Ofﬁcers and Contracting
Ofﬁcer Representatives for Oversight of American
Recovery and Reinvestment Act Projects
(ISP-I-10-26)

On February 17, 2009, President Obama signed into law the American Recovery and
Reinvestment Act (ARRA). The impact of the multipurpose bill on the Department
was to spend more than $600 million, primarily on capital projects and technology
infrastructure. Funding included $90 million for Diplomatic and Consular Programs;
$290 million for the Capital Investment Fund; $220 million for the International
Boundary and Water Commission construction; and $2 million for the Ofﬁce of
Inspector General to audit, evaluate, and monitor how the ARRA funds were spent.

The Department is responsible for ensuring there are sufﬁcient qualiﬁed and ap­
propriately trained contracting ofﬁcers and contracting ofﬁcer representatives to
manage and provide the proper oversight for the ARRA contracts. The Ofﬁce of
Acquisitions Management and the senior procurement executive in the Ofﬁce of the
Procurement Executive play a major role in ensuring ARRA funds expended by the
Department are spent in accordance with relevant acquisition policies and programs.

At the time of the inspection, the Department was coordinating well among all the
ofﬁces that play a role in the ARRA funds including the contracting ofﬁcers and
contracting ofﬁcer representatives. However, the Department could improve imple­
mentation of Federal procurement policies and immediately improve its mechanisms
for tracking training requirements for its contracting ofﬁcers and contracting ofﬁcer
representatives before additional ARRA contracts are awarded, and minimize any
risk associated with the qualiﬁcations of the contract employees who are administer­
ing these contracts.



Inspection of the Bureau of Administration, Ofﬁce of
General Services Management (ISP-I-10-42)

Overall, the work of the Ofﬁce of General Services Management (A/OPR/GSM)
was being performed well. However, workload distribution within A/OPR/GSM
was noticeably uneven; some divisions were challenged to meet Department de­
mands for services, while other divisions were not as stressed. Overall, A/OPR/
GSM employees, in spite of mixed morale and workload stress in some sections,
were committed to providing good customer service.



Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   39
Controls over cash receipts needed to be established in the Ofﬁce of Authentica­
tions in order to meet regulatory requirements. The division’s stafﬁng needed to be
increased to meet a continually increasing workload. The Department should also
request an exemption from existing regulations that prohibit the Department from
retaining about $1.2 million in authentications collections. These collections must
now be credited to General Receipts of the Treasury.

The Fleet Management and Operations Division provided adequate commercial
transportation services to Department ofﬁcials. However, the division did not pro­
vide 100 percent of executive transportation services, per its contract terms, because
of a shortage of 14 motor vehicle operators.



Review of the Integrity and Fairness of the Foreign
Service Selection Board Process
(ISP-I-10-48)

OIG’s review of the Integrity and Fairness of the Foreign Service Selection Board
process concluded that the processes by which annual boards promote, low-rank,
and award Foreign Service personnel were fundamentally fair and trustworthy. Proce­
dural safeguards were adequate, but should be enhanced.

Board members took their responsibilities very seriously, considered themselves
bound by their oaths, and zealously protected the conﬁdentiality of their delibera­
tions. Other than the members, no one was allowed in the room where and when a
board was voting.

The Ofﬁce of Performance Evaluation (HR/PE) effectively organized and sup­
ported the work of a multitude of annual boards that evaluate and reward Foreign
Service personnel. Longevity of service and depth of experience among key person­
nel in HR/PE resulted in a pattern in which members seemed to perform their du­
ties almost by rote. The complicated processes should be codiﬁed in a single proce­
dural manual. The prospective, approximately 30 percent, expansion in the cadre of
Foreign Service personnel between FY 2009 and FY 2013 will increase the workload
on all aspects of performance evaluation. Implications for efﬁcient management of
the anticipated work should be addressed by Department management.

Incorporation of technological advances (particularly digital access to performance
ﬁles) had increased the efﬁciency of promotion board deliberations. However, there
were cogent reservations relative to the concept of moving to “virtual” boards—
even though that might reduce costs and ease the burden of composing the boards.



40       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
Management Review of Youth Programs, Bureau of
Educational and Cultural Affairs U.S. Department of
State (ISP-I-10-16)

The youth exchange programs are some of the Department of State’s most valuable
programs for promoting mutual understanding and respect among successor genera­
tions globally. Due to the age group of the participants of youth exchange programs
(15–18 years), these exchanges constitute one of the most vulnerable exchange pro­
grams in the Department and should demand priority of attention.

There was insufﬁcient oversight of the youth exchange programs at all levels within
the Bureau of Educational and Cultural Affairs (ECA) in the Department and at the
private sector sponsors’ level. In addition, there were insufﬁcient dedicated resources
at ECA to conduct effective oversight of youth exchange programs. There should
be a restructuring of the youth exchanges oversight processes within the ECA since
support for the conduct of the program was coming from several ofﬁces within the
bureau and was also connected to other programs. Priority must be given to ﬁlling
the leadership gap in the ECA to facilitate restructuring the bureau to effectively
conduct youth exchange programs.



Inspection of the Bureau of Administration’s Ofﬁce
of Real Property Management and Ofﬁce of Facilities
Management Services (ISP-I-10-05)

Overall, the work of the Ofﬁces of Real Property Management (RPM) and Facilities
Management Services (FMS) was being performed successfully. The cost of these
operations however, was high. There appeared to be little justiﬁcation for the project
management and support services (PMSS) division as a separate entity in RPM. Both
direct-hire and labor-hour contract stafﬁng in RPM could be reduced. Oversight of
hourly hires was minimal. The organizational structure of FMS was questionable. An
organizational review to reorganize and rightsize both RPM and FMS by the Bureau
of Human Resources, Ofﬁce of Resource Management and Organization Analysis
was needed.

The continued reliance on a work force hired in part through several labor-hour
contracts was unnecessarily costly because the Bureau of Administration did not
have the authority to hire individuals on personal services contracts (PSC). The Of­
ﬁce of Management and Budget had cleared a proposal for a 200-person PSC pilot




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   41
program. The proposal had not yet been approved by Congress. Savings of about
$2.4 million annually could be realized by discontinuing the labor-hour contracts and
obtaining and utilizing PSC authority to hire needed staff.

Management controls over the work performed by the primary operations and main­
tenance contractor needed to be strengthened. The automated information systems
were inadequate to effectively manage construction, renovation, and maintenance
projects.

Establishing a working capital fund cost center for ﬁnancing domestic building
renovation projects would eliminate the inefﬁcient, burdensome aspects of ﬁnancing
projects that, of necessity, are executed across ﬁscal years.

Funds-tracking needed to be strengthened if the Department was to maintain ad­
equate oversight of funds provided to the General Services Administration for both
current projects and those being planned using American Recovery and Reinvest­
ment Act funds.



Compliance Follow-up Review of the Bureau of
Administration’s Ofﬁce of the Procurement Executive,
Ofﬁce of Acquisitions Management, and Ofﬁce of Small
and Disadvantaged Business Utilization (ISP-C-10-23)

The Compliance Follow-up Review of the Inspection of the Bureau of Administra­
tion’s Ofﬁce of the Procurement Executive, Ofﬁce of Acquisitions Management,
and Ofﬁce of Small and Disadvantaged Business Utilization (ISP-I-07-12, December
2006) recommended that the Bureau of Administration conduct a new compre­
hensive review of the Ofﬁce of Acquisitions Management, in accordance with the
Government Accountability Ofﬁce Framework for Assessing the Acquisition Func­
tion at Federal Agencies (GAO-05-218G), and establish an internal review board to
ensure that recommendations are addressed and report to the Assistant Secretary on
implementation of any recommendations made in the review.

All recommendations from the original inspection of these ofﬁces were closed dur­
ing the course of the Compliance Follow-up Review.




42       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
OVERSEAS MISSIONS


Inspection of Exercise of Chief of Mission Authority in
Managing President’s Emergency Plan for AIDS Relief
Overseas (ISP-I-10-01)

The purpose of this inspection was to determine how Chiefs of Mission (COM)
were fulﬁlling their responsibilities to coordinate, direct, and support the President’s
Emergency Plan for AIDS Relief (PEPFAR) program at overseas posts. The report
described and evaluated program oversight by COMs, including their role in policy
and program implementation, the challenges they faced, the effectiveness of mission
support, and implications for sustainability.2

PEPFAR had accomplished much in its ﬁrst 5 years. The U.S. Government now
faced the more difﬁcult challenge of making that initial contribution sustainable. In
particular, the U.S. Government had assumed varying degrees of responsibility for
the lives of more than 2 million people now dependent on antiretroviral medication.
This was an enormous policy challenge that needed to be actively addressed.

The model of the ﬁrst 5 years, where most important decisionmaking had been cen­
tralized within the Ofﬁce of the U.S. Global AIDS Coordinator (S/GAC), would be
increasingly inappropriate as the program necessarily shifted to expanding coopera­
tion with host governments. S/GAC would need to reduce the demands it made on
posts and devolve substantially more decisionmaking authority to the ambassadors
and PEPFAR teams.

The COMs at the ﬁve posts the OIG team visited, as well as 19 other posts out of
the 23 queried by questionnaire, had assigned a high priority to PEPFAR. The pro­
gram’s size and complexity required signiﬁcant COM attention. When this attention
was given, the program was generally well coordinated and synchronized with other
U.S. programs and objectives. However, the inspection found a few instances where,
for one reason or another, COM attention had at times been insufﬁcient, and during
those times the program suffered.

Ambassadors and their missions had done an extraordinary job of providing policy
oversight, management, and administrative support for the program. However, they
had received less than adequate support in all three of these areas from the Depart­
ment itself, which continued to experience severe resource shortages. As PEPFAR
2
  Reauthorization Act of 2008, §4 (1)(C), “…emphasizing capacity building initiatives in order to promote a
transition toward greater sustainability through the support of country-driven efforts…”




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010        43
evolved to address the more complex task of ensuring sustainability, the Depart­
ment needed to take more direct interest in the program. The Department’s policy
leadership and its management support apparatus had not been actively involved in
the PEPFAR program in any sustained way. Among other things, more effort was
needed to apply existing PEPFAR resources to the program’s support needs.



BUREAU OF AFRICAN AFFAIRS

Compliance Follow-up Review of Embassy
Antananarivo, Madagascar (ISP-C-10-30A)

OIG conducted a compliance follow-up review (CFR) of the inspection report is­
sued in October 2008, Embassy Antananarivo, Madagascar (ISP-I-08-47A), including 13
formal recommendations. This CFR closed the 2008 inspection report, and con­
tained two reissued recommendations pertaining to privatizing the English Teacher
Program and disposing of excess furniture, as well as one new recommendation con­
cerning the legality of property disposal for the Millennium Challenge Corporation
and paying vendors from the Millennium Challenge Account. Other management
issues listed in the work plan were reviewed and found to be completed.



Compliance Follow-Up Review of Embassy Dar es
Salaam, Tanzania (ISP-C-10-31A)

OIG’s CFR of Embassy Dar es Salaam found the mission did an excellent job of
complying with the 2008 inspection report recommendations as well as in preparing
for and cooperating with the CFR. The inspectors observed that the serious attitude
toward the inspection was reﬂected in the integration of the recommendations into
daily operations. The Report of Inspection, Embassy Dar es Salaam, Tanzania, (ISP-I­
09-04A, October 2008) was closed, and the CFR contained one reissued recommen­
dation to sell property valued at more than $1.5 million. OIG also issued two new
recommendations to improve controls over the U.S. Government-owned house in
Zanzibar.




44       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS


Inspection of Embassy Wellington, New Zealand, and
Embassy Apia, Samoa (ISP-I-10-06A)

Embassy Wellington was doing an excellent job expanding and improving the bilat­
eral relationship and advancing U.S. interests. Coordination among agencies in the
mission was well-managed and productive. The political-economic section was pro­
ducing high quality reporting and effectively promoting U.S. political, military, trade,
and environment agendas. More guidance from Washington on environment, sci­
ence, technology, and health issues where New Zealand was most active could help
advance U.S. policy goals. A talented public affairs section was effectively promoting
the bilateral relationship, but needed to set clearer priorities to make the most efﬁ­
cient use of its small staff.

The most critical management issue facing the mission was compensation for its lo­
cally employed staff. There had been no pay increase since March 2006, and the most
recent comparability study conducted by the Department had no credibility among
the staff. The Department needed to address this issue as soon as possible, identify­
ing acceptable commercially available data, carrying out a salary study, and providing
the results to Embassy Wellington.

The management section was doing a commendable job of managing resources
given that one ofﬁcer was performing three functions for multiple customers: human
resources, ﬁnance, and general management. The mission may have reached the limit
of its ability to provide services without additional International Cooperative Admin­
istrative Support Services staff.

Consulate General Auckland was effectively providing consular services to New
Zealand and consular support to Embassy Apia. Despite its small size, Embassy Apia
was advancing important U.S. interests and conducting effective public diplomacy
outreach and an appropriate level of consular services, but it needed extensive man­
agement support from Embassy Wellington.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   45
                                       BEST PRACTICE

     Embassy Wellington keeps its office supplies at a low level by limiting the
     number and types of items it keeps in stock and authorizing individual of-
     fices to order non-inventory items from a commercial vendor.

     Issue: Embassies sometimes keep large shelf stocks of off ce supply
     items, acquired in an attempt to meet every need, or as a result of spend-
     ing end-of-year funds on supplies. Overstocking results in slow issuance
     and loss of product through damage or passing of expiration dates. Of-
     f ce supplies that become useless due to age neither meet the need to f ll
     every requirement, nor are they a good use for scarce funds.

     Response: Embassy Wellington uses a limited standard supply list for
     in-house distribution, combined with an account with a local off ce supply
     outlet. Individual off ces have one or two employees authorized to place
     orders from the vendor’s online ordering tool. Limits on quantities and
     monthly statement reviews provide internal controls.

     Result: Embassy Wellington has a staff of two carrying out all duties
     within the property and supply operations. The problem of aging shelf
     stock has been eliminated, and end-of-year funds are no longer spent on
     large quantities of supplies that become unusable. Customer satisfaction
     with supplies has increased.




Inspection of Embassy Canberra, and Consulates
General Sydney, Melbourne, and Perth, Australia
(ISP-I-10-07A)

The U.S. mission in Australia was doing an impressive job advancing U.S. policy in-
terests and solidifying the U.S. relationship with the new Australian Government.

Mission teamwork was outstanding. The heads of agencies, sections, and consulates
general worked well together and supported each other. The integration of constitu-
ent posts into the work of the mission was particularly noteworthy. The high degree
of communication and coordination enhanced both the quality and coherence of
mission reporting. Washington users found it relevant, timely, and well-sourced.

Mission Australia’s consular operations were generally good and had a strong service
orientation but required greater oversight by the country consular coordinator and
principal officers. Public diplomacy programs at all Mission Australia’s posts were ac-
tive, well-managed, and directed to Mission Strategic Plan goals. Embassy Canberra’s
direction and support was excellent, as was coordination among mission elements.
More detailed operational plans would be helpful.

46        Off ce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
BUREAU OF EUROPEAN AND EURASIAN AFFAIRS



Inspection of Embassy Brussels, Belgium
(ISP-I-10-04A)

The chargé d’affaires earned high marks for his fairness, integrity, and engagement.
He was an effective spokesman for the United States in Belgium and had excellent
relations with key ofﬁcials. Ofﬁcer losses due to the Global Repositioning Program
Initiative hit the political and economic sections particularly hard and caused their
consolidation. The new joint section was responding well to the ongoing integration
process, but reporting had been reduced. Given the embassy’s structure and stafﬁng,
the counselor for political and economic affairs was called upon to assume substan­
tial management and supervisory responsibilities, including oversight of other agency
activities and coordination with the U.S. Mission to the European Union (USEU)
and the U.S. Mission to the North Atlantic Treaty Organization (USNATO). For
these reasons, the position needed to be elevated to management counselor, FE-OC.
The consular section had adept and inventive ofﬁcers, competent local staff, and
a cramped, ungainly facility. It had caught up with years of neglected management
controls and maintenance and launched some innovations, but needed further im­
provements to work ﬂow and morale, as well as completion of a long overdue space
renovation project.



Inspection of U.S. Mission to the North Atlantic Treaty
Organization (USNATO), Brussels, Belgium (ISP-I-10-12)

USNATO plays a crucial role in addressing key U.S. national security challenges
within and outside Europe, including Afghanistan. USNATO is unique among U.S.
diplomatic establishments since its Ambassador reports to both the Secretaries of
State and Defense. Despite unprecedented turnovers in ambassadors and other staff
over a period of 16 months, the mission maintained its effectiveness because of the
efforts of its high quality Departments of State and Defense staff, and their pro­
fessionalism. The recent arrival of a new ambassador and deputy chief of mission
(DCM) was expected to initiate a period of stability. The political section supported
a high number of important visitors, including the President, the Vice President, and
the Secretaries of Defense and State. Its ofﬁcers functioned extremely well despite
long hours and constant pressure. In recent years, USNATO had increasingly re­
ported through email and should return to using front channel cables for important
reports and most instructions.


Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   47
                                                        IInspection
                                                            p        of Tri-Mission
Inspection of U.S. Mission                          Coordination,, Brussels (ISP-I-10-15)
to the European Union,
Brussels, Belgium                                    There was a growing convergence in the
                                                     agendas and priorities of the Brussels
(ISP-I-10-13)
                                                     Tri-Mission—Embassy Brussels, the U.S.
                                                     Mission to the European Union, and the U.S.
USEU continued to do an excellent                    Mission to the North Atlantic Treaty Orga-
job advancing crucial U.S. political and             nization—embracing a widening range of
economic issues with the 27-member                   issues.
European Union, despite considerable                 Building on current efforts, there was con-
turnover in its leadership over the past             siderable scope for enhancing communica-
2 years. The mission had operated effi-              tion and coordination among the constituent
ciently under the chargé d’affaires who              posts of the Tri-Mission on both policy and
replaced two different ambassadors                   management issues. The European Media
during his tenure.                                   Center, commonly known as the Hub, was
                                                     becoming a useful catalyst and platform for
The mission worked hard to advise U.S.               expanding U.S. media outreach in Europe.
embassies in European Union member                   Its role was distinct from, but complementary
states on how they could best influence              to, those of the public diplomacy units of the
European Union decisionmaking at the                 three missions, each of which was fulf lling
national level. The busy political and               an important need.
economic sections operate effectively
                                                     Budget cuts, position eliminations, extended
under strong leaders, who also coordi-
                                                     staff ng gaps, and morale issues hampered
nate the activities of several other U.S.
                                                     management operations throughout 2008,
departments and agencies with repre-                 and had a noticeable effect on service qual-
sentatives at USEU.                                  ity and customer satisfaction. Despite these
                                                     constraints, the JAS section was well-run,
Given the importance of the joint
                                                     and generally provided good and equitable
administrative services (JAS) section to
                                                     management support to all three Brussels
the functioning and morale of all three
                                                     missions. An improved budgetary outlook,
missions, USEU leadership needed to                  the anticipated f lling of vacant positions, and
join with the front offices of Embassy               personnel turnover were expected to raise
Brussels and the U.S. Mission to the                 JAS’s performance levels.
North Atlantic Treaty Organization in
assuming greater collective responsibil-             Over the next 5 to 10 years, several factors,
ity for overseeing and supporting the                notably including the continued expansion
                                                     of U.S. relations with the European Union,
JAS.
                                                     will generate increases in staff ng for the
                                                     Department and other U.S. agencies. In con-
                                                     sequence, both Brussels and the Bureau of
                                                     European and Eurasian Affairs would need
                                                     to def ne more precisely their expectations
                                                     for future off ce space needs and how they
                                                     could be met.

48       Off ce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
Inspection of Embassy Belgrade, Serbia
(ISP-I-10-09A)

The Ambassador and deputy chief of mission had recalibrated U.S.-Serbian relations
and achieved signiﬁcantly more cooperation on U.S. objectives. This improvement
was especially notable because it occurred in the aftermath of U.S. recognition of
Kosovo’s independence, which incited the Serbian Government to act with hostility
toward the United States.

The Ambassador’s leadership during a 2008 attack on the embassy was outstand­
ing. He and his team foresaw impending danger and prepared for it carefully. When
assailants penetrated the embassy, no employees suffered injury, and no protected
materials were compromised. After the attack, the ordered departure and subsequent
return of U.S. personnel proceeded smoothly, as did rebuilding the chancery. Con­
sequently, there was minimal disruption to embassy operations and surprisingly few
negative aftereffects.

The political and economic sections worked well together, despite the disadvantage
of being housed in different buildings of the embassy. Both sections also beneﬁted
from colocation with their LE staff, which enhanced useful collaboration and ben­
eﬁted morale and information exchange.

The embassy had done an exceptional job of establishing goal implementation
groups, a system the deputy chief of mission designed to make every section an ac­
tive player in supporting Mission Strategic Plan goals. The embassy’s innovative and
nationwide public diplomacy program, which involved all sections of the embassy
and eight American Corners, had moved Serbian perceptions of the United States in
a positive direction. The embassy management section overcame the challenges of
the chancery perimeter breach, the ordered departure, stafﬁng gaps, and dysfunction­
al facilities to provide quality services to its subscribers as reﬂected in high customer
service survey results.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   49
                                   BEST PRACTICE

     Embassy Belgrade has done an exceptional job of implementing
     goal implementation groups (GIG), a system that makes every
     section an active player in supporting Mission Strategic Plan
     (MSP) goals.

     Issue: Before the arrival of the current executive team, Embassy
     Belgrade approached the Mission Strategic Plan with a process
     called the rolling policy agenda. By all accounts, it was time-con-
     suming and labor-intensive, and generally disliked by sections and
     agencies alike.

     Response: With the Ambassador’s support, the DCM created
     GIGs and ensured that the MSP became a useful tool to monitor
     progress throughout the year. Once the Ambassador presents his
     clearly deﬁned vision, agencies and sections decide consensually
     how to organize the GIGs. Embassy sections with a link to MSP
     goals have ownership in a GIG that is relevant to their work. GIGs
     are scheduled to meet once every ﬁve weeks but can assemble
     more frequently when appropriate. They are a net gain rather than
     a burden for participants because they do not require inordinate
     amounts of preparation time.

     MSP GIG topics are: A Democratic Serbia; A Prosperous Serbia;
     Serbia as a Partner; A Stable Serbia; and An Efﬁcient, Effective
     U.S. Mission. Groups are co-chaired by two section or agency
     chiefs and “owners” come from every ofﬁce that has a strategic
     interest in the topic. There are usually ﬁve to seven sections/own-
     ers in each GIG. The “Serbia as a Partner” GIG, for example, is
     co-chaired by the economic counselor and a political ofﬁcer. Its
     owners represent the political and economic sections, the U.S.
     Agency for International Development, the U.S. Foreign Commer-
     cial Service, and the Defense attaché’s ofﬁce.

     Result: Regularly scheduled GIG sessions mean each embassy
     section maintains a sense of ownership of MSP goals. Meetings
     ensure the MSP remains on track and that no important part of
     policy or its implementation falls between the cracks during the
     year. Report card sessions measure progress. GIG owners have
     regular opportunities to exchange ideas, share solutions to prob-
     lems, marry assistance to diplomacy, and monitor how achieving
     goals will affect the next Mission Strategic Plan.




50    Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
                                          BEST PRACTICE

         Outreach to Exchanges Alumni

         Issue: With more than $5 million annually in U.S. Support for
         Eastern European Democracy Act (SEED) funds that are used pri-
         marily for exchange activities, in addition to Fulbright, International
         Visitor, and other exchange programs, Embassy Belgrade’s public
         affairs section (PAS) has close to 1,000 exchange alumni dating
         from the embassy’s reopening in 2001. These alumni constitute a
         tremendous potential resource for promoting understanding and
         appreciation of the United States among the larger Serbian public,
         many of whom are ignorant about, or hostile to, the United States.

         Response: Embassy Belgrade’s PAS has developed a highly ef-
         fective alumni outreach program, debrief ng alumni on their return
         and inviting them regularly to public affairs programs. PAS also
         works with them on special projects, such as an environmental
         clean-up program initiated by high school exchange alumni. An
         alumni coordinator maintains regular contact with the alumni, and
         the section employs state-of-the-art communications technology to
         do so.

         Result: PAS activities have created a network of alumni who
         share ideas and experiences with each other, as well as with
         embassy personnel, reinforcing their exchange experiences. They
         participate actively in programs to promote the embassy’s stra-
         tegic goals, such as protecting the environment and promoting
         economic development.




Inspection of Embassy Podgorica, Montenegro
(ISP-I-10-10A)

The Ambassador had established productive relations with the Montenegrin Govern-
ment and advanced U.S. policy objectives, notably by speeding Montenegro’s North
Atlantic Treaty Organization accession process, winning its recognition of Kosovo’s
independence, and securing Montenegrin troops for Afghanistan. The Ambassador
used his language fluency and skill in public diplomacy to enhance positive views of
the United States among the Montenegrin public.

The front office’s leadership had been problematic; it had failed to moderate the
heavy workload, prioritize clearly, make decisions expeditiously, and delegate ad-


Off ce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   51
equate authority. Combined with the isolation of Podgorica and the overcrowding in
the chancery, it caused serious stress and low morale among American staff.

Much of the considerable growth in stafﬁng in the last few years occurred in con­
travention of the Department’s efforts to impose discipline on stafﬁng through a
model embassy concept. Management stafﬁng had not grown commensurate with
the rest of the embassy, and the Department should approve new positions for an
information management ofﬁcer and a general services ofﬁcer. Under existing plans,
Embassy Podgorica would continue to occupy substandard, overcrowded workspace
until 2023, when the new embassy compound is scheduled to be completed.

The public affairs section played a critical role in implementing the embassy’s ambi­
tious policy agenda by carrying out a remarkably active and focused public diplomacy
program. The section was understaffed in relation to its responsibilities, however,
and needed an additional locally employed staff position.

The consular section, which was starting nonimmigrant visa services in the summer
of 2009, would appropriately restrict the number of visas that it processes until a
consular section with adequate space was built as part of the annex scheduled for
completion in 2011.



Inspection of Embassy Tirana, Albania (ISP-I-10-36A)

Behind the high-proﬁle leadership of a determined Chief of Mission, Embassy
Tirana pursued sweeping democratization and development goals intended to help
Albania achieve full membership in the Euro-Atlantic community and contribute
to Balkan peace and stability. Although the policy environment was favorable, the
achievement of these goals was impeded by the country’s pervasive corruption and
the absence of any democratic history. Nontraditional diplomacy was therefore a
fundamental tool in the embassy’s efforts and put the mission in the position of pub­
licly criticizing Albanian acts that perpetuate or proﬁt from the weakness of existing
institutions, while privately lobbying political leaders on actions they should take or
not take. Although sometimes characterized as meddling, Embassy Tirana’s actions
were matched by other western embassies and organizations.

Embassy Tirana managed a broad portfolio of assistance programs involving mul­
tiple U.S. Government agencies, but a mechanism for considering overall mission as­
sistance policy issues did not exist. Reporting could be enhanced with more focus on
Mission Strategic Plan goals. The embassy also needed to improve communications
with the U.S. Mission to the European Union.



52       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
Fraud is endemic to Albanian society, and the consular section confronted it daily
in every activity. The embassy needed to ensure that there was adequate and trained
embassy staff to focus on fraud. Embassy Tirana’s management section was still
recovering from several long-term stafﬁng gaps and an overall decline in Interna­
tional Cooperative Administrative Support Services customer satisfaction levels. The
embassy’s rightsizing exercise would determine whether stafﬁng was in line with the
mission’s long-term goals.



Inspection of Embassy Skopje, Macedonia
(ISP-I-10-37A)

Embassy Skopje and its Ambassador provided an unusual high-proﬁle leadership and
authority to solving problems and dampening crises in a region of major importance
to the United States. Overall, morale was good. It stemmed from a congenial atmo­
sphere in the workplace, from good and compassionate leadership, and from respon­
sive management.

The Mission Strategic Plan’s goals were derived from North Atlantic Treaty Organi­
zation and European Union-prescribed benchmarks that Macedonia must meet in
order to join them. First among the Mission Strategic Plan goals was rule of law, but
the plan was inconsistent in the importance attached to this goal and the resources
dedicated to it. Neither was there an active embassy coordinating group to bring to­
gether elements working in this area. Otherwise, program implementation beneﬁted
from active front ofﬁce interest and good coordination.

The highly operational political/economic section was regularly diverted from nor­
mal reporting and policy support by many incipient regional crises. The public affairs
section pursued an active and effective program with laudable outreach while sup­
porting an Ambassador with a natural inclination for and considerable experience in
public diplomacy. The small consular section, which also provided services to neigh­
boring Pristina, was fully integrated into embassy operations, performed well, and
was well-led.

The April move to the new embassy compound was accomplished with minimum
disruption. Department of State-U.S. Agency for International Development man­
agement platforms were consolidated and agreement had been reached with Embas­
sy Pristina to share its health practitioner. All were major accomplishments.

The human resources ofﬁce would continue to require substantial external assistance.
The unit chief position needed to be converted to a full-time position by reprogram­
ming the second general services ofﬁcer position on the departure of the incumbent.


Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   53
                                       BEST PRACTICE

        Creating a Cost Savings Telecommunication Program

        Issue: Embassy Skopje’s information management off ce wished
        to reduce embassy recurring telecommunication costs. In addi-
        tion to reducing costs, the information management off ce (IMO)
        wanted to utilize the Department’s telecommunication technol-
        ogy to provide users with Voice over Internet Protocol (VoIP) and
        International Voice Gateway access through the convenience of a
        cellular phone.

        Response: The IMO has managed to create a complex telecom-
        munications network that implements key components such as
        VoIP, GSM gateway, and voice activation technology. The tech-
        nique known as “least cost routing” combines the Department’s
        technology and local telecommunication services.

        Result: The telecommunications network has proven to be very
        effective. As a result, Embassy Skopje currently saves approxi-
        mately $15,000 monthly on its telecommunications costs.




Inspection of Embassy Pristina, Kosovo
(ISP-I-10-38A)

Embassy Pristina’s management team pursued an ambitious five-point nation-build-
ing program in a new country where history imposed many obstacles to success.
All embassy elements were engaged and internal coordination was good. Embassy
officers enjoyed unusual access to and influence with Kosovo’s leaders. Morale was
good, but the load was heavy and the pace fast. The embassy’s human resources
needed careful management. The OIG team supported the embassy’s intention to in-
crease formal reporting and to add a public diplomacy and outreach component. The
prospect of a new embassy chancery called for careful planning for the expansion of
consular services, including visa processing. The justification for Pristina’s 20 percent
danger pay allowance should be reviewed. Management operations were well-run
and greatly improved since the last inspection. The locally employed staff are now
trained and performing well without the high degree of supervision once required.
Real property concerns remained and will remain a key resource challenge until the
new embassy compound is completed in 2015.




54       Off ce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
Inspection of Embassy Chisinau, Moldova (ISP-I-10-40A)

Embassy Chisinau was well-led and efﬁciently managed. Sections and agencies
were working well together toward clearly deﬁned MSP goals, namely, resolving the
Transnistria conﬂict, strengthening democracy, improving the economy, and com­
bating corruption and trafﬁcking in persons. The MSP rankings were proper, and at
least some level of accomplishment was being demonstrated in each area. Despite
Moldova’s poor economy and weak institutions, among other problems, Embassy
Chisinau was well placed to reinforce an encouraging trend in Moldovan politics.

Funding and advice for anti-trafﬁcking-in-persons activities have come from various
Department ofﬁces, but monitoring and evaluation have not been adequate. Lo­
cal records maintained by the action ofﬁcer, who was the regional security ofﬁcer,
appeared to agree with those kept by the ﬁnancial management ofﬁce. A complete
review of the latter two accounts was needed, as was better coordination in the De­
partment of the Moldovan program and of the funds made available for it.

Public diplomacy was playing a full part in every element of the MSP, including the
aspect of the plan dealing with secessionist Transnistria. Embassy exchange pro­
grams were large for a post of Embassy Chisinau’s size, and they were very effective.
The Information Resource Center’s physical state had become unsatisfactory, and the
center needed to be relocated.

Under strong new leadership, the embassy was moving to correct past managerial
weaknesses and correct deﬁciencies in management controls, including via a staff re­
structuring. There was consensus that these measures and other factors have greatly
improved morale. Nonetheless, the two major management problems, space and
physical security, continue to lie beyond its reach. The U.S. Agency for International
Development-embassy consolidation had been partly accomplished but completion
should be pursued expeditiously.

All embassy operations beneﬁted from a well-educated and dedicated locally em­
ployed staff, but competing opportunities, especially in other countries, caused
signiﬁcant turnover. The embassy needed to review all locally employed staff posi­
tion descriptions and request that Regional Support Center Frankfurt conduct new
computer assisted job evaluations.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   55
Compliance Follow-Up Review of Embassy Moscow,
Russia (ISP-C-10-22A)

Prior to this CFR, OIG had closed all 45 formal and 92 informal recommendations
in the report of Inspection for Embassy Moscow and Constituent Posts, dated March 2007
(ISP-I-07-15A). In its review of the formal recommendations, the CFR team con-
firmed compliance with 44 recommendations and reissued one concerning consoli-
dation of administrative issues, as a formal CFR recommendation. The team issued
two new formal recommendations relating to personnel rightsizing and property
disposal.


                                       BEST PRACTICE

       Policy Coordination/Communication

       Issue: With the advent of the new Administration, the embassy
       faced a new, challenging policy environment. Mission members
       needed an understanding of the policy framework in which the
       embassy would operate, including overall mission goals and U.S.
       interests in its relationship with Russia. In addition, mission mem-
       bers needed a sense of participation and the opportunity to put
       forward their own contributions.

       Response: As the embassy started to implement the ambi-
       tious agenda developed out of the July 2009 Obama-Medvedev
       summit, the Ambassador was scheduling individual, hour-long
       meetings with embassy sections and other agency off ces in the
       mission, to discuss mission goals, U.S. interests in Russia, and
       specif c issues that were relevant to each mission element.

       Result: The mission would have an enhanced sense of cohesion
       as it embarked on the new era in U.S.-Russia relations. Embassy
       executive leaders would hear f rst-hand the reactions and feed-
       back from the off cers working on these issues. The mission would
       be able to better focus its efforts to meet overall mission goals in
       the new policy environment.




56       Off ce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
BUREAU OF NEAR EASTERN AFFAIRS



Inspection of Embassy Cairo and American Presence
Post in Alexandria, Egypt (ISP-I-10-02A)

The Ambassador had an impressive command of all aspects of her demanding job
and was an effective proponent of U.S. policy with Egyptian ofﬁcials and civil society
leaders. She also was a convincing advocate for U.S. goals in her frequent media
appearances. She and an able deputy DCM delivered consistently strong, coherent,
and effective leadership and management at one of the largest U.S. missions in the
world. They had shown particular skill in guiding the embassy during a downturn in
relations in late 2008, and in using the election of a popular new U.S. President to
reinvigorate the bilateral relationship.

Embassy Cairo was extremely efﬁcient in handling visitors and using them to ad­
vance policy goals. Good procedures, including a clear division of labor among
policy, public affairs, and management sections, ensured that visits by major ofﬁcials,
such as the President of the United States, among others, proceeded smoothly. Plan­
ning sessions, chaired by the Ambassador or DCM, explicitly considered how best to
use individual high-level visitors to advance one or more policy goals.

Management of the economic and political section was strong. Analysis and report­
ing was excellent. It would improve, however, by increased travel, the inclusion of
more biographic data in cables, closer integration of locally employed staff, and de­
velopment of a reporting strategy in coordination with the public affairs ofﬁce, the
American presence post (APP) in Alexandria, and the desk in Washington.

The APP in Alexandria was doing well in fulﬁlling U.S. public diplomacy objectives
in Egypt’s second largest city. APP Alexandria and Embassy Cairo needed to coordi­
nate more closely as the APP sought to expand its economic and political outreach
and reporting. The embassy needed to assign higher priority to funding training and
travel requests for the Alexandria staff.

Embassy Cairo had managed more than $1.5 billion in bilateral foreign assistance
each year. The Ambassador led a successful team effort to break an impasse with the
Government of Egypt over the amount and use of the economic support funds, and
consistently provided guidance for the overall assistance strategy. However, horizon­
tal coordination among agencies involved in foreign assistance needed improvement.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   57
Inspection of Embassy Riyadh and Constituent Posts,
Saudi Arabia (ISP-I-10-19A)

Embassy Riyadh lacked clear lines of communication within, between, and among
the embassy and the consulates general, which led to policy inconsistency and waste
of resources. All mission elements needed to improve the regularity and transpar­
ency of communication overall. The newly arrived Ambassador valued leadership,
and the deputy chief of mission showed all the signs of an effective coordinator
and implementer. Security remained a major concern and could constrain outreach
efforts. Mission Saudi Arabia faced challenges that would tax its resources, including
supporting a large inﬂux of personnel to support a joint U.S.-Saudi critical infrastruc­
ture protection program; meeting its target to double visa issuances; accommodat­
ing the return of families after several years in unaccompanied status; moving to
the new housing and consulate compound in Jeddah; and locating property for and
constructing a new housing and consulate compound in Dhahran. Limiting tours
of duty to one year had undermined the effectiveness of Mission Saudi Arabia and
hampered its outreach. The recent approval of two-year, fully accompanied tours of
duty, mission-wide, would permit the United States to increase its inﬂuence in Saudi
Arabia and deepen its engagement with the population.



Program Review of Refugee Coordination in Jerusalem
(ISP-I-10-29)

The Ofﬁce of the Refugee Coordinator in Jerusalem carried out the full range of
the position’s mandated functions throughout its area of responsibility. The refugee
coordinator was fully integrated into the political section of Consulate General Jeru­
salem, and the coordinator’s input was important in key reporting from the consulate
general.

The refugee coordinator provided ample reporting to the Bureau of Population,
Refugees and Migration and other U.S. Government constituencies. PRM consulted
closely with the refugee coordinator in developing U.S. positions to represent to
UNRWA.

There were multiple formal and informal means by which staff members in the
refugee coordinator ofﬁce monitor UNRWA operations. The refugee coordinator
had access to UNRWA ofﬁcials at all levels and communicated with UNRWA on a
daily basis. As a humanitarian agency, UNRWA aims to maintain the neutrality of its




58       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
staff and installations, although what is or is not neutral in speciﬁc instances is open
to debate. The refugee coordinator was diligent about bringing objectionable actions
to UNRWA’s attention.

The two-person ofﬁce was inherently limited in its capacity to monitor 58 refugee
camps, hundreds of schools and health clinics (many of them outside the camps),
and 30,000 staff members serving 4.7 million people so the ofﬁce depended on
UNRWA for information that the ofﬁce lacked the resources to verify independently.
U.S. contributions directed to UNRWA’s special projects (e.g., schools, health clinics,
and community centers) have high visibility and demonstrate U.S. interest in improv­
ing the living conditions of Palestinian refugees.

This report included a recommendation that the refugee coordinator and PRM work
with UNRWA to improve the timeliness and quality of information that UNRWA
provides, and that the refugee coordinator track the outcome of actions that bear on
UNRWA’s neutrality.



Inspection of Embassy Kuwait City, Kuwait
(ISP-I-10-33A)

The State of Kuwait is a valuable strategic outpost in a region that remains central
to evolving U.S. policy priorities. The number of U.S. direct-hire staff at Embassy
Kuwait City had grown by more than 30 percent since the 2004 inspection, reﬂecting
a large Department of Defense presence. The embassy’s future size and composition
will depend in large measure on the number and mission of U.S. forces who remain
in the region as operations in Iraq wind down. Until then, it would be premature
to consider an expansion of its facilities. Public diplomacy and outreach to urban,
educated Kuwaitis was vigorous, but the mission needed to ﬁnd ways to connect
with broader elements of Kuwaiti society, which would require an embassy-wide
effort and recruitment of American staff with adequate Arabic language skills. The
embassy had successfully focused on strategic policy, but senior leadership needed
to pay considerably greater attention to management issues, including International
Cooperative Administrative Support Services, and the professional development and
training of embassy staff.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   59
Inspection of Embassy Damascus, Syria
(ISP-I-10-34A)

Embassy Damascus had performed admirably given severe access constraints and
other restrictions placed on it by the Government of Syria in the absence of a U.S.
ambassador. These challenges had been made worse by excessive changes in front of­
ﬁce personnel in the preceding 5 years, during which the United States did not have
an ambassador in Damascus.

The public diplomacy program was seriously hindered by Syrian Government actions
in 2006 and 2008. The embassy attempted to ﬁnd ways to achieve effective outreach
and engagement, notwithstanding the challenges. The embassy needed Department
assistance in order to take full advantage of the selective open door available for
large public cultural events sponsored by the embassy.

Physical security at the aging, poorly situated chancery was shocking. It required
identifying more efﬁcient use of existing embassy buildings, including the Hafez
building, and ensuring that ongoing security upgrades were completed without fur­
ther delay. At the same time, any improvements in the current compound or changes
in its use were to be considered temporary solutions, in anticipation of a new em­
bassy compound, which depended upon Syrian Government approval for a site.

Selling underutilized properties in Syria would enable the embassy to realize up to
$65 million in funds, which could be put to better use. Rough estimates indicated
that the Garden site property in Damascus might appraise for $50 million, and the
former consulate properties in Aleppo for $15 million. The Government of Syria’s
decision to close the Damascus Community School, with little prospect for it to re­
open in a similar form, had negatively affected morale and portended future recruit­
ment difﬁculties.



Inspection of Embassy Amman, Jordan
(ISP-I-10-35A)

Embassy Amman was a well-run and productive post. The Ambassador and DCM
had forged a cohesive country team that was working together collegially in pursuit
of MSP objectives. The Ambassador shared information appropriately with his key
staff, and both he and the deputy chief of mission were proactive in supporting the
work of others.




60       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
Foreign assistance coordination was good overall, with input from most relevant
agencies into the MSP and operational plan, and associated conditions precedent for
disbursing cash assistance for the Jordanian Government budget.

Public diplomacy was working well, but suffered from a lack of long-term strategic
planning. The relationship with U.S. Agency for International Development was
positive, and the embassy was making good use of USAID’s resources in expanding
the public affairs section’s ability to reach Jordanian audiences.

The consular section was generally well-organized and productive, and the new sec-
tion chief was making some changes to improve efficiency and morale. Consular
relations with, and support to, other mission elements were excellent. The section
was providing needed continuity and support for the Baghdad consular section.
American citizen services work had taken a back seat to visa work for several years,
and Embassy Amman was renewing emphasis on that unit.

                                         BEST PRACTICES

          Guide for the Cultural Affairs Specialist on Exchange Programs

          Issue: New staff members need to master complex exchange
          programs in as short a time as is possible. Locally employed staff
          in particular may not have a chance to take formal training before
          assuming a position with responsibility for the exchange program.
          Rules, regulations, and procedures that apply are available in
          many places including the Foreign Affairs Manual and cables, but
          a general Bureau of Educational and Cultural Affairs handbook
          does not exist.

          Response: Embassy Amman prepared a Guide for the Cultural
          Affairs Specialist on Exchange Programs (Standard Operating
          Procedures for the International Visitor Leadership Program and
          other Programs), which is a step-by-step handbook that walks an
          employee through all the stages of administration, evaluation, and
          follow-up of exchange visitor programs. It is specif c to the records
          management system of Embassy Amman and includes hyperlinks
          to key document templates that are used in the process.

          Result: This handbook ensures consistency and accuracy of
          program administration, and it reduces the learning curve for new
          employees.




Off ce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   61
     Online Visa Status Information

     Issue: The majority of visa applicants in Amman are subject to a
     variety of advisory opinion requirements, which delays processing
     by weeks or months. Anxious applicants and other interested par-
     ties bombard the embassy with inquiries about the status of their
     applications.

     Response: In early 2008, Embassy Amman adopted an online
     system that allows applicants to check the status of their pend-
     ing applications, a method that was piloted by Embassy Cairo. At
     the time of their tentative approval, nonimmigrant and immigrant
     visa applicants are provided an information sheet with the visa
     off ce URL and instructions for how to enter one’s passport num-
     ber online to check the status of the application. Each day after
     the off cer transmits an advisory opinion request a staff member
     enters the passport number on the site as pending. No private
     or personally identif able information is posted. When the case
     clears, the staff member updates the site, which also automatically
     adds information on how the applicant should proceed in order to
     secure his or her visa. The total process takes less than a minute
     of staff time per case.

     Result: The volume of phone, email, and other inquiries has
     dropped sharply, and applicants have ready access to information
     on their pending case.



     On a regular basis, the Ambassador meets informally, at his resi-
     dence, with small groups of locally employed staff to discuss any
     topics of interest to them.

     Issue: With more than 400 LE staff members at Embassy Amman,
     most employees rarely have a chance to meet or talk with the Am-
     bassador. On the other hand, the Ambassador can f nd it diff cult
     to know what is going on at all levels of the mission.

     Response: The Ambassador meets regularly with small groups
     of all levels of LE employees over coffee and tea at his residence.
     These meetings allow the Ambassador to meet and talk with staff
     members who otherwise would rarely have the chance to discuss
     with him their interests or concerns. The Ambassador and a note-
     taker are the only Americans present. Topics of discussion might
     range from morale to customs issues to Jordanian politics.

     Result: The morale among LE staff at the mission has improved,
     and the Ambassador has a much better feel for the concerns of his
     LE staff and other members of Jordanian society.



62    Off ce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
 BUREAU OF SOUTH & CENTRAL ASIAN AFFAIRS



 Inspection of Embassy Kabul, Afghanistan (ISP-I-10-32A)

 The Ambassador and his leadership team in their ﬁrst 6
 months in Kabul had made impressive progress imple­
 menting the Administration’s plans for a massive civil­
 ian plus-up to support the large increases in assistance
 programs. This progress took place at the same time that
 the embassy experienced virtually 100 percent turnover
 of American staff, supported international facilitation of
 the Afghan presidential elections, and participated in the
 Administration’s Afghanistan policy review.
                                                                              Embassy Kabul, Afghanistan

 Even with the able leadership of Kabul’s senior ofﬁcers, the best of intentions, and
 the most dedicated efforts, Embassy Kabul faced serious challenges in meeting the
 Administration’s deadline for “success” in Afghanistan. The unprecedented pace
 and scope of the civilian buildup, the need for these new ofﬁcers to arrive in Kabul
 before support infrastructure expansions had been completed, and the complexity of
 establishing arrangements to equip the new subject matter experts for success in the
 ﬁeld was expected to constrain the ability of these new ofﬁcers in the short-term to
 promote stability, good governance, and rule of law in Afghanistan.

 The number of U.S. executive branch staff assigned to the U.S. Mission to Afghani­
 stan would have grown from 320 to approximately 900 by early 2010. The embassy,
 at the direction of the Administration, used a process outside of the Mission Strate­
 gic Plan to justify these new positions, and to plan for the increased life support and
 security costs involved in hosting so many new ofﬁcers. These costs had not been
 captured in the Department’s International Cooperative Administrative Support Ser­
 vices (ICASS) planning procedures.

 Embassy Kabul had a detailed, multiphase plan to expand its administrative support
 infrastructure to accommodate these new employees. The management section was
 remarkably adaptable and responsive in an atmosphere of massive personnel surges,
 constant reinvention, and multiple construction and infrastructure projects.

 The performance of Embassy Kabul’s management section, however, was adversely
 affected by lapses in oversight that resulted in signiﬁcant management control weak­
 nesses, particularly in the travel program, voucher review, and contracting. Not all
 designations of duties had been properly assigned.



Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   63
The embassy’s sizable ofﬁcial visitor support workload taxed the same military and
civilian assets that would otherwise be deployed in the vital counterinsurgency and
reconstruction efforts that the visitors sought to evaluate.

The cost of supporting temporary duty ofﬁcers who were assisting U.S. mission op­
erations in Afghanistan was being drawn from funds provided for Embassy Kabul,
rather than being charged back to the originating agency via ICASS.

Embassy oversight of contracts and grants was seriously inhibited by the dangerous
security conditions that precluded onsite visits outside of Kabul as well as by the
shortage of qualiﬁed contract ofﬁcer representatives in Kabul. The ability of em­
bassy sections, such as the public affairs section and the political section, to support
proposed new and or expanded grant programs would be limited until additional
qualiﬁed grants ofﬁcers were in place and local staff had been trained in grants man­
agement.

One-year assignments coupled with multiple rest and recuperation breaks limited the
development of expertise, contributed to a lack of continuity, and required a higher
number of ofﬁcers to achieve the Administration’s strategic goals.

Stafﬁng in the public affairs section was inadequate to handle the huge increase in
public diplomacy funding approved for Afghanistan. A planning team from Washing­
ton had traveled to Kabul to develop an operational plan to specify the stafﬁng and
resources that would be needed for the new programs.



Inspection of Humanitarian Mine Action Programs in
Afghanistan (ISP-I-10-11)

The Department’s Humanitarian Mine Action/Weapons Reduction program in Af­
ghanistan was effectively designed and managed by the Bureau of Political-Military
Affairs’ Ofﬁce of Weapons Removal and Abatement (PM/WRA). The program ben­
eﬁtted from capable and dedicated personnel. The Department and Embassy Kabul
needed to improve coordination on mine action among all appropriate agencies and
programs of the U.S. Government.

The Department’s contractor for mine action and conventional weapons and ord­
nance destruction, DynCorp International, had fulﬁlled the terms of its contract.
All six of the humanitarian mine action nongovernmental organizations (NGO) that
received Department funding merited further support.




64       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
PM/WRA had sound plans for the next mine action contract period, which would
begin in spring 2010. This plan would reduce technical assistance and continue
managerial capacity building for the Afghan Government and mine action NGOs.
PM/WRA needed to provide close oversight of the transition to a new mine action
contract in order to assure smooth program continuity and proper accountability of
U.S. Government property. PM/WRA had also done a good job in Mine Risk Educa­
tion and Victim Assistance, and these programs should continue.

The international community goal of a “mine-free” Afghanistan by 2013 is unreal­
istic and is not in keeping with the U.S. approach to mine clearance, which seeks a
“mine impact-free” end state. Mines and unexploded ordinance will be a feature of
Afghanistan for decades. PM/WRA needs to determine what will constitute the mine
impact-free situation for Afghanistan and be prepared to end its large scale assistance
when that point is reached. Additional attention should be paid via public diplomacy
to telling the story of U.S. mine action/weapons reduction successes.

Embassy Kabul must ensure that mine action personnel from the Department and
the embassy have the necessary transportation and security resources to effectively
monitor mine action contractor performance in the ﬁeld. Community-based demin­
ing offers a promising model for reaching difﬁcult mine-impacted areas.



BUREAU OF WESTERN HEMISPHERE AFFAIRS


Compliance Follow-up Review of Embassy Brasilia and
Constituent Posts, Brazil
(ISP-C-10-21A)

The inspection report issued in March 2008, Embassy Brasilia, Brazil (ISP-I-08-15A),
made 64 formal and 79 informal recommendations. Eight recommendations re­
mained open, pending further post or Department action. OIG conducted a CFR of
the post, which closed all of these recommendations. Formal management recom­
mendations pertaining to the appointment of contracting ofﬁcer representatives and
government technical monitors were reissued as informal recommendations.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   65
66   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
INVESTIGATIONS

INVESTIGATIONS


Embezzlement

OIG conducted an investigation based upon information received from a Regional
Security Ofﬁcer at an overseas post alleging a locally employed staff member
skimmed money from Department grants intended for nongovernmental organi­
zations. The subject allegedly instructed Peace Corps Volunteers to redirect funds
in the amount of $6,000 and $12,000 from a grant into his personal bank account
for use as “contingency funds.” When another employee noticed this activity and
reported the matter to the RSO, the subject directed the funds be transferred back
into the project’s account. Subsequently, a local police ofﬁcer approached the other
employee’s spouse with an offer of a $5,000 bribe from the subject to remain silent
about the matter. When interviewed, the subject confessed to embezzling the money
and repaid the entire amount of $54,307. After his confession, the subject was sus­
pended for 30 days and his employment was terminated at the end of his suspension.
(10-010)

OIG conducted an investigation of a supervisor and a subordinate employee of
the International Boundary and Water Commission (IBWC) who embezzled more
than $100,000 from the Falcon Dam facility. The subjects used a government credit
card to purchase a large number of items for personal use and used Dam employee
time for work on the supervisor’s personal property. The supervisor immediately
submitted his retirement paperwork when he learned of the investigation, and the
subordinate agreed to cooperate with OIG in the investigation. OIG agents con­
ducted a search warrant on a ranch property owned by the supervisor and obtained
photographic evidence of material purchased by the supervisor and installed on the
property, and other improvements made to the property using IBWC equipment and
employees. On December 1, 2009, both subjects were indicted in U.S. District Court.
They were arrested the next day, and the subordinate was subsequently recommend­
ed for termination from his employment by IBWC. On December 4, 2009, both
subjects were arraigned and entered a plea of “not guilty.” Prosecution currently is
pending for both individuals. (09-104 & 09-114)




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   67
False Claims

OIG conducted an investigation of a subcontractor to a Bureau of Education and
Cultural Affairs grantee that received $835,670 to conduct a project entitled “Youth
Exchange and Study Program” for the 2008-2009 academic school year. An em­
ployee of the subcontractor was assigned to serve as the local coordinator for the
students enrolled in the program and was responsible for ﬁnding host homes for the
students in Scranton, PA. The employee accepted money from the grant and failed to
provide the students with basic provisions as outlined in the grant. On February 12,
2010, the subcontractor employee pleaded guilty to one felony count of mail fraud
and is scheduled to be sentenced on May 12, 2010. Possible civil action is currently
pending against the subcontract company for knowingly violating the terms of the
grant. (09-107)



Employee Misconduct

OIG conducted an investigation based upon allegations referred from a senior
Department ofﬁcial that an administrative support specialist accepted free hotel
accommodations from a hotel that hosted Department conferences that she was
responsible for arranging. It was further alleged the employee used her position as
backup timekeeper to alter her own time and attendance to reﬂect hours she did not
work. The investigation substantiated both allegations. When interviewed, the subject
claimed she did not know she had to report non-monetary gifts to the Department,
and the altering of her time and attendance records had been inadvertent. The De­
partment of Justice declined prosecution of the case. The case was referred to the
Bureau of Human Resources (HR), which issued a proposal for removal on October
5, 2009. (09-093)

OIG conducted an investigation involving a Diplomatic Security agent who was rou­
tinely misusing his ofﬁcial government vehicle to conduct personal business. When
interviewed, the subject admitted to the misuse. The case was declined for criminal
prosecution. On October 7, 2009, the agent was issued a 35-day suspension for his
misuse of the vehicle. (09-072)

OIG conducted an investigation of a Department employee serving overseas who
submitted false receipts for reimbursement as part of an ofﬁcial travel claim. When
interviewed, the employee admitted altering receipts and submitting and creating
false documentation for the purpose of ﬁnancial gain, which included three false
receipts totaling $10,800. The travel claim was denied, and the employee was not
paid. On March 10, 2010, HR proposed the employee be given a 10-day suspension
without pay. (09-067)




68       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
OIG conducted an investigation of a Department employee who was using Depart­
ment resources to print items for personal use. When interviewed, the employee
admitted to creating and producing ﬂyers, business cards, and tickets during govern­
ment work hours without authorization or for ofﬁcial purpose. The subject admitted
to creating and printing business cards utilizing government resources for certain
individuals for personal monetary gain and to creating and printing business cards,
ﬂyers and “event” tickets for personal use for his motorcycle club and some of its
members. The exact cost to the government of the employee’s misconduct could not
be determined. On February 22, 2010, HR proposed the employee be given a 14-day
suspension without pay. (09-106)

OIG conducted an investigation based upon a referral from the Bureau of Im­
migrations and Customs Enforcement alleging visa malfeasance involving several
employees at a U.S. Embassy overseas. The investigation determined that as a result
of misconduct by employees in the consular section at the embassy, visas were issued
to local nationals who should have had their claims denied. On March 23, 2010, the
embassy proposed termination for two locally employed employees for “coaching”
visa applicants to ensure their visas would be approved. Further investigation in this
case is still pending. (09-028)



Defense Trade Controls Violation

OIG conducted an investigation of an Arlington, Virginia, based company that ille­
gally brokered the sale of arms to Yemen, Chile, Libya, and Vietnam without regis­
tering and obtaining a license to sell items listed on the United States Munitions List.
The Arms Export Control Act and the International Trafﬁc in Arms Regulations
require anyone seeking to engage in the business of brokering United States Muni­
tions List items to register and obtain a license. In the plea, the company admitted
to the court that it had willfully failed to register or obtain a license as required. On
January 7, 2010, the company pleaded guilty in U.S. District Court for these activities,
and the company was immediately sentenced to pay a $15,000 ﬁne and a $400 special
assessment. On January 11, 2010, OIG forwarded court documents for initiation of
debarment proceeding with the intention of placing the company on the Denial of
Service list. (08-099)




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   69
FOLLOW-UP ACTIONS 


Passport Information Electronic Records System
(PIERS) Inquiry

On March 20, 2008, the Under Secretary of State for Management requested that
OIG conduct an investigation after news media reports indicated the passport ﬁles
of three presidential candidates had been improperly accessed by three different
Department contract employees on three different occasions through PIERS. OIG
subsequently received additional information that improper accessing of PIERS
records was widespread and involved many Department employees and contractors.
The following are actions that have resulted from OIG investigations involving this
issue during this semiannual reporting period, which include seven separate criminal
prosecutions:
• 	 OIG conducted an investigation of a Department employee who was improp­
    erly accessing PIERS to view the records of a former President and other
    prominent individuals. The investigation determined the contract employee
    electronically accessed passport applications through PIERS without authoriza­
    tion. On August 17, 2009, the employee pleaded guilty in U.S. District Court
    for the District of Columbia to one count of unauthorized computer access.
    On December 9, 2009, the employee was sentenced to 12 months probation,
    $25 in court costs, and 100 hours of community service. (08-044)
• 	 OIG conducted an investigation of a former Department employee who
    improperly accessed PIERS by looking up the passport ﬁles of prominent
    celebrities. The investigation determined the former employee electronically
    accessed 150 different passport applications through PIERS without authoriza­
    tion while she was employed by the Department. On August 26, 2009, the em­
    ployee pleaded guilty in U.S. District Court for the District of Columbia to one
    count of unauthorized computer access. On December 15, 2009, the former
    employee was sentenced to 25 hours of community service and 24 months’
    probation. (08-080)
• 	 OIG conducted an investigation of a contract employee who improperly ac­
    cessed PIERS by looking up the passport ﬁles of a former President and other
    prominent celebrities. The investigation determined that the former employee
    electronically accessed approximately 112 different passport applications
    through PIERS without authorization while he was employed by the Depart­
    ment. On July 10, 2009, the employee pleaded guilty in U.S. District Court for
    the District of Columbia to one count of unauthorized computer access. On
    October 23, 2009, the contract employee was sentenced to 1 year of super­
    vised probation and 50 hours of community service. (08-085)


70       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
• 	 OIG conducted an investigation of a supervisory Department employee who
    improperly accessed PIERS by looking up the passport ﬁles of prominent
    celebrities. The investigation determined the former employee electronically
    accessed 710 different passport applications through PIERS without authori­
    zation while she was employed by the Department. On August 19, 2009, the
    employee pleaded guilty in U.S. District Court for the District of New Hamp­
    shire. On November 2, 2009, the employee was proposed for termination from
    employment. He was sentenced on November 20, 2009, to 2 years’ probation
    and assessed a $3,000 ﬁne. (08-105)
• 	 OIG conducted an investigation of a Department employee who was improp­
    erly accessing PIERS to view the records of prominent individuals. The inves­
    tigation determined the contract employee electronically accessed 99 different
    passport applications through PIERS without authorization. On October 27,
    2009, the employee pleaded guilty in U.S. District Court for the District of Co­
    lumbia to one count of unauthorized computer access. Sentencing is currently
    pending. (09-010)
• 	 OIG conducted an investigation of a Department employee who was improp­
    erly accessing PIERS to view the records of prominent athletes and entertain­
    ers. The investigation determined the contract employee electronically accessed
    62 different passport applications through PIERS without authorization. On
    December 11, 2009, the employee pleaded guilty in U.S. District Court for
    the District of Columbia to one count of unauthorized computer access. On
    March 24, 2010, the subject was sentenced to 12 months’ probation and 50
    hours of community service. (09-013)
• 	 OIG conducted an investigation of a Department employee who was improp­
    erly accessing PIERS to view the records of prominent athletes and entertain­
    ers. The investigation determined the contract employee electronically accessed
    81 different passport applications through PIERS without authorization. On
    November 9, 2009, the employee pleaded guilty in U.S. District Court for the
    District of Columbia to one count of unauthorized computer access. On Janu­
    ary 21, 2010, the employee was sentenced to 1 year of supervised probation
    and 75 hours of community service. (09-094)

OIG’s pursuit of PIERS-related investigations is ongoing. Because of the systemic
weaknesses identiﬁed by OIG during the PIERS investigation and audit, the Depart­
ment has enacted greater safeguards to protect the privacy of electronically stored
passport-related information. (See OIG’s semiannual report, April 1, 2009 to September 30,
2009, pp 65-66).




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   71
                                   Types of Cases*





*May not equal to 100% due to rounding


HOTLINE
 Referral To Other Ofﬁces for Action                   305


 Held for Action Within OIG                              89


 No Action Necessary                                   254

 Total Complaints Received                             648





72        Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
APPENDIX 1: DEPARTMENT OF STATE
INVESTIGATIVE ACTIVITIES

 Preliminary Inquiries
 Opened                                                         29
 Closed                                                         29

 Investigations
  Opened                                                        56
  Closed                                                        45
  Pending (3/31/10)                                            114

 Criminal Actions
 Referrals for Prosecution                                      16
 Indictments/Informations                                        5
 Convictions                                                     5
 Sentencings (Months Imprisonment)                               0
 Sentencings (Months Probation)                                 84
 Declinations                                                    6

 Civil Actions
 Civil Referrals                                                 0
 Civil Judgments                                                 0

 Administrative Referrals
 Referrals for Personnel Action                                  8
 Suitability Referrals to DS                                     7

 Administrative Actions
 Removals                                                        8
 Suspensions                                                     4
 Reprimand/Admonishments                                         6
 Debarment Actions                                               0

 Monetary Recoveries
 Criminal Fines/Recoveries                            $18,425.00
 Civil Recoveries                                             $0
  Administrative Recoveries                          $54,307.60
 Total Investigative Recoveries                       $72,732.60


Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   73
74   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
APPENDIX 2: REPORTS ISSUED
                    ISSUED



 Report Number                                               Report Title
 AUD/10-12                  System Review Report on the Department of the Treasury Ofﬁce of Inspector Gen-
                            eral Audit Organization

 AUD/CG-10-13               Analytical Review of the Multinational Force and Observers FY 2008 Financial
                            Statements and FY 2008 Budget

 AUD/CG-10-14               Quality Control Review of Calibre CPA Group, PLLC

 AUD/CG-10-15               Independent Accountants’ Report on the Application of Agreed-Upon Procedures on
                            Indirect Cost Rates Proposed by AFS-USA, Inc.

 AUD/FM-10-01               Independent Accountant’s Report on the Application of Agreed-Upon Procedures:
                            Retirement, Health Beneﬁts, and Life Insurance Withholdings/Contributions and
                            Supplemental Semiannual Headcount Report


 AUD/FM-10-02               Independent Auditor’s Report on the Department of State Special-Purpose Financial
                            Statements

 AUD/FM-10-03               Independent Auditor’s Report on the Department of State 2009 and 2008 Finan-
                            cial Statements

 AUD/FM-10-17               Independent Review of the U.S. Department of State’s Accounting and Authentica-
                            tion of FY 2009 Drug Control Funds and Related Performance Report


 AUD/FM-10-18               Management Letter Related to the Audit of the U.S. Department of State 2009
                            and 2008 Financial Statements

 AUD/IQO-09-25              Audit of the Design and Construction of the New Embassy Compound in Baghdad,
                            Iraq




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010    75
AUD/IT-10-10	          Review of the Information Security Program at the Department of State


AUD/IT-10-11	          Evaluation of the Information Technology Consolidation Project at the Department
                       of State
AUD/PP-10-06	          White Paper – Best Practice - Design and Construction of Diplomatic Facilities in
                       Arid Climates With Security Concerns

AUD/PP-10-07	          Review of Policies and Procedures for Implementing the American Recovery and
                       Reinvestment Act of 2009 at the Department of State

AUD/SI-10-08	          Audit of Overseas Laptop Computer Inventory Controls and Security Management


ISP-C-10-21A	          Compliance Follow-up Review of Embassy Brasilia and Constituent Posts, Brazil


ISP-C-10-22A	          Compliance Follow-up Review of Embassy Moscow, Russia

ISP-C-10-23	           Compliance Follow-up Review of the Bureau of Administration’s Ofﬁce of the Pro-
                       curement Executive, Ofﬁce of Acquisitions Management, and Ofﬁce of Small and
                       Disadvantaged Business Utilization


ISP-C-10-30A	          Compliance Follow-up Review of Embassy Antananarivo, Madagascar

ISP-C-10-31A	          Compliance Follow-up Review of Embassy Dar es Salaam, Tanzania

ISP-C-10-46	           Compliance Follow-up Review of Embassy Podgorica, Montenegro

ISP-I-10-01	           Inspection of the Exercise of Chief of Mission Authority in Managing the Presi-
                       dent’s Emergency Plan for AIDS Relief Overseas

ISP-I-10-02A	          Inspection of Embassy Cairo and American Presence Post in Alexandria, Egypt


ISP-I-10-03	           Inspection of Ofﬁce of Foreign Missions (OFM) Custodial Property Program


ISP-I-10-04A	          Inspection of Embassy Brussels, Belgium

ISP-I-10-05	           Bureau of Administration’s Ofﬁce of Real Property Management and Facilities
                       Management Services




76      Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
 ISP-I-10-06A              Inspection of Embassy Wellington, New Zealand, and Embassy Apia, Samoa


 ISP-I-10-07A              Inspection of Embassy Canberra, and Consulates General Sydney, Melbourne, and
                           Perth, Australia

 ISP-I-10-08               Inspection of the Bureau of Western Hemisphere Affairs

 ISP-I-10-09A              Inspection of Embassy Belgrade, Serbia

 ISP-I-10-10A              Inspection of Embassy Podgorica, Montenegro
 ISP-I-10-11               Inspection of Humanitarian Mine Action Programs in Afghanistan

 ISP-I-10-12	              Inspection of U.S. Mission to the North Atlantic Treaty Organization (US-
                           NATO), Brussels, Belgium

 ISP-I-10-13	              Inspection of U.S. Mission to the European Union (USEU), Brussels, Belgium


 ISP-I-10-14	              Inspection of the U.S. Permanent Mission to the Organization of American States
                           (USOAS)

 ISP-I-10-15	              Inspection of Tri-Mission Coordination, Brussels
 ISP-I-10-16	              Management Review of Youth Programs, Bureau of Educational and Cultural Af-
                           fairs, U.S. Department of State

 ISP-I-10-19A	             Inspection of Embassy Riyadh and Constituent Posts, Saudi Arabia

 ISP-I-10-26	              Review of the Department of State Plan to Provide Qualiﬁed Contracting Ofﬁcers
                           and Contracting Ofﬁcer Representatives for Oversight of American Recovery and
                           Reinvestment Act Projects

 ISP-I-10-29	              Program Review of Refugee Coordination in Jerusalem

 ISP-I-10-32A              Inspection of Embassy Kabul, Afghanistan

 ISP-I-10-33A              Inspection of Embassy Kuwait City, Kuwait

 ISP-I-10-34A              Inspection of Embassy Damascus, Syria
 ISP-I-10-35A              Inspection of Embassy Amman, Jordan
 ISP-I-10-36A              Inspection of Embassy Tirana, Albania

 ISP-I-10-37A              Inspection of Embassy Skopje, Macedonia
 ISP-I-10-38A              Inspection of Embassy Pristina, Kosovo




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   77
 ISP-I-10-39	            Inspection of the Bureau of Public Affairs

 ISP-I-10-40A	           Inspection of Embassy Chisinau, Moldova

 ISP-I-10-42	            Inspection of the Bureau of Administration, Ofﬁce of General Services Management


 ISP-I-10-47	            Review of the Integrity and Fairness of the Foreign Service Selection Board Process


 MERO-A-10-01	           Effectiveness and Efﬁciency of the Bureau of International Narcotics and Law
                         Enforcement Affairs Counternarcotics Programs in Pakistan

 MERO-A-10-02	           Review of the Bureau of International Narcotics and Law Enforcement Affairs
                         Counternarcotics Programs in Afghanistan

 MERO-A-10-03	           Performance Audit of the Bureau of International Narcotics and Law Enforcement
                         Affairs Air Wing Program in Afghanistan and Pakistan

 MERO-A-10-05	           Performance Audit of the Bureau of Diplomatic Security Baghdad Embassy Secu-
                         rity Force
 MERO-A-10-06	           Department of Defense Obligations and Expenditures of Funds Provided to the
                         Department of State for the Training and Mentoring of the Afghan National Police


 MERO-I-09-11	           Limited-Scope Review of Management and Internal Controls over Construction of
                         a Heated Parking Garage and Recreational Center at US. Embassy in Astana,
                         Kazakhstan

 MERO-I-10-04	           Limited-Scope Review of the Bureau of Population, Refugees and Migration’s Over-
                         sight of the United Nations Relief Works Agency for Palestine Refugees in the Near
                         East in Gaza




78       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
CLASSIFIED REPORTS ISSUED

The following reports are summarized in the classiﬁed annex.

Report Number                                            Report Title
ISP-I-10-17               Department of State Contact Reporting Requirements
ISP-S-10-02A              Classiﬁed Annex to the Inspection of Embassy Cairo, Egypt
ISP-S-10-04A              Classiﬁed Annex to the Inspections of Embassy Brussels, Belgium, U.S. Mis-
                          sion to the European Union, and U.S. Mission to the North Atlantic Treaty
                          Organization
ISP-S-10-06A              Classiﬁed Annex to the Inspection of Embassy Wellington, New Zealand,
                          and Embassy Apia, Samoa
ISP-S-10-07A              Classiﬁed Annex to the Inspection of Embassy Canberra, Australia

ISP-S-10-09A              Classiﬁed Annex to the Inspection of Embassy Belgrade, Serbia

ISP-S-10-10A              Classiﬁed Annex to the Inspection of Embassy Podgorica, Montenegro


ISP-S-10-19A              Classiﬁed Annex to the Inspection of Embassy Riyadh, Saudi Arabia

ISP-S-10-21A              Classiﬁed Annex to the Compliance Follow-up Review of Embassy Brasilia
                          and Constituent Posts, Brazil
ISP-S-10-22A              Classiﬁed Annex to the Compliance Follow-Up Review of Embassy Moscow,
                          Russia
ISP-S-10-30A              Classiﬁed Annex to the Compliance Follow-up Review of Embassy Anta-
                          nanarivo, Madagascar
ISP-S-10-31A              Classiﬁed Annex to the Compliance Follow-Up Review of Embassy Dar es
                          Salaam, Tanzania
ISP-S-10-32A              Classiﬁed Annex to the Inspection of Embassy Kabul, Afghanistan
ISP-S-10-33A              Classiﬁed Annex to the Inspection of Embassy Kuwait City, Kuwait

ISP-S-10-34A              Classiﬁed Annex to the Inspection of Embassy Damascus, Syria
ISP-S-10-35A              Classiﬁed Annex to the Inspection of Embassy Amman, Jordan
ISP-S-10-36A              Classiﬁed Annex to the Inspection of Embassy Tirana, Albania

ISP-S-10-37A              Classiﬁed Annex to the Inspection of Embassy Skopje, Macedonia
ISP-S-10-38A              Classiﬁed Annex to the Inspection of Embassy Pristina, Kosovo
ISP-S-10-40A              Classiﬁed Annex to the Inspection of Embassy Chisinau, Moldova




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   79
80   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
APPENDIX 3: SAVINGS AND MORE 

EFFECTIVE USE OF RESOURCES

                 RESOURCES

                                         Table 1

                          Inspector General Issued Audit Reports 

                                  With Questioned Costs


        Type of Report                                    Number of          Questioned          Unsupported
                                                           Reports             Costs                    Costs
                                                                             (Dollars in           (Dollars in
                                                                             Thousands)           Thousands)
  A.	   For which no management decision has 

        been made by the commencement of the 

                                                                 8                  $31,374            $27,629
        reporting period *
  B.	   Which were issued during the reporting 

        period


                                                                 1                 $132,000            $38,000
        Audit of Design and Construction of the 

        New Embassy Compound in Baghdad, Iraq

        (AUD/IQO-09-25)


        Subtotals (A + B)	                                       9                 $163,374            $65,629


  C.	   For which a management decision was made 

        during the reporting period


        (i) dollar value of disallowed costs                     1                        $	 1               $0
        (ii) dollar value of costs not disallowed                1	                    $889                $889
  D.	   For which no management decision has 

        been made by the end of the reporting 
                  9                 $162,484            $64,740
        period
        Reports for which no management decision
        was made within 6 months of issuance                     8                  $30,484            $26,740


* Final amounts in the previous SAR were adjusted due to reporting and other errors, based on an
extensive analysis of open recommendations.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010      81
                                        Table 2

                         Inspector General Issued Audit Reports

                          With Recommendations That Funds 

                                  Be Put To Better Use


       Type of Report                                  Number             Dollar Value
                                                         of             (in Thousands)
                                                       Reports
 A.	   For which no management decision has
       been made by the commencement of the
                                                            1	                        $8,100
       reporting period

 B.	   Which were issued during the reporting
       period
                                              0                              $0
       Subtotals (A + B)

                                                            1	                        $8,100
 C.	   For which a management decision was
       made during the reporting period
       (i) dollar value of recommendations that
       were agreed to by management                         0                              $0
       -based on proposed management action

       -based on proposed legislative action


       (ii) dollar value of recommendations that
       were not agreed to by management                     0                              $0

 D	    For which no management decision has
       been made by the end of the reporting
       period                                               1                         $8,100

       Reports for which no management                      1	                        $8,100
       decision was made within six months of

       issuance





82        Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
APPENDIX 4: RESOLUTION OF
REPORTS AND RECOMMENDATIONS


SIGNIFICANT AUDIT RECOMMENDATIONS PENDING FINAL ACTION
 Report                   Rec.      Report Title                                                      First
 Number                   No.       Recommendation Summary                                            Reported
 AUD/CG-06-02                       Application of Agreed-Upon Procedures to George Mason                2/06
                                    University Awards
                             4	     OIG recommended the Bureau of Educational and
                                    Cultural Affairs grants ofﬁcer:

                                    • 	 Ensure George Mason University follows
                                        through with proposed guidelines related to
                                        cost share;

                                    • 	 Require the University to provide supporting
                                        documentation for claimed cost share amounts
                                        totaling $354,248 for Grants ASMA-0324 and
                                        S-ECAAS-02-GR-251; and

                                    • 	 Reduce the grants accordingly, and require the
                                        University to reimburse applicable unmet cost
                                        share amounts.

 AUD/IQO-07-20	                     Review of DynCorp International, LLC, Contract Number               1/07

                                    S-LMAQM-04-C-0030, Task Order 0338, for the Iraqi 

                                    Police Training Program Support (Joint audit with the Special 

                                    Inspector General for Iraq Reconstruction)

                             2	     OIG recommended the Ofﬁce of Acquisitions
                                    Management seek reimbursement from Dyn-
                                    Corp for the improperly authorized payment of
                                    $4.2 million that represents contractually unau­
                                    thorized work directed by the Iraqi Ministry of
                                    Interior. This work included the relocation of
                                    the residential camp, the manufacture of ad­
                                    ditional VIP trailers, and the construction of an
                                    Olympic-size swimming pool.



Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010       83
 Report              Rec.      Report Title                                                   First
 Number              No.       Recommendation Summary                                         Reported
 AUD/IQO-07-48                 Accounting for Government-Owned Personal Property Held             9/07
                               by Selected Contractors in Afghanistan
                        1	     OIG recommended the Department develop and
                               implement policies and procedures to achieve com­
                               pliance with Federal Acquisition Regulation require­
                               ments for reviewing a contractor’s property control
                               system.
                        2	     OIG recommended the Department take actions to
                               address the $2.9 million in unallowable costs identi­
                               ﬁed in this report, including:

                               Reconciling contract requirements to the property ac­
                               quired and invoiced by the contractors for which they
                               were reimbursed and determine whether property in
                               excess of amounts speciﬁed in the contract or task
                               order was required to accomplish contract objectives.

                               Documenting the reconciliation and determination,
                               use them as the basis for approving the costs of any
                               excess property deemed allowable, and issue a modi­
                               ﬁcation to the task order indicating the approval.

                               Resolving any unallowable costs associated with
                               property that was determined to be unnecessary to
                               the accomplishment of contract objectives.
                        3	     OIG recommended the Department take the follow­
                               ing steps to address the $25.5 million in unsupported
                               costs indentiﬁed in this report:

                               • 	 Reconcile the property acquired and invoiced
                                   by the contractors for which they were reim­
                                   bursed to the contractor’s property lists by
                                   obtaining and reviewing contractor documen­
                                   tation detailing the types and quantities of
                                   property acquired.

                               • 	 Determine whether the property was needed
                                   and consistent with contract requirements.

                               • 	 Resolve any unsupported allowable costs
                                   associated with property that could not be sup­
                                   ported with adequate documentation or was
                                   determined to be unnecessary to the accom­
                                   plishment of contract objectives.

84     Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
 Report                   Rec.     Report Title                                                    First
 Number                   No.      Recommendation Summary                                          Reported
                             5     OIG recommended the Department evaluate its cur­
                                   rent structure for monitoring government property
                                   held by contractors, assess the beneﬁts of creating a
                                   property administrator function, and use this evalu­
                                   ation to clearly deﬁne the authority and responsibil­
                                   ity for property oversight for each member of its
                                   contract administration team.

 AUD/SI-07-27                      Audit of Emergency Preparedness at the Washington Metro-          3/07
                                   politan Facilities of the Department of State
                             2     OIG recommended the Bureau of Administration
                                   ensure the Ofﬁce of Emergency Management’s
                                   Planning and Preparedness Division has sufﬁcient
                                   stafﬁng to ﬁnalize 6 FAM 400, Ofﬁce of Emergency
                                   Management Program, and the proposed 6 FAH-1
                                   H-100, Domestic Emergency Handbook, and ensure
                                   the emergency preparedness policies and procedures
                                   contained in these manuals are implemented and
                                   enforced in a timely manner.


 AUD/CG-07-29                      Independent Accountants’ Report on the Application of             6/07
                                   Agreed-Upon Procedures on Costs Claimed by Atlantic Cor-
                                   ridor U.S.A., Inc., Under Department of State Grants
                             1     OIG recommended the Bureau of Educational and
                                   Cultural Affairs require Atlantic Corridor to refund
                                   the Department the $226,705 in excess drawdowns
                                   related to Department grants and prohibit any future
                                   drawdowns until the funds are repaid and the grantee
                                   has established controls limiting any future requests
                                   of grant funds to the minimum amount necessary to
                                   cover allowable costs.

                             2     OIG recommended the Bureau of Educational and
                                   Cultural Affairs require Atlantic Corridor to refund
                                   the Department for $45,361 of unallowable costs re­
                                   lated to the grants and to provide information so the
                                   Department can make an appropriate determination
                                   on the unsupported costs of $97,388.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010    85
 Report               Rec.      Report Title                                                   First
 Number               No.       Recommendation Summary                                         Reported
 AUD/CG-07-37	                  Independent Accountants’ Report on the Application of              9/07
                                Agreed-Upon Procedures on Costs Claimed by Meridian
                                International Center Under Department of State Cooperative
                                Agreements
                         1	     OIG recommended the Bureau of Educational
                                and Cultural Affairs:
                                • 	 Determine whether the Center’s use of the
                                    forgone opportunity costs concerning the
                                    Center’s conference facilities constitutes an
                                    appropriate cost-share amount under the
                                    cooperative agreement.
                                • 	 Following this determination, as appropri­
                                    ate, require the Center to provide sup­
                                    porting documentation for the claimed
                                    cost-share amounts or an alternative cost-
                                    sharing proposal.


 AUD/CG-08-02                   Independent Accountants’ Report on the Application of               1/08
                                Agreed-Upon Procedures on Costs Claimed by Young Men’s
                                Christian Association of Greater New York Under Depart-
                                ment of State Grants
                         4      OIG recommended the Bureau of Educational and
                                Cultural Affairs require the Association to substanti­
                                ate the unsupported payroll costs or reimburse the
                                Department for these costs.

 AUD/IP-08-19	                  Safeguarding Domestic Passport Applications During Transit          3/08

                         1	     OIG recommended the Bureau of Consular Affairs
                                direct the Ofﬁce of Passport Services to modify
                                the Passport Agent’s Reference Guide to deﬁne the
                                minimum standards for a secure area, such as placing
                                the applications in a locked container until all the
                                applications are transported, and issue a notice to all
                                acceptance agents regarding this change.




86      Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
 Report                   Rec.     Report Title                                                    First
 Number                   No.      Recommendation Summary                                          Reported
                             2	    OIG recommended the Bureau of Consular Affairs
                                   direct the Ofﬁce of Passport Services to include pro­
                                   visions in its acceptance agent oversight program for
                                   monitoring the effectiveness of acceptance agents in
                                   securing passport applications.

                             3	    OIG recommended the Bureau of Consular Affairs
                                   direct the Ofﬁce of Passport Services to require
                                   non-USPS acceptance agents to send passport ap­
                                   plications in a traceable manner, such as with delivery
                                   conﬁrmation, and to retain the receipts for a year.

                             4	    OIG recommended the Bureau of Consular Affairs
                                   direct the Ofﬁce of Passport Services to work with
                                   ofﬁcials from the Department of the Treasury to re­
                                   view the process used to transport passport applica­
                                   tions from the lockbox facilities to passport agencies
                                   and to develop a workload distribution analysis that
                                   reduces the use of routes with numerous transfers.

                             5	    OIG recommended the Bureau of Consular Affairs
                                   direct the Ofﬁce of Passport Services to require that
                                   anyone without a need to access applications (such as
                                   contracted cleaning, repair, and maintenance per­
                                   sonnel) be escorted by Ofﬁce of Passport Services
                                   personnel and kept in direct visual sight.

                             6	    OIG recommended the Bureau of Consular Affairs
                                   direct the Ofﬁce of Passport Services to secure pass­
                                   port applications in locked cabinets, containers, or
                                   rooms when not actively being processed and amend
                                   the internal controls program accordingly.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010    87
 Report              Rec.      Report Title                                                   First
 Number              No.       Recommendation Summary                                         Reported
                        7	     OIG recommended the Bureau of Consular Affairs
                               direct the Ofﬁce of Passport Services to issue an
                               advisory notice within 14 days of the issuance of this
                               audit report to all acceptance agents informing them
                               of the Inspector General’s authority to review pass­
                               port records as speciﬁed in the Inspector General
                               Act.
                        8	     OIG recommended the Bureau of Consular Affairs
                               direct the Ofﬁce of Passport Services to modify the
                               Passport Agent’s Reference Guide to require agents
                               to make their passport records available for monitor­
                               ing, audit, or investigation.

                        9	    OIG recommended the Bureau of Consular Affairs
                              direct the Ofﬁce of Passport Services to modify the
                              provisions in the designation letter to make passport
                              records available for monitoring, audit, or investiga­
                              tion and reissue the designation letter for all accep­
                              tance agents.

 AUD/CG-08-32	                Independent Accountants’ Report on the Application of               8/08
                              Agreed-Upon Procedures on Indirect Cost Rates Proposed by
                              Nacel Open Door, Inc.
                        3	    OIG recommended the Department’s Bureau of
                              Educational and Cultural Affairs (ECA) require Na­
                              cel Open Door, Inc., to:

                              • 	 Establish appropriate policies and procedures
                                  to ensure that costs under the grants are
                                  adequately documented and accounted for in
                                  accordance with applicable Ofﬁce of Manage­
                                  ment and Budget circulars.

                              • 	 Provide information so that ECA can make an
                                  appropriate determination on the unsupported
                                  costs of $94,524.




88     Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
 Report                   Rec.     Report Title                                                    First
 Number                   No.      Recommendation Summary                                          Reported
 AUD/IP-09-22	                     Audit of the Contract and Procurement Process for Selected         9/09
                                   Projects at U.S. Embassy Jakarta
                            2	     OIG recommends Embassy Jakarta, in coordination
                                   with the Bureau of Overseas Buildings Operations,
                                   correct the funding for the six projects for which the
                                   embassy used Diplomatic and Consular Program and
                                   International Cooperative Administrative Support
                                   Services funds.

                            4	     OIG recommends Embassy Jakarta provide to the
                                   Bureau of Overseas Buildings Operations (OBO)
                                   documentation, including information on justiﬁca­
                                   tion and costs, for the alterations totaling about
                                   $754,000 that were associated with the Federal Bu­
                                   reau of Investigation (FBI) ofﬁce addition. Embassy
                                   Jakarta should notify OIG when this task has been
                                   completed. OIG further recommends OBO review
                                   the documentation provided by Embassy Jakarta and
                                   determine whether the alterations were supported
                                   and necessary. If the alterations were not supported
                                   and necessary, Embassy Jakarta should refund all
                                   costs associated with the unnecessary alterations
                                   identiﬁed to the FBI.



SIGNIFICANT INSPECTION RECOMMENDATIONS PENDING FINAL
ACTION
 Report            Rec.      Report Title                                                      First
 Number            No.       Recommendation Summary                                            Reported
 ISP-I-10-16                 Management Review of Youth Programs, Bureau of Educa-                 10/09
                             tional and Cultural Affairs
                      1      OIG recommended the Bureau of Educational and
                             Cultural Affairs, in coordination with the Bureau of
                             Administration and the Foreign Service Institute,
                             revise, as appropriate, the current Federal assistance
                             administration curriculum to include compliance with
                             internal and external regulatory procedures for the
                             conduct of oversight of youth exchange programs.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010     89
 Report         Rec.       Report Title                                                      First
 Number         No.        Recommendation Summary                                            Reported
                    2      OIG recommended the Bureau of Educational and
                           Cultural Affairs reconﬁgure and augment the Youth
                           Division with personnel and budget to allow program
                           ofﬁcers and teams to focus on single programs and to
                           do periodic unannounced site visits.
                    4      OIG recommended the Bureau of Educational and
                           Cultural Affairs establish a standard requirement based
                           on objective criteria to conduct national criminal
                           history checks of host families to ensure uniformity
                           and adequacy of information provided by third-party
                           background check companies.
 ISP-I-09-70               Global Positioning System Solution                                   08/09

                    1      OIG recommended DS should install global position­
                           ing system equipment in mobile patrol vehicles at high
                           and critical threat posts.

 ISP-I-09-34               Inspection of the Bureau of Consular Affairs, Passport Services      07/09
                    1      OIG recommended the Bureau of Consular Affairs
                           allocate funding to allow passport services to schedule
                           headquarters-ﬁeld managerial conferences at least once
                           every 2 years.
                   17      OIG recommended the Bureau of Consular Affairs de­
                           ﬁne core adjudication regions for each passport agency
                           and center, and to the extent possible, direct a ﬁxed,
                           but adjustable quota of lockbox cases weekly to that
                           region’s agency or center for adjudication.
                   18      OIG recommended the Bureau of Consular Affairs
                           close any acceptance facility, where the acceptance
                           agent also issues birth certiﬁcates, as soon as a viable
                           alternative location for submitting passports is identi­
                           ﬁed.
                   20      OIG recommended the Bureau of Consular Affairs
                           redraw the districts for acceptance facility oversight,
                           include all processing centers and new agencies in the
                           program, make the districts proportionate, and assign
                           sufﬁcient staff to fulﬁll customer service duties.




90       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
 Report             Rec.      Report Title                                                         First
 Number             No.       Recommendation Summary                                               Reported
                      22
     OIG recommended the Bureau of Consular Affairs
                              certify all acceptance agents by assigning each agent
                              individual identiﬁcation numbers and require all accep­
                              tance facilities to recertify annually the names of the
                              individuals trained and authorized to accept passport
                              applications.

                      24      OIG recommended the Bureau of Consular Affairs
                              create and maintain an integrated master database with
                              the Travel Document Information System on all autho­
                              rized acceptance facilities and agents.

                      26      OIG recommended the Bureau of Consular Affairs
                              establish an adjudication coordination unit within
                              Passport Services headquarters to provide one-stop
                              guidance on adjudication issues, updated procedural
                              guidance, and maintain communication to and from
                              the ﬁeld and among adjudication managers.
                      27      OIG recommended the Bureau of Consular Affairs
                              standardize the guidance for conducting adjudication
                              audits, conduct a comprehensive error rate study, and
                              create an action plan to reduce the overall error rate.

                      29      OIG recommended the Bureau of Consular Affairs
                              convene a task force with representation by agency and
                              center supervisors, the union, and outside experts to
                              design a comprehensive production model that ad­
                              dresses overall quality, error, rates, quotas, and local
                              factors that affect productivity.
                      35      OIG recommended the Bureau of Consular Affairs
                              require all passport agencies and centers conduct fraud
                              prevention training at least monthly, and report how
                              and when they conduct training to the Ofﬁce of Fraud
                              Prevention Programs.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010       91
 Report        Rec.       Report Title                                                      First
 Number        No.        Recommendation Summary                                            Reported
                  45      OIG recommended the Bureau of Consular Affairs
                          develop a passport fraud tracking system and order its
                          deployment before the end of FY 2009.
                  46      OIG recommended the Bureau of Consular Affairs
                          revise the Travel Document Information System to
                          show the Social Security Administrative database check
                          and establish procedures to ensure that issuance of a
                          passport to a ﬁrst-time applicant is not authorized until
                          the results are received.

 ISP-I-09-30              Inspection of Embassy Baghdad, Iraq                                  03/10

                   1      OIG recommended the Under Secretary for Manage­
                          ment, in coordination with Embassy Baghdad and the
                          Bureau of Near Eastern Affairs, should devise and
                          implement a rightsizing of the embassy establishing a
                          new baseline of positions that meets the requirements
                          of the President’s policy on Iraq.

                   2      OIG recommended Embassy Baghdad, in coordination
                          with the Director of United States Foreign Assistance
                          and the Bureau of Near Eastern Affairs, should un­
                          dertake a comprehensive assessment of the assistance
                          programs the embassy is implementing to determine
                          which should be continued, phased out or expanded.

                  11      OIG recommended Embassy Baghdad, in coordination
                          with the Foreign Service Institute and the Bureau of
                          Political-Military Affairs, should develop a package of
                          information for its employees on working with military
                          units in Iraq; distribute it to incoming personnel; and
                          share it with the Foreign Service Institute to be includ­
                          ed with training for Iraq-bound personnel or as part
                          of a broader module for personnel bound for conﬂict
                          zones.
                  21      OIG recommended Embassy Baghdad, in coordination
                          with the Ofﬁce of the Legal Adviser, should send the
                          archived originals of Coalition Provisional Authority
                          orders to the Department for safekeeping and request
                          a ruling on whether they should be turned over to the
                          Government of Iraq.



92      Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
 Report            Rec.      Report Title                                                      First
 Number            No.       Recommendation Summary                                            Reported
                      28     OIG recommended Embassy Baghdad, in coordina­
                             tion with the Bureau of Human Resources and Near
                             Eastern Affairs, should reassess the need for spoken
                             and written Arabic language skills for Foreign Service
                             generalists and specialists in the public affairs section
                             and, if needed, increase or decrease the number of
                             language-designated positions.
  ISP-I-09-16                Inspection of the Executive Ofﬁce, Bureau of Diplomatic               03/10
                             Security
                      9      OIG recommended the Bureau of Diplomatic Security,
                             in coordination with the Bureau of Administration,
                             should abolish the Logistics Services Division, Space
                             Management Branch, and transfer the function and the
                             full-time equivalent positions to the Bureau of Admin­
                             istration, Ofﬁce of Real Property Management.

                      13     OIG recommended the Bureau of Diplomatic Security,
                             in coordination with the Bureau of Administration,
                             should review and amend all contract documentation
                             to include a full and complete description of services
                             and tasks to be performed for the Ofﬁce of the Chief
                             Technology Ofﬁcer, and should institute benchmarks
                             for evaluating contractor performance.

                      22     OIG recommended the Bureau of Diplomatic Security
                             should review and reduce the size of its Top Secret
                             document inventory in its Countermeasures Program
                             Division.

                      23     OIG recommended the Bureau of Diplomatic Security
                             should transfer the Freedom of Information Act/Pri­
                             vacy Act Division of the Ofﬁce of the Chief Technol­
                             ogy Ofﬁcer to the Ofﬁce of the Executive Director.

                      24     OIG recommended the Bureau of Diplomatic Security,
                             in coordination with the Bureau of Administration
                             should eliminate Diplomatic Security-developed pro­
                             gram asset systems and convert their asset data to the
                             Integrated Logistics Management System.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010     93
 Report         Rec.       Report Title                                                      First
 Number         No.        Recommendation Summary                                            Reported
 ISP-I-09-12               Currency Exchange Rates Differing from Local Legally Avail-          11/08
                           able Rates
                1          OIG recommended the Ofﬁce of the Legal Adviser,
                           in coordination with the Bureaus of Human Resources
                           and Resource Management, add a provision in the
                           Foreign Affairs Manual that would require Chiefs of
                           Mission to seek approval from the Department for
                           authorizing foreign currency transaction at other than
                           local legally approved rates.

 ISP-I-07-21               Inspection of the Bureau of Administration, Ofﬁce of Logistics       05/07
                           Operations and Ofﬁce of Program Management and Policy
                10         OIG recommended the Bureau of Resource Manage­
                           ment, in coordination with the Bureau of Adminis­
                           tration, establish procedures in the Foreign Affairs
                           Manual to require all bureau and ofﬁce heads, and
                           chiefs of mission assure in their management controls
                           certiﬁcations that an inventory was conducted and
                           reconciled with property records and that the results
                           were submitted.

                22         OIG recommended the Bureau of Resource Manage­
                           ment, in coordination with the Bureau of Administra­
                           tion, establish and implement a system to pay the U.S.
                           Postal Service, and bill and collect reimbursement from
                           other agencies for postal service provided to posts be­
                           ing converted to Department-managed postal opera­
                           tions.
 ISP-I-07-16               Inspection of the Bureau of Human Resources (Phase I)                05/07
                33         OIG recommended the Bureau of Human Resources,
                           in coordination with the Bureau of Resource Manage­
                           ment, should establish a global savings mechanism
                           to supplement the locally employed staff ’s retirement
                           plan.




94       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
 Report            Rec.      Report Title                                                      First
 Number            No.       Recommendation Summary                                            Reported
 ISP-I-09-43                 Management Review of the Ofﬁce of the Historian, Bureau of            03/10
                             Public Affairs
                   10        OIG recommended the Bureau of Public Affairs
                             amend the Secretary of State’s delegation of author­
                             ity to the Assistant Secretary for Public Affairs for the
                             appointment or reappointment of Historical Advisory
                             Committee members, to include the requirement that
                             there be consultation with the appropriate Department
                             bureaus.
                   11        OIG recommended the Bureau of Public Affairs reaf­
                             ﬁrm in writing to the Historical Advisory Committee
                             the primacy of the Foreign Relations of the United
                             States series in the Ofﬁce of the Historian’s priorities.
                   12        OIG recommended the Bureau of Public Affairs form
                             a joint committee with members of the Historical
                             Advisory Committee and employees of the Ofﬁce of
                             the Historian and develop a strategy for the Foreign
                             Relations of the United States series that addresses the
                             issues of timeliness and thoroughness in the future
                             development of the series.
                   13        OIG recommended the Bureau of Public Affairs
                             establish and implement written guidance to the deputy
                             assistant secretary and the director of the Ofﬁce of the
                             Historian that establishes lines of authority; frequent,
                             periodic reviews; attendance of each at staff meetings
                             held by the other; and other approaches to encourage
                             a clear chain of command with direct communication
                             between the two ofﬁces.
                   18        OIG recommended the Bureau of Public Affairs pro­
                             vide an employee to perform administrative services in
                             the Ofﬁce of the Historian, possibly by requesting an
                             increase in the number of direct-hire positions in the
                             Ofﬁce of the Historian by one appropriately graded
                             administrative ofﬁcer, or by securing the services of an
                             employee on a while-actually-employed basis.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010     95
 Report          Rec.       Report Title                                                      First
 Number          No.        Recommendation Summary                                            Reported
                 19	        OIG recommended the Bureau of Human Resources,
                            in coordination with the Bureau of Public Affairs, in­
                            crease the number of direct-hire employees working as
                            historians in the Ofﬁce of the Historian by an amount
                            that will help the ofﬁce to meet its obligations with
                            respect to the publication of the Foreign Relations of
                            the United States.
                 22	        OIG recommended the Bureau of Public Affairs
                            should design and implement an orientation program
                            in the Ofﬁce of the Historian for new employees and
                            contractors covering such topics as Civil Service hiring
                            procedures, rules, and regulations; and Department
                            functions and activities.



Revised Management Decisions

None to report.



Management Success in Resolving and Implementing
Recommendations

Compliance Follow-Up Review of the Inspection of the U.S. Section of the International Bound-
ary and Water Commission (ISP-C-07-04)

OIG recommended the Department seek legislation to incorporate the U.S. Section
of the International Boundary and Water Commission (USIBWC) into an entity of
the Department of State. OIG agreed to an alternative solution in which the De­
partment and USIBWC entered into a memorandum of understanding (MOU) that
states the USIBWC Commissioner operates under the foreign policy supervision
of the Secretary of State, exercised on a day-to-day basis by the Bureau of Western
Hemisphere Affairs and other relevant ofﬁcials, as appropriate. The MOU also states
OIG exercises its jurisdiction to conduct audits, inspections, and investigations of
USIBWC. Additionally, the Department forwarded to the White House a proposed
letter of instruction from the President to the next USIBWC Commissioner, rein­
forcing the MOU.




96        Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
Audit of Accountability, Inventory Controls, and Encryption of Laptop Computers
at Selected Department of State Bureaus in the Washington, DC, Metropolitan Area
(AUD/SI-09-15)

The Department has made great efforts in meeting the intent of most of the 23
recommendations contained in the July 2009 report Audit of Accountability, Inventory
Controls, and Encryption of Laptop Computers at Selected Department of State Bureaus in the
Washington, DC, Metropolitan Area (AUD/SI-09-15).

Speciﬁcally, within approximately 6 months of report issuance, the Department
implemented 17 recommendations, and has made changes designed to better man­
age and control its inventory of laptop computers. Several key recommendations
addressed developing and implementing new procedures to properly track laptop
computers, which each of the assigned bureaus complied with. In particular, man­
agement for one bureau developed an application for tracking and managing laptop
computers and other portable electronic devices. The bureaus have also incorporated
new procedures into their inventory management practices and addressed matters
relating to encryption. Lastly, the Department has periodically issued worldwide
guidance regarding encryption and inventory responsibilities for laptop computers.




Summary of Audit Reports Without Management
Decision for More Than Six Months

Report Number: AUD/CG-06-02

Subject: Application of Agreed-Upon Procedures to George Mason University Awards

Date Issued: February 24, 2006

Reason for not being resolved: OIG sent the Bureau of Educational and Cultural
Affairs a memorandum in August 2009 emphasizing the delinquency and importance
of resolving and implementing the recommendations. In September 2009, ECA sent
an email to OIG stating ECA had received a response from the grantee. In Novem­
ber 2009, ECA requested assistance from OIG to analyze many pages of documen­
tation received from George Mason University. OIG agreed to ECA’s request, and
based on the information reviewed, OIG notiﬁed ECA in March 2010 that it had
closed one recommendation but that additional information was needed to close
another recommendation. However, the information OIG reviewed for the ﬁve rec­
ommendations did not adequately support three recommendations, with questioned




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   97
costs totaling $453,780. OIG told ECA that when the grants ofﬁcer requested fur­
ther information from George Mason University, the grants ofﬁcer should consider
the length of time that had elapsed since the audit report was issued (February 2006).

Projected date of resolution: September 2010



Report Number: AUD/SI-09-15

Subject: Audit of Property Accountability, Inventory Controls, and Encryption of Laptop
Computers at Selected Department of State Bureaus in the Washington, DC, Metropolitan Area

Date Issued: July 6, 2009

Reason for not being resolved: The Bureau of Administration (A), Ofﬁce of
Logistics Management, responded to OIG’s recommendations in an August 4, 2009,
memorandum. OIG determined the response did not address the substance of the
recommendation pertaining to the development and implementation of a process to
validate and verify that the Integrated Logistics Management System was updated.
OIG sent a memorandum to A in August 2009 emphasizing the importance of
resolving the recommendation. The Bureau of Diplomatic Security (DS) responded
to OIG on February 1, 2010, requesting OIG await updated information for two rec­
ommendations pertaining to inventory controls. However, OIG did not receive the
updated information as of the end of this SAR period. Therefore, two recommenda­
tions remain unresolved.*

Projected date of resolution: September 2010

*Note: (The April 7, 2010, response from DS to OIG’s April 1 request for additional information
on the two unresolved recommendations was sufﬁcient for OIG to consider both recommendations
resolved. However, the recommendations are shown as unresolved because the April 7 response was
outside the time period covered by this SAR.)




Report Number: AUD/CG-08-32

Subject: Independent Accountants’ Report on the Application of Agreed-Upon Procedures on
Indirect Cost Rates Proposed by Nacel Open Door, Inc.

Date Issued: August 18, 2008

Reason for not being resolved: The Bureau of Educational and Cultural Affairs
(ECA) provided records and communications pertaining to the recommendations
in November 2009. OIG determined the records and communications did not ad­

98       Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
dress the substance of the recommendation pertaining to withholding funding for
future grants and payments under existing grants until Nacel Open Door, Inc., is in
full compliance with applicable OMB circulars. OIG sent ECA a memorandum on
February 25, 2010, requesting additional information to resolve the recommendation.
As of March 31, 2010, ECA had not responded.

Projected date of resolution: September 2010



Summary of Inspection Reports Without Management
Decision for More Than Six Months

Report Number: ISP-I-09-18

Subject: Inspection of Embassy Koror, Republic of Palau (Classiﬁed Communications
Capability)

Date Issued: March 2009

Reason for not being resolved: Action ofﬁce for implementation was transferred
from the Bureau of Information Resource Management to the Bureau of East Asian
and Paciﬁc Affairs (EAP) on July 19, 2009. OIG is awaiting a response from EAP to
resolve the recommendation.

Projected date of resolution: April 2010



Report Number: ISP-I-09-30A

Subject: Inspection of Embassy Baghdad, Iraq (Reprogramming the Refugee Coordina­
tor Position)

Date Issued: July 7, 2009

Reason for not being resolved: Action ofﬁces disagreed with two of the recom­
mendations. OIG and assigned action ofﬁces are in the process of seeking consensus
and resolution.

Projected date of resolution: June 2010




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   99
Report Number: ISP-I-09-21A

Subject: Inspection of Embassy Mexico City, Mexico, and Constituent Posts (Upgrades at 

Consulate Nogales)


Date Issued: April 17, 2009 


Reason for not being resolved: Action for implementation was transferred from 

Embassy Mexico to the Bureau of Overseas Buildings Operations (OBO) on March 

8, 2010. OIG is awaiting response from OBO to resolve the recommendation.


Projected date of resolution: July 2010


Report Number: ISP-I-09-16


Subject: Report of Inspection of the Executive Ofﬁce, Bureau of Diplomatic Security (Reorga­
nization and Planning, and Management Oversight of the Use of Ofﬁcial Vehicles)


Date issued: April 5, 2009


Reason for not being resolved: DS disagreed with four of the recommendations. 

OIG and DS are currently in the process of seeking resolution. 


Projected date of resolution: June 2010




Report Number: ISP-I-08-27

Subject: Limited-Scope Inspection of Embassy Bratislava, Slovakia (Implementing Plans
for Gain-Sharing Program and MOA for Regional Facilities Management Ofﬁce)

Date issued: July 1, 2008

Reason for not being resolved: OIG is working with the action ofﬁce to resolve
the recommendation.


Projected date of resolution: Unknown





100      Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
APPENDIX 5: AUDITS PERFORMED BY
CONTRACTORS

 AUD/CG-10-15             Independent Accountants’ Report on the Application of Agreed-Upon
                          Procedures on Indirect Cost Rates Proposed by AFS-USA, Inc..
                          L.F. Harris & Associates, CPA, P.A.
                          Attestation Engagement
 AUD/FM-10-01             Independent Accountant’s Report on the Application of Agreed-Upon
                          Procedures: Retirement, Health Beneﬁts, and Life Insurance Withhold-
                          ings/Contributions and Supplemental Semiannual Headcount Report
                          Kearney & Company, P.C.
                          Attestation Engagement

 AUD/FM-10-02             Independent Auditor’s Report on the Depart-
                          ment of State Special-Purpose Financial Statements
                          Kearney & Company, P.C.
                          Financial Audit
 AUD/FM-10-03             Independent Auditor’s Report on the Depart-
                          ment of State 2009 and 2008 Financial Statements
                          Kearney & Company, P.C.
                          Financial Audit
 AUD/IT-10-10             Review of the Information Security Program at the Department of State
                          Regis & Associates, PC
                          Information Technology Audit

 AUD/FM-10-18             Management Letter Related to the Audit of the U.S. De-
                          partment of State 2009 and 2008 Financial Statements
                          Kearney & Company, P.C.
                          Financial Audit




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   101
102   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
APPENDIX 6: MANAGEMENT AND
PERFORMANCE CHALLENGES

The Reports Consolidation Act of 2000 requires that the Department’s Performance and
Accountability Report include a statement by the Inspector General that summarizes
the most serious management and performance challenges facing the Department
and brieﬂy assesses the progress in addressing them. OIG considers the most serious
management and performance challenges for the Department to be in the following
areas:
    1. Protection of People and Facilities
    2. Information Security
    3. Financial Management
    4. Contracting and Procurement
    5. Counterterrorism and Border Security
    6. Public Diplomacy
    7. Coordinating Foreign Assistance




1. Protection of People and Facilities

Protecting people, facilities, and information continues to be one of the Depart­
ment’s highest priorities and greatest challenges. The single most signiﬁcant factor
in this effort is having a safe and secure work environment. The Department has
undertaken a vigorous program to replace overseas facilities that do not meet secu­
rity standards with new, secure facilities, but a decade or more will be needed to fully
complete this program. In the interim, the Department must identify and implement
temporary measures that can mitigate the threats to people, facilities, and informa­
tion.

The second most signiﬁcant factor in protecting people, facilities, and information
is the security personnel who manage and implement the Department’s security
programs. Stafﬁng shortages, increasing security requirements, and the demands of
high-threat posts have put an ever-increasing workload on Department security per-



Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   103
sonnel. As a result, some security requirements are not being fully met. The Depart­
ment needs to ﬁnd ways to help security professionals become more efﬁcient and
effective in their work, and to be able to more closely scrutinize the demands being
placed on them.

A critical factor in the protection of people, facilities, and information is the cost
and the limited funds available for this purpose. Related to cost is the number of
people to be protected—the more people protected, the higher the cost. For these
reasons, close attention needs to be paid to National Security Decision Directive 38
requests for personnel increases, and Annex A of the chief of mission/combatant
commander memorandum of agreement, which identiﬁes those Department of
Defense personnel for which the chief of mission has security responsibility. For
non-Department personnel under chief of mission security responsibility, Interna­
tional Cooperative Administrative Support Services agreements are needed to cover
the cost of the required security support. The Department needs to ensure that all
personnel are adequately protected, and that the cost of providing this protection is
being equitably distributed.

Other factors that need to be considered are ever-changing security threats and the
implementation of measures to counter those threats. For example, lessons learned
from past attacks on ofﬁcial facilities should be used as a basis for new security
requirements that will provide better protection against future attacks. Similarly, as
technology changes, security requirements should be revised to counter increased
technical threats or identiﬁed vulnerabilities. These are being done, but at an ex­
tremely slow pace. In some cases, it has taken years to change the Department’s
security requirements in response to an identiﬁed vulnerability or an increased threat.
It is crucial to ﬁnd ways to streamline the process of updating security requirements
to better keep pace with the ever-changing threat environment.



2. Information Security

The protection of personally identiﬁable information (PII) is a signiﬁcant informa­
tion security challenge for the Department. Safeguarding PII and preventing its
breach are essential to ensuring the U.S. Government retains the trust of the Ameri­
can public. Enormous amounts of PII are used in many Department programs and
operations and are stored and accessed via multiple mediums, which require multiple
levels of control and protection. The Department has made strides in protecting PII
and other sensitive data, but recently identiﬁed weaknesses demonstrate the need for
continued focus and improvement.




104      Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
The Department’s Passport Information Electronic Records System (PIERS) con­
tains PII on more than 210 million passports for approximately 139 million passport
holders. In March 2008, media reports surfaced that the PII maintained in PIERS
for three U.S. Senators, who were also presidential candidates, had been improperly
accessed by Department employees and contract staff. OIG performed a review to
identify the internal control weaknesses that allowed the improper access to occur,
and made recommendations to address the internal control weaknesses, including the
development of policies and procedures to accurately identify the users of passport
information, detect unauthorized access to passport and applicant information, and
respond effectively when unauthorized access has been determined. As noted above,
the Department has made signiﬁcant strides in addressing these weaknesses.

Federal agencies are required to encrypt and safeguard PII contained on laptop
computers. OIG found that as a result of various internal control weaknesses, the
Department did not have an accurate inventory of all of its domestic and overseas
classiﬁed and unclassiﬁed laptop computers. Speciﬁcally, bureaus and posts failed to
enter newly acquired laptop computers into the ofﬁcial inventory system or to delete
laptops from the inventory after disposal. In addition, bureaus and posts failed to
report and investigate missing laptops or adequately document when a laptop was
loaned to an individual for use outside of the assigned facility.

OIG also found that not all of the Department’s laptop computers had been en­
crypted. This created a security vulnerability whereby PII or potentially sensitive
information about Department operations contained on those computers could be
compromised should those computers be lost or stolen.

The Department’s Computer Incident Response Team (CIRT) now automatically
alerts OIG of every information security-related breach, including those concerning
PII and laptops. Continued monitoring and protection of passports records and PII
of Department employees, as well as other mission-critical information, are crucial if
the Department is to maintain the public trust and effectively perform its responsi­
bilities.

The Department continues working to satisfy the requirements of the Federal
Information Security Management Act of 2002. During ﬁscal year 2009, the Depart­
ment modiﬁed its systems inventory management approach and its certiﬁcation and
accreditation (C&A) toolkits, and it updated its contingency plan policy. However,
the Department continues to face challenges in implementing a fully effective infor­
mation security management program. The Plans of Action and Milestones process
must be strengthened by working with systems owners to ensure timely reporting
of security weaknesses during the C&A process; testing contingency plans; develop­
ing detailed standard operating procedures for addressing each IT security weakness



Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   105
and/or ﬁnding; and actively monitoring, validating, and implementing remedia­
tion steps to correct all security weaknesses within a reasonable timeframe. Security
awareness also must be strengthened. Speciﬁcally, the processes to identify the num­
ber of users with access to the network and the number of users who have taken the
cyber security awareness training have not been fully deﬁned.

A recent OIG evaluation concluded that the Department’s effort to consolidate IT
desktop services found inadequate project planning and management, among other
shortcomings. The number one priority for the IT Consolidation was customer
service; however, the consolidation program to date has failed to deliver the level of
customer service promised. In addition, the Department established a 2-year sched­
ule to complete the consolidation of IT desktop services for 34 domestic bureaus
and ofﬁces rather than abide by the contractor-recommended 5-year timeframe. As a
result, project requirements were not fully deﬁned, cost savings cannot be document­
ed, and security measures are inadequate.



3. Financial Management

Financial management continues to be a major challenge in the Department. In each
of the past 3 years, the Department could not respond in a timely manner to re­
quests for evidential material during the audit of the ﬁnancial statements. As a result,
the independent external auditor was unable to express an opinion on the ﬁnancial
statements by the mandated deadline. For the audit of the FY 2008 ﬁnancial state­
ments, the Department later provided additional information that supported the
amounts in its ﬁnancial statements, and the external auditor then issued an unquali­
ﬁed opinion.

The Department continues to take steps to improve internal controls over ﬁnancial
management. In 2008, its efforts allowed two material internal control weaknesses,
related to personal property and undelivered orders (UDO), to be downgraded to
signiﬁcant internal control deﬁciencies. The external auditor also identiﬁed two other
signiﬁcant deﬁciencies related to the adequacy of the ﬁnancial and accounting system
and to calculating the extent of the liability related to supplemental pension plans for
locally employed staff that had been identiﬁed in prior audits. The Department be­
lieves that its plans to establish a virtual single global ﬁnancial management system,
which will include both domestic and overseas ﬁnancial data, will address some of
the internal control issues identiﬁed by the external auditor. The Department also is
working to establish an accurate inventory of deﬁned beneﬁt supplemental pension
plans for locally employed staff.




106      Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
4. Contracting and Procurement

The Department spends about $4 billion annually on formal contracts and simpli­
ﬁed acquisitions,3 primarily on procurement activities that support overseas programs
and operations. Between FY 2001 and FY 2006, the Department’s primary acquisi­
tion organization, the Bureau of Administration’s Ofﬁce of Acquisitions Manage­
ment (AQM), experienced a 41 percent increase in the number of procurement
transactions processed and a 155 percent increase in the dollar value of procurement
actions issued. This workload increase was not accompanied by a corresponding
increase in AQM contracting ofﬁce personnel.

OIG found several examples where contract administration and oversight were inad­
equate, including the more than $55 million in overpayments in contracts valued at
$1 billion for personal protective services in Iraq. Other procurement issues the De­
partment must focus on include adequate planning and transparency in the procure­
ment process. Failure to plan adequately for the construction of the New Embassy
Compound in Baghdad, Iraq, and failure to properly administer the contract resulted
in more than $100 million in construction defects the Department was required to
repair or replace and the failure to collect liquidated damages and interest payments
on contractor advances. With its multiyear plan to upgrade overseas facilities, the
Department must ensure that contractors are properly chosen, work is properly con­
ducted, and costs are contained.



5. Counterterrorism and Border Security

Cross-border problems, which have a direct impact on U.S. business interests, en­
vironmental safety, quality of life, and border security, continue to challenge the
Department. The Department must adequately prepare for both new statutory re­
quirements and new policy initiatives in order to effectively assist U.S. citizens, imple­
ment new policies, and provide effective oversight of funds. Examples of increased
stafﬁng, resource, and oversight demands include the implementation of the Western
Hemisphere Travel Initiative, which requires travel documents for all land, sea, and
air travelers in the region. Border crossing card replacement also is expected to add
signiﬁcantly to demand for visa adjudications in Mexico. The Merida Initiative, a
historic development in the U.S.-Mexico bilateral relationship to ﬁght transnational
crime and corruption, will require signiﬁcant resources, particularly at Embassy
Mexico City. The Department must anticipate and adequately prepare for implemen­
tation of such changes.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   107
6. Public Diplomacy

The Department needs to better integrate public diplomacy into policy formation. In
the Bureau of African Affairs, for example, the public diplomacy and public affairs
ofﬁce is not an active contributor to the bureau’s policy goals. On the other hand, the
Bureau of Western Hemisphere Affairs’ successful program of embedding public
diplomacy ofﬁcers with the regional desk ofﬁcers of the regions they serve is a useful
model for ensuring better coordination that results in more effective daily press guid­
ance as well as increased public diplomacy input to regional planning. This initiative
needs to be developed further and implemented by other regional bureaus.

According to the Secretary of State, the Department needs to employ new social
networking tools—including Facebook, Twitter, YouTube, and blogging—to engage
in dialogue with broader audiences. Challenges hampering the Department’s efforts
to support social networking include a lack of human, ﬁscal, and technical resources,
IT security and policy concerns, and a lack of appropriate IT equipment and sup­
port. As the security climate deteriorates overseas, and as new embassy compounds
are established with impressive security enhancements, it becomes more difﬁcult
for public affairs ofﬁces to directly engage local residents. New ways of conducting
public diplomacy must be found, including the possible use of virtual presence posts,
digital videoconferences, and a further reliance on Web sites.

The Department has made important progress in ensuring that public diplomacy
is seen as a part of a total diplomatic effort rather than as something that is added
as an afterthought to a particular policy, but further integration within the Depart­
ment and interagency still remains an issue. The Department needs to ensure more
mission-level integration of public diplomacy objectives in all mission goals.



7. Coordinating Foreign Assistance

Observers inside and outside the government recognize that the Department of
State and America’s diplomats face major challenges in coordinating and managing
foreign assistance. Foreign assistance has grown in dollar value and scope, and now
includes not only development assistance, but also economic, security, humanitarian,
and law enforcement assistance.




108      Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
As the number and variety of foreign assistance programs has grown, so has the
number of agencies—and the number of bureaus in the Department—conducting
the programs. The U.S. Government must deliver foreign assistance through grants,
contracts, or cooperative agreements, but OIG found that some grants ofﬁcers did
not have the appropriate training to perform those responsibilities, and coordination
and ﬁnancial management of these funds must be improved.

In addition, U.S. embassies and the Department face the challenge of managing
the Global HIV/AIDS, Tuberculosis, and Malaria program with a budget of nearly
$10 billion a year. The Department established the position of Director of Foreign
Assistance in 2006, and began to build a process for integrating strategic planning
and budgeting of foreign assistance into the strategic planning of the U.S. Govern­
ment’s other foreign policy goals. Although this initiative responds to widely shared
concerns about the modernization of the U.S. Government’s management of foreign
assistance, it remains a work in progress.




3
 A simpliﬁed acquisitio is a purchase made from a private commercial business source totaling
$100,000 or less (or $5.5 million for commercial items).


Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   109
110   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
BROADCASTING BOARD OF GOVERNORS

AUDITS

AUDITS


Review of the Information Security Program at the
Broadcasting Board of Governors (AUD/IT-10-09)

In response to the Federal Information Security Management Act of 2002 (FISMA),
OIG performed an independent evaluation of the information security program at
BBG. OIG reviewed BBG’s progress in addressing information management and
information security program requirements per FISMA and other statutory require­
ments, including OMB guidance. OIG assessed performance in areas that included
certiﬁcation and accreditation (C&A), plans of action and milestones (POA&M), se­
curity awareness and training, conﬁguration management, inventory, incident report­
ing, and privacy requirements.

Since FY 2008, BBG has taken steps to improve management controls to include the
following:
    •    	Developed conﬁguration management policies.
    • 	 Improved the identiﬁcation and management of inventory systems using
        standards included in applicable Federal Information Processing Standards
        (FIPS) publications.
    • 	 Updated and implemented its Information Security Incident Response Plan
        to include Breach Notiﬁcation Policy and Incident Management Policies.
    • 	 Improved implementation of privacy programs, including the development
        and implementation of privacy awareness training for all Federal employees
        and contractors.

However, further improvements are needed, and OIG recommended BBG take the
following actions:
    • 	 Develop policies and procedures for C&A, and conduct C&A on all seven
        of its “moderate-level” systems as categorized in FIPS 199. This C&A
        testing includes the development of a system security plan and testing and
        monitoring the effectiveness of the information security policies, proce­
        dures, practices, and security controls on an ongoing basis with the frequen­
        cy based on risk, but no less than annually.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   111
      • 	 Ensure all weaknesses that are identiﬁed during reviews, including C&A,
          and that require remediation are tracked in BBG’s POA&M system; cre­
          ate and implement POA&M policies and processes that are in compliance
          with OMB guidelines and National Institute of Standards and Technology
          recommendations; ensure that milestones include reasonable scheduled
          completion dates, timely tasks, and progress steps; and require that each
          identiﬁed weakness include the estimated cost to remediate and that these
          cost estimates, along with the severity of the weaknesses, be used to priori­
          tize the weaknesses for timely correction.
      • 	 Require all Federal employees and contractors to take the security aware­
          ness training before they are granted log-in privileges to the system, offer
          the security awareness training on a regular basis and monitor employees’
          compliance, and develop security awareness policy that makes the course
          mandatory per OMB guidance.



Independent Auditor’s Report on the Broadcasting
Board of Governors 2009 and 2008 Financial Statements
(AUD/IB-10-04)

An independent external auditor issued an unqualiﬁed opinion on BBG’s annual ﬁ­
nancial statements as of September 30, 2009 and 2008, and for the years then ended.
Although an unqualiﬁed opinion was issued, the report brought to management’s
attention three signiﬁcant deﬁciencies related to internal controls over the ﬁnancial
and accounting system, accounts payable, and property.



Management Letter Related to the Audit of the
Broadcasting Board of Governors 2009 and 2008
Financial Statements (AUD/IB-10-19)

During the audit of BBG’s 2009 and 2008 ﬁnancial statements, the independent ex­
ternal auditor identiﬁed internal control weaknesses or instances of noncompliance
with selected provisions of applicable laws and regulations relating to undelivered
orders, government purchase cards, grants management, information security, non-
personnel expenses, and accounts receivable. The external auditor recommended that
BBG take appropriate action to address these weaknesses.




112        Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
 INSPECTIONS

 INSPECTIONS


 Inspection of Broadcasting Board of Governors,
 Sarajevo, Bosnia and Herzegovina (ISP-IB-10-18)

 During the inspection of the Broadcasting Board of Governors (BBG) operations in
 Bosnia and Herzegovina, the inspection team noted that U.S. international broadcast­
 ing entities must reach a vast audience throughout the country. Both the Ofﬁce of
 Marketing and Program Placement (OMPP) and Radio Free Europe/Radio Liberty
 (RFE/RL) were successfully producing and marketing to reﬂect American society
 and report accurate, objective, and balanced news, information, and programming
 about America and the world.

 The Ofﬁce of Marketing and Program Placement’s goal was to ensure its programs
 were reaching all of Bosnia and Herzegovina with 68 afﬁliate stations throughout
 the country. There was a particular interest in adding afﬁliate stations in Republika
 Srpska, where the media was under increasing pressure from the ethnic Serb Gov­
 ernment.

 The entities were receiving good support from Embassy Sarajevo when needed. Ra­
 dio Free Europe/Radio Liberty had excellent cooperation with the embassy, particu­
 larly with the ofﬁce of public affairs.



 Inspection of Limited Scope Inspection of Radio Free
 Europe/Radio Liberty’s New Headquarters in Prague,
 Czech Republic (ISP-IB-10-27)

 In response to a request from the BBG, OIG conducted a limited-scope inspection
 of the new headquarters for Radio Free Europe/Radio Liberty in Prague, Czech Re­
 public. OIG reviewed the security and management aspects of the planning for and
 implementation of the project for the relocation of the RFE/RL headquarters. The
 strong and comprehensive structure provided by the three major documents pro­
 duced by the Bureau of Overseas Buildings Operations, especially the build-to-lease
 agreement between RFE/RL and ORCO Property Group, and the close coordina-




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   113
tion and communication between the parties and within RFE/RL enabled an excep-
tionally smooth, efficient, and cost-effective implementation, resulting in a striking
building that is very efficiently configured. RFE/RL’s director of corporate security
has a strong security program, which is due primarily to his diligence and the support
of RFE/RL’s president.


                                      BEST PRACTICE

       Securing Staff Buy-in for a Move to a New Office Building

       Issue: A move to a new office building is a radical disruption. In fa-
       cilitating the transition, the issues are how best to inform the staff
       about the progress of the project and the working conditions that
       they will find in the new office, keeping them apprised of changes
       in schedule, and securing staff buy-in regarding the move.

       Response: The RFE/RL relocation team started early with efforts
       to communicate with staff regarding what would be happening in
       the move and how it would affect them. Throughout the project,
       RFE/RL employees received briefings via intranet communica-
       tion and town hall meetings. The team also surveyed employees
       for input on selecting computers and office chairs, making park-
       ing arrangements, and determining storage options to increase
       employee involvement and foster buy-in. It also gave rise to some
       helpful suggestions. As construction approached completion, the
       RFE/RL organized tours of the new building for each of the 28
       language services to acquaint employees with the building con-
       figuration and how it would be utilized. RFE/RL increased commu-
       nications as move-in day approached, especially since the move
       required leapfrogging RFE/RL’s radio services to the new location,
       while still maintaining broadcasting. RFE/RL explained delays and
       discussed their consequences with employees.

       Result: Many employees felt an initial hesitancy toward the move
       and the new building, but as they moved in and got settled, it gave
       way to mostly enthusiastic acceptance due primarily to the consis-
       tent flow of communication throughout the project.




114      Office of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
 Inspection of the Broadcasting Board of Governors’
 Middle East Broadcasting Networks, Inc. (ISP-IB-10-28)

 The Middle East Broadcasting Networks, Inc. (MBN) is a BBG grantee organization.
 Its Alhurra Television and Radio Sawa performed a vital function, providing accurate
 and objective news to the Middle East and explaining American foreign policy. Since
 its launch in 2004, the organization has hired staff and established strategic direction
 and structure. MBN has evolved into a mature media organization, but there is still
 room for progress. The MBN security program was managed effectively in spite of
 an apparent lack of resources.

 The public debate about MBN has focused on the effectiveness of Alhurra Televi­
 sion and Radio Sawa. The current audience research measures credibility and audi­
 ence numbers. Expanding the research mix could enhance MBN’s understanding of
 its impact and ways to be more effective in the region.

 Communication in the newsroom needed improvement. Many staff felt that senior
 news management should improve responsiveness, decisiveness, and transparency.
 MBN has made signiﬁcant progress in organizing human resources management;
 solving numerous personnel-related problems; and beginning to establish standard­
 ized procedures despite having vacancies in two key positions, which impeded prog­
 ress.



 Inspection of International Broadcasting Bureau Kuwait
 Transmitting Station (ISP-IB-10-45)

 The International Broadcasting Bureau (IBB) Kuwait Transmitting Station has
 become a key BBG asset, one of the most cost-effective among IBB transmitting
 stations, and had an availability rating of 99.73 percent for the month of September
 2009. The station manager and staff did a good job of developing and managing this
 asset, but there are opportunities to improve further, particularly in terms of man­
 agement controls.

 The Kuwait Transmitting Station is a key part of IBB’s global satellite interconnect
 system, which was a change from the station’s status at the time of the last OIG
 inspection in 2003.4 However, although the station had greater responsibilities than
 in the past, it lacked the freedom to quickly carry them out.


 4
     OIG Report No. IBO-I-04-04, Inspection of IBB’s Kuwait Transmitting Station, March 2004.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   115
The station served as a staging facility and storage site that has received large quanti­
ties of equipment from other decommissioned IBB transmitting stations. Much of
this equipment was used, or IBB intends to use it, at the station in support of the
station’s expanding role within BBG’s global broadcast network.

The station manager was managing work on several major projects. One project is
the construction of a $5.2-million, 600,000-watt, medium-wave transmitter intended
to reach a high-priority audience in Iran, but the project is far behind schedule due to
complications with the contractor.

The management and engineers at the IBB Kuwait Transmitting Station were frus­
trated by delays when trying to troubleshoot information technology problems,
which are now unnecessarily out of their control. To carry out its greater responsi­
bilities, steps need to be taken to expedite the resolution of troubleshooting informa­
tion technology problems and improve two-way communications between IBB and
the Kuwait Transmitting Station.



Memorandum Report, Broadcasting Board of Governors
Operations in Kabul (ISP-IB-10-48)

U.S. international broadcasting entities in Kabul play an important role in reporting
the news in a country where the local media are still in the development stage. They
serve as facilitators of discussions among the Afghans themselves on important is­
sues affecting the future of their nation, thus helping to build civil society.

BBG has two collocated ofﬁces in Kabul. The largest is RFE/RL for Radio Azadi,
the local name for Radio Free Afghanistan. The service broadcasts 12 hours a day,
from 7:00 a.m. to 7:00 p.m., Kabul time, in Dari and Pashto. The second ofﬁce is the
Voice of America (VOA), called Radio Ashna, which broadcasts on the same fre­
quencies during the other 12 hours of the day, from 7:00 p.m. to 7:00 a.m., forming a
continuous block. VOA also broadcasts a daily, 1-hour television program.

Because of contradictory and outdated legacy employment laws in Afghanistan,
RFE/RL has not yet executed with its Kabul bureau staff the types of employment
contracts it offers in its other, more developed locations. OIG recommended that
BBG and RFE/RL resolve the issues of the employment status of Radio Azadi
bureau’s staff and seek ways to provide competitive salaries and beneﬁts to the staff
members in Kabul.




116      Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
 FM radio is increasingly popular in Afghanistan; however FM transmitters have a
 very limited range in the mountainous country. OIG recommended the International
 Broadcasting Bureau continue to push forward with efforts to expand FM coverage
 in Afghanistan and determine whether the U.S. military’s planned cell phone towers
 could be used by BBG broadcasters.

 Relations between the BBG entities and the Embassy Kabul are generally cordial.
 The BBG entities rely on embassy support for some shipments. However, the proper
 procedures for the notiﬁcation, handling, and conveyance of such shipments have
 not been communicated to all staff members involved. OIG recommended Embassy
 Kabul and the International Broadcasting Bureau develop written standard operating
 procedures for processing International Broadcasting Bureau shipments, including
 clear instructions about notiﬁcation and handling.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   117
118   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
INVESTIGATIONS

INVESTIGATIONS

OIG conducted an investigation of a BBG employee who incurred unauthorized of­
ﬁcial cellular telephone charges in the amount of approximately $6,000. When inter­
viewed, the subject admitted to misusing the ofﬁcial cellular telephone to call female
acquaintances in two different overseas locations. The case was declined for criminal
prosecution. On February 26, 2010, BBG proposed termination for the employee for
misuse of the cellular telephone and for a lack of candor during the investigation.
(09-074)




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   119
120   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
APPENDIX 1: BBG INVESTIGATIVE
ACTIVITIES

 Preliminary Inquiries
 Opened                                                                   0
 Closed                                                                   0

 Investigations
  Opened                                                                  2
  Closed                                                                  3
  Pending (3/31/10)                                                       2

 Criminal Actions
 Referrals for Prosecution                                                0
 Indictments/Informations                                                 0
 Convictions                                                              0
 Sentencings (Months Imprisonment)                                        0
 Sentencings (Months Probation)                                           0
 Declinations                                                             0

 Civil Actions
 Civil Referrals                                                          0
 Civil Judgments                                                          0
 Civil Declinations                                                       0

 Administrative Referrals
 Referrals for Personnel Action                                           0
 Suitability Referrals to DS                                              0

 Administrative Actions
 Removals                                                                 1
 Suspensions                                                              1
 Reprimand/Admonishments                                                  0
 Debarment Actions                                                        0

 Monetary Recoveries
 Criminal Fines/Recoveries                                               $0
 Civil Recoveries                                                        $0
 Administrative Recoveries                                               $0
 Total Investigative Recoveries                                          $0




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   121
122   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
APPENDIX 2: REPORTS ISSUED
                    ISSUED


 Report Number                  Report Title
 AUD/IB-10-04                   Independent Auditor’s Report on the Broadcasting Board of
                                Governors 2009 and 2008 Financial Statements

 AUD/IB-10-19                   Management Letter Related to the Audit of the Broadcasting Board
                                of Governors 2009 and 2008 Financial Statements

 AUD/IT-10-09                   Review of the Information Security Program at the Broadcasting
                                Board of Governors

 ISP-IB-10-18                   Memorandum Report, Broadcasting Board of Governors
                                Operations in Sarajevo

 ISP-IB-10-27                   Inspection of Limited Scope Inspection of Radio Free Europe/Radio
                                Liberty’s New Headquarters in Prague, Czech Republic

 ISP-IB-10-28                   Inspection of the Broadcasting Board of Governors’ Middle East
                                Broadcasting Networks, Inc.

 ISP-IB-10-45                   Inspection of International Broadcasting Bureau Kuwait
                                Transmitting Station

 ISP-IB-10-48                   Memorandum Report, Broadcasting Board of Governors
                                Operations in Kabul




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   123
124   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
APPENDIX 3: SAVINGS AND MORE 

EFFECTIVE USE OF RESOURCES

                 RESOURCES

                                          Table 1

                           Inspector General Issued Audit Reports

                                   With Questioned Costs

        Type of Report                                      Number          Questioned             Unsupported
                                                              of              Costs                   Costs
                                                            Reports         (Dollars in             (Dollars in
                                                                            Thousands)             Thousands)
  A.	   For which no management decision has
        been made by the commencement of the
                                                                  0                  $0                 $0
        reporting period
  B.	   Which were issued during the reporting
        period                                                    0                  $0                 $0

        Subtotals (A + B)
                                                                  0                  $0                 $0
  C.	   For which a management decision was
        made during the reporting period

        (i) dollar value of disallowed costs
                                                                  0                  $0                 $0
        (ii) dollar value of costs not disallowed
                                                                  0                  $0                 $0
  D.	   For which no management decision has
        been made by the end of the reporting                     0                  $0                 $0
        period
        Reports for which no management
        decision was made within 6 months of                      0                  $0                 $0
        issuance




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010       125
                 Table 2: Inspector General Issued Audit Reports 

                       With Recommendations That Funds 

                               Be Put To Better Use


       Type of Report	                                  Number of            Dollar Value
                                                        Reports              (in Thousands)
 A.	   For which no management decision has
       been made by the commencement of                         0                     $0
       the reporting period
 B.	   Which were issued during the reporting
                                                                0                     $0
       period

       Subtotals (A + B)

                                                                0                     $	 0
 C.	   For which a management decision was
       made during the reporting period

       (i) dollar value of recommendations that
       were agreed to by management                             0                     $0
       *based on proposed management action

       *based on proposed legislative action

       (ii) dollar value of recommendations that
       were not agreed to by management                         0                     $0

 D.	   For which no management decision has
       been made by the end of the reporting
                                                                0                      $	 0
       period

       Reports for which no management
       decision was made within six months of                   0                     $0
       issuance




126      Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
 APPENDIX 4: AUDITS PERFORMED BY
 CONTRACTORS

  Report Number                Report Title
  AUD/IB-10-04                 Independent Auditor’s Report on the Broadcasting Board
                               of Governors 2009 and 2008 Financial Statements
                               Leonard G. Birnbaum and Company, LLP
                               Financial Audit
  AUD/IT-10-09                 Review of the Information Security Program
                               at the Broadcasting Board of Governors
                               Regis & Associates, PC
                               Information Technology Audit
  AUD/IB-10-19                 Management Letter Related to the Audit of the Broadcast-
                               ing Board of Governors 2009 and 2008 Financial Statements
                               Leonard G. Birnbaum and Company, LLP
                               Financial Audit




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   127
128   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
APPENDIX 5: MANAGEMENT AND
PERFORMANCE CHALLENGES

The Reports Consolidation Act of 2000 requires that the BBG’s Performance Accountability
Report include a statement by the Inspector General that summarizes the most seri­
ous management and performance challenges facing BBG and brieﬂy assesses the
progress in addressing those challenges. OIG considers the most serious manage­
ment and performance challenges for the BBG to be in the following areas:
     1. Attention to Management and Administrative Operations
     2. Managing Broadcast Programs
     3. Need for Improved Internal Controls
     4. Information Technology
     5. Need to Inform Constituencies About BBG’s Journalistic Mandate




1. Attention to Management and Administrative Operations

The Voice of America’s (VOA) Central News Division, inspected in 2008, contin­
ues to address outstanding OIG recommendations. It is creating standard operating
procedures for its assignments desk, performance measures for the News Division,
and performance standards for its services. However, these projects are awaiting full
implementation of the News Division reorganization. Training is underway for the
news management system. VOA expects the Paris ﬁnancial ofﬁce to be closed in FY
2010 and relocated to the London facility.

Voice of America successfully built the Persian News Network (PNN) formerly
Persian Service into its full-ﬂedged network in an extraordinarily short time. It is
still working on an organization chart and is in the process of creating a Persian-
language news desk. VOA conducted an analysis of administrative support work­
loads throughout the organization, including PNN, and is analyzing the information
before making changes. VOA is seeking ways to provide its PNN managers appro­
priate managerial training to handle the high-stress environment and to deal with




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   129
two cultures and languages and various political and religious points of view. PNN
also needs appropriate team building training for management and staff to address
unacceptable professional behavior. PNN has located all non-expendable equipment
purchased from 2006 to 2008 and now needs to locate all the supporting purchase
documentation.

VOA news bureau in London does an excellent job with a reduced staff. One man­
agement challenge is to inform the various VOA language services of the studio plat­
form that is available to supplement their programs.



2. Managing Broadcast Programs

There is great interest in PNN in the foreign policy community, and PNN works to
achieve open and transparent operations. When PNN expanded rapidly to 6 hours
of original daily programming, it engaged people with varying levels of skills and ex­
perience. Under these circumstances, maintaining quality presents a challenge. PNN
managers work to maintain standards daily. PNN has hired experienced television
journalists as contractors to serve as mentors to less experienced staff. It has often
enlisted disinterested Persian-speaking experts to provide advisory assistance. This
challenge requires vigilance in order for PNN to maintain journalistic credibility.

In 2006, the BBG created Deewa Radio at Voice of America. Its target audience
is the Pashtun population on the Pakistan side of that country’s troubled border
region with Afghanistan. It has an effective system of review in place to ensure that
the broadcasted material meets VOA standards for accuracy and balance. If Deewa
Radio continues to grow, VOA will have to take into account its staff and size and
training requirements to maintain continued effectiveness and quality.



3. Need for Improved Internal Controls

In 2008, BBG received an unqualiﬁed opinion on its ﬁnancial statements for the
fourth year. Although this is a signiﬁcant achievement, BBG needs to continue to
improve its internal controls over ﬁnancial and accounting issues. For example, in its
annual report on BBG’s FY 2008 ﬁnancial statements, the independent external audi­
tor identiﬁed concerns with the adequacy of BBG’s ﬁnancial and accounting system
and with controls over accounts payable.




130      Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
In a separate management letter, the independent external auditor also identiﬁed
internal control weaknesses relating to BBG’s property records, undelivered orders,
purchase card oversight, grants management, and non-personnel expenses.

During FY 2008, BBG transitioned to a new ﬁnancial service provider, which may
correct several internal control weaknesses. BBG also is implementing new controls
to address the issues identiﬁed. For example, BBG now reconciles information on
property from the ﬁnancial management system to the property database, and it has
established an Agency Property Management Ofﬁce to improve control over prop­
erty.



4. Information Technology

During FY 2009, BBG formalized its systems inventory management approach,
updated its Information Security Incident Response Plan, developed a comprehen­
sive conﬁguration management policy, and enhanced its incidence response pro­
gram However, BBG continues to be challenged in implementing a fully effective
information security management program. BBG has not performed certiﬁcation
and accreditation (C&A) for all its major information systems. In 2008, only one of
BBG’s 11 major systems had a completed C&A. In 2009, the status of C&A for the
10 remaining major information systems remained unchanged. In addition, BBG’s
information security architecture had not been completed, and items identiﬁed in the
Plan of Actions and Milestones were not actively monitored and validated, with re-
mediation steps to correct the weaknesses not being implemented. As a result, OIG
continues to report that BBG is not fully compliant with the statutory requirements
of the Federal Information Security Management Act of 2002.



5. Need to Inform Constituencies About BBG’s Journalistic
Mandate

In the OIG inspections of VOA’s Persian News Network and VOA’s Deewa Ra­
dio, it became clear that many people, both in the United States and abroad, have
a conception of the role and mandate of BBG entities that is not consistent with
their statutory mandate. OIG is sometimes requested by Congress, for example, to
inspect broadcast services or BBG journalistic standards. It is clear that most of the
issues raised by Congressional Committees and Members of Congress are more than
worthy of examination, but equally clear that some issues would not have been raised
if BBG constituencies had a better understanding of BBG’s statutory requirements,
the journalistic protections provided by the bipartisan board that acts as agency head,
and the journalistic codes of its broadcast entities.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   131
OIG believes that ongoing outreach efforts to the Congress and other stakeholders,
including at overseas posts, should include a brieﬁng explaining the organization, its
mission, and its built-in journalistic protections.




132     Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
ABBREVIATIONS

ABBREVIATIONS

     A/OPR/GSM 	                          Bureau of Administration, Ofﬁce of Operations,
                                          Ofﬁce of General Services Management
     APP 	                                American Presence Post
     ARRA 	                               American Recovery and Reinvestment Act
     BBG 	                                Broadcasting Board of Governors
     C&A                          	       certiﬁcation and accreditation
     CA 	                                 Bureau of Consular Affairs
     CFR 	                                compliance follow-up review
     CIO 	                                Chief Information Ofﬁcer
     COM 	                                Chief of Mission
     COR                          	       contracting ofﬁcer’s representative
     CP                           	       contingency plan
     CSAF 	                               Customer Service Advisory Forum
     DCM 	                                deputy chief of mission
     Department 	                         U.S. Department of State
     DOD 	                                U.S. Department of Defense
     DS 	                                 Bureau of Diplomatic Security
     DS/EX 	                              Executive Directorate, DS
     ECA 	                                Bureau of Educational and Cultural Affairs
     ECPO 	                               Emergency Project Coordination Ofﬁce
     FAR 	                                Federal Acquisition Regulation
     FISMA 	                              Federal Information Security Management Act
     GIG 	                                goal implementation groups
     HR 	                                 Bureau of Human Resources
     HR/PE 	                              Bureau of Human Resources, Ofﬁce of
                                          Performance Evaluation
     HVAC	                                heating, ventilation, and air conditioning
     IBWC 	                               International Boundary and Water Commission




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   133
      ICASS 	                               International Cooperative Administrative Support
                                            Services
      INL 	                                 Bureau of International Narcotics and Law
                                            Enforcement Affairs
      IRM 	                                 Bureau of Information Resource Management
      IT                             	      information technology
      JAS 	                                 joint administrative services
      LE                             	      locally employed
      MBN 	                                 Middle East Broadcasting Networks, Inc.
      MERO 	                                Middle East Regional Ofﬁce
      MFO 	                                 Multinational Force and Observers
      MOU 	                                 memorandum of understanding
      MSP 	                                 Mission Strategic Plan
      NEA 	                                 Bureau of Near Eastern Affairs
      NEC 	                                 new embassy compound
      NIV 	                                 nonimmigrant visa
      NGO                            	      nongovernmental organization
      OAS 	                                 Organization of American States
      OBO 	                                 Bureau of Overseas Buildings Operations
      OFM 	                                 Ofﬁce of Foreign Missions
      OIG                            	      Ofﬁce of Inspector General
      OMB                           	       Ofﬁce of Management and Budget
      ONDCP                          	      Ofﬁce of National Drug Control Policy
      PA	                                   Bureau of Public Affairs
      PEPFAR 	                              President’s Emergency Plan for AIDS Relief
      PIERS 	                               Passport Information Electronic Records System
      PII 	                                 personally identiﬁable information
      PMO 	                                 Program Management Ofﬁce
      PM/WRA 	                              Bureau of Political-Military Affairs, Ofﬁce of
                                            Weapons Removal and Abatement
      POA&M 	                               plan of action and milestones
      PRM 	                                 Bureau of Population, Refugees and Migration
      RFE/RL 	                              Radio Free Europe/Radio Liberty



134           Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010
    RM                                    Bureau of Resource Management
    SAR                                   Semiannual Report to the Congress
    S/GAC                                 Ofﬁce of the U.S. Global AIDS Coordinator
    UNRWA                                 United Nations Relief and Works Agency for
                                          Palestine Refugees in the Near East
    USACE                                 U.S. Army Corps of Engineers
    USAID                                 U.S. Agency for International Development
    USEU                                  U.S. Mission to the European Union
    USIBWC                                International Boundary and Water Commission,
                                          United States and Mexico, U.S. Section
    USNATO                                U.S. Mission to the North Atlantic Treaty
                                          Organization
    USOAS                                 U.S. Permanent Mission to the OAS
    VOA                                   Voice of America
    VoIP                                  Voice over Internet Protocol
    WHA                                   Bureau of Western Hemisphere Affairs




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2009, to March 31, 2010   135
                   INDEX   OF   R E P O RT I N G R E Q U I R E M E N T S 

              INSPECTOR GENERAL ACT            OF   1978,      AS AMENDED





REQUIREMENT                            SUBJECT                               PAGE NUMBERS

Section 4(a)(2)    Review of legislation and regulations                     15

Section 5(a)(1)    Summary of Signiﬁcant problems, abuses, and deﬁciencies   3-12

Section 5(a)(2)    Signiﬁcant recommendations for corrective action          86-87

Section 5(a)(3)    Prior signiﬁcant recommendations unimplemented            85-98

Section 5(a)(4)    Matters referred to prosecutive authorities               69-73, 125

Section 5(a)(5)    Information or assistance refused                         none

Section 5(a)(6)    List of reports issued                                    77-82, 129

Section 5(a)(7)    Summaries of signiﬁcant reports                           19-68, 117-123

Section 5(a)(8)    Audit reports–questioned costs                            83, 130

Section 5(a)(9)    Audit reports–funds to be put to better use               84, 132

Section 5(a)(10)   Prior audit reports unresolved                            100-102

Section 5(a)(11)   Signiﬁcant revised management decisions                   none

Section 5(a)(12)   Signiﬁcant management decisions with which
                   OIG disagreed                                             none
